<html>
<title> - INTERNATIONAL DEVELOPMENT PRIORITIES IN THE FISCAL YEAR 2013 BUDGET</title>
<body><pre>[Senate Hearing 112-600]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-600

  INTERNATIONAL DEVELOPMENT PRIORITIES IN THE FISCAL YEAR 2013 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE

76-687 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        













                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Lugar, Richard G., U.S. Senator from Indiana, opening statement..     3
Shah, Dr. Rajiv, Administrator, U.S. Agency for International 
  Development, Washington, DC....................................     5
    Prepared statement...........................................     8
    Responses to questions submitted by the following Senators:
        John F. Kerry............................................    30
        Richard G. Lugar.........................................    36
        Robert P. Casey, Jr......................................    60
        Tom Udall................................................    66
        Marco Rubio..............................................    72
        James M. Inhofe..........................................    74

                                 (iii)

  

 
  INTERNATIONAL DEVELOPMENT PRIORITIES IN THE FISCAL YEAR 2013 BUDGET

                              ----------                              


                         TUESDAY, MARCH 6, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:55 p.m,. in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senators Cardin, Menendez, Coons, Udall, Lugar, 
Corker, Inhofe, and Isakson.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. The Senate Foreign Relations Committee will 
come to order.
    I want to thank Chairman Kerry for allowing me to chair 
this hearing.
    I want to welcome Dr. Shah back to the Senate Foreign 
Relations Committee.
    I want to first, on behalf of the committee, on behalf of 
all the Members of the Senate, express our deepest condolences 
on the loss of Congressman Donald Payne, and our sympathy goes 
to his family. I do not know of a more tireless fighter on 
behalf of foreign aid and assistance and humanitarian efforts 
who knew the continent of Africa better than Congressman Donald 
Payne. I had the opportunity to serve with him in the House of 
Representatives and he was always a champion for our 
involvement in the continent of Africa and around the globe for 
the right reasons. And he will be sorely missed in the Congress 
of the United States.
    I want to compliment USAID for naming a fellowship in his 
name. I think it is a fitting tribute to the work that he has 
done throughout his career. And again, we offer our deepest 
condolences to his family.
    At today's hearing we have the USAID Administrator, Dr. 
Shah, with us to provide testimony on USAID's fiscal year 2013 
budget request. As you know, I believe that our international 
development assistance is a critical investment in America's 
national security. I recognize that Dr. Shah and his team have 
made tough choices in this year's request, and I look forward 
to hearing more about those in our discussion today. I believe 
this is a budget that protects America's security interests and 
maintains U.S. global leadership while also encouraging more 
efficient use of taxpayers' dollars.
    Development, along with defense and diplomacy--the three 
D's--is one of the three critical prongs that help to ensure 
America's national security. As the chairman of the Senate 
Foreign Relations Committee's Subcommittee on International 
Development and Foreign Assistance, I know firsthand how smart 
investments and worthy development projects are not only the 
right thing to do, but they have a profound impact on global 
stability.
    Often Americans do not understand how the work of the State 
Department and USAID affect their lives. Aside from the 
humanitarian and moral imperative of improving lives in the 
world's neediest places, I would also like to underscore how 
our development assistance overseas expands export markets and 
ultimately strengthens our domestic job market. We have an 
economic interest in what we do globally as far as our 
development assistance is concerned.
    We will also continue to champion programs that bring 
greater transparency and good governance to the countries in 
which they are implemented and applaud the administration's 
effort to redouble our own Government's transparency. Good 
governance is a critical part to our international involvement 
objectives. I also hold that empowering women is one of the 
most critical tools in our tool box to fight poverty and 
injustice. Gender integration, both in programming in the field 
and in planning in D.C., must be a central part of all of these 
programs. I defy anyone's assertion that women's empowerment 
should take a back seat to any other so-called more important 
priorities. I put on that list my efforts to encourage land 
reform. Many women around the world are doing the agricultural 
work and not getting the benefits of it, and land reform is a 
critical part of our objectives.
    Dr. Shah, I want to praise your release last week of the 
new USAID Policy for Gender Equality and Female Empowerment, 
which makes integrating gender and including women and girls 
central to all U.S. international assistance. This policy, 
which updates guidelines that were over 30 years old, 
recognizes that the integration of women and girls is basic to 
effective international assistance across all sectors like food 
security, health, climate change, science and technology, 
economic growth, democracy, and governance and humanitarian 
assistance. It aims to increase the capacity of women and girls 
and decrease inequality between genders and also to decrease 
gender-based violence.
    As Secretary Clinton pointed out more than 15 years ago, 
``Women's rights are human rights,'' and nothing is more 
fundamental in my opinion. I will continue to oversight and 
advocate the programs under the jurisdiction of the 
subcommittee to receive appropriate funding and rigorous 
implementation with regard to these priorities and look forward 
to working with the Department to achieve these goals.
    America's active engagement abroad serves our economic and 
strategic purposes but is also rooted in our national values. 
Under the bipartisan initiative of the President's Emergency 
Plan for AIDS Relief, also known as PEPFAR, we have valiantly 
battled the spread of HIV in Africa.
    Today, in conjunction with the Global Fund to Fight AIDS, 
Malaria and Tuberculosis, over 4.7 million people are receiving 
AIDS treatment, up from only 50,000 in 2003.
    The focus on global health, as well as the critical issue 
of food security, under the initiative of Feed the Future 
highlights the administration's commitment to creating 
sustainable solutions to fundamental development challenges.
    With more than $15 million spent on development programs in 
Afghanistan since 2002, USAID provides its largest bilateral 
civilian assistance programs to that country. And with that 
money and effort, Afghanistan has achieved some notable 
development gains, and we should give credit to the dedicated 
men and women of USAID where credit is due. Expanded access to 
health services and basic education, improvements in maternal 
and infant mortality rates, improved irrigation systems, new 
women-owned small and medium enterprises--all of these success 
stories underscore that when executed properly and in close 
alignment with the Afghan people, the United States can make a 
huge difference in development.
    The challenge now is to learn from these lessons and focus 
on what is necessary, achievable, and sustainable, given 
limited resources and the changing political and security 
environment in Afghanistan. I have continuing concerns that 
achieving those standards is increasingly slipping out of our 
grasp.
    Our civilians are operating in a very challenging 
environment and have assumed considerable risk in support of 
the President's civilian-military strategy for Afghanistan. 
Since 2003, 387 USAID partners implementing its programs have 
been killed in action and another 658 wounded in action. Moving 
forward, their safety must be our upmost concern.
    As we begin the challenge of transition, unity of effort 
across the U.S. Government will be critical to getting it 
right. If a civilian program lacks achievable goals and needs 
to be scaled back, no other actors should take over that 
effort. We must keep good governance, fighting corruption, and 
gender integration at the core of our work.
    U.S. spending on international affairs has been a frequent 
target of budget-cutting lawmakers. But if the United States is 
to remain a global power, then it must sustain investments in 
diplomacy and foreign aid commensurate with its national 
security and international interests. As Secretary Clinton put 
it last week in her testimony before this committee, this is a 
``downpayment on America's leadership in a fast-changing 
world.''
    Rather than slashing America's international affairs 
budget, we in Congress should work with the administration to 
focus on reforming the international affairs budget, especially 
to ensure that U.S. foreign aid is used more efficiently so it 
continues to have a great impact. I look forward to working 
with you, Dr. Shah, and your team, and I look forward to your 
testimony.
    With that, let me turn to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Chairman Cardin, 
and I join you in your praise in memory of our colleague, 
Congressman Donald Payne of New Jersey. Both of us, I know, 
have had the privilege of being with Don Payne and his brother 
during Aspen Institute conferences abroad and other instances 
of his service in the foreign policy of our country and 
especially in Africa. And we will miss him.
    But it is a special joy to welcome you, Dr. Shah. I admire 
you very much for your willingness to undertake this awesome 
responsibility. We are grateful you are here before the 
committee again today.
    As I emphasized to Secretary Clinton at her hearing before 
the committee last week, we receive budget testimony amid 
continued challenges here at home with the national 
unemployment rate at 8.3 percent and 9 percent in my home State 
of Indiana. Our national debt has grown to more than $15 
trillion. This scenario brings great pressure on our 
Government's financial obligations and places our entire 
economy at risk.
    In this context, the dollars available for global 
development will be limited. The task before us today is to ask 
whether our Government is using these dollars as efficiently as 
possible to achieve the most benefits for U.S. foreign policy 
and development goals. Our foreign assistance should be 
targeted at sustainable development that promotes self-
sufficiency and produces demonstrable results. Ideally, it also 
would support the strengthening of democracies and promote the 
rule of law. Such a path allows nations to become effective 
trading partners and allies on the world stage.
    The administration has identified global food security, 
global health, and global climate change as the highest 
priorities for our development assistance. Historically, there 
has been broad support for United States participation in 
international efforts to feed vulnerable populations and combat 
infectious diseases. I will be interested to learn from the 
administration the degree to which our food programs have 
engaged our own farmers and our highly regarded agriculture 
research institutions to achieve greater productivity and 
higher yields in countries struggling with food insecurity.
    The administration's expansion of global health investments 
beyond those established in PEPFAR raise several questions. Is 
the priority of the Global Health Initiative combating and 
preventing infectious diseases, or is it building local health 
infrastructure and capacity? How is the agency setting 
priorities, and in what ways are policies moving to country 
ownership? What is our strategy and timetable for turning these 
responsibilities over to the recipient countries?
    As Administrator Shah knows, I have had misgivings about 
USAID's new Global Climate Change Initiative, which under this 
budget would receive $470 million. I have raised questions 
about the rationale behind the program and about a number of 
specific projects proposed under this initiative, especially in 
the subcategory of adaptation.
    My concern is that USAID is being asked to devote resources 
to a politically determined objective, rather than to 
maximizing development impact. In other words, if there were 
not a Climate Change Initiative basket to fill, would all of 
these projects be worthy purely on their development merits?
    We should recognize that 470 million dollars' worth of 
projects is not going to yield significant global 
climatological benefits, and in fact USAID's own literature 
does not seem to make that claim. So the benefits of these 
projects are meant to be local. If that is the case, then we 
should be applying rigorous standards on that basis to every 
development dollar spent.
    Hunger and disease are so fundamental to the human 
condition and are so obstructive to the advancement of 
societies that in most cases, their connection to basic 
development goals is apparent. In my observation, adaptation 
projects under this initiative have a much weaker connection to 
basic development and their results will be more difficult to 
measure.
    My intent would be to ask the General Accountability Office 
to examine the program, the standards being applied to it, and 
whether projects will yield results that justify the expense, 
especially at a time of diminishing resources.
    In closing, as I did with Secretary Clinton last week, I 
would like to express my appreciation to the men and women of 
USAID who toil under very difficult and sometimes threatening 
conditions to carry out our Nation's programs abroad. They are 
indeed dedicated public servants, and we are deeply grateful 
for their willingness to serve.
    I look forward to hearing from the Administrator and to our 
further discussion on these topics.
    And I thank you again, Mr. Chairman.
    Senator Cardin. Thank you.
    Dr. Shah, I would be glad to hear from you.

  STATEMENT OF DR. RAJIV SHAH, ADMINISTRATOR, U.S. AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Dr. Shah. Thank you, Chairman Cardin, and thank you, 
Ranking Member Lugar, and members of the committee. I am 
genuinely honored to have the opportunity to be here and look 
forward to your guidance and our discussion on the President's 
fiscal year 2013 budget request for USAID.
    I also want to take a moment to recognize Representative 
Payne. He took time to offer specific counsel to me and to our 
staff on a regular basis, had visited nearly every African 
mission, and we were proud to be able to support a modest 
fellowship to help improve our efforts to build a diverse 
workforce in partnership with his efforts and ideas.
    Two years ago, President Obama and Secretary Clinton asked 
us to elevate development as a core part of our national 
security and foreign policy strategy. We recognize that this 
work is so important that it has required us to do things 
differently. It has required us to be more responsive to 
national security priorities, more effective in foreign policy 
priority contexts, while being much more results-oriented and 
efficient in achieving core development results in food, 
security, health, water and sanitation, education, humanitarian 
assistance and resilience to climate change, and democratic 
governance and basic respect for human rights.
    In this fiscal year 2013 budget request, we believe we have 
made tough choices, choices that are leading us to focus and 
concentrate our investments where we can generate the most 
value for every taxpayer dollar that is invested. In priority 
areas like food and health, we have taken extra efforts to cut 
programs and reallocate resources to those specific countries 
where we think we can get the most results for every dollar 
that we invest. Our maternal health program, for example, has 
been reduced to 24 priority countries in order to support those 
places where the burden of disease is highest and where we can 
get the most results. Our Feed the Future Health Program has 
closed out efforts in Kosovo, Serbia, and Ukraine to be able to 
reinvest resources where we think we can generate the biggest 
impact.
    This approach has been a hallmark of our USAID Forward 
reforms. The President has issued a policy directive on global 
development. The Secretary and I launched the QDDR, and out of 
that came the USAID reform package. Those reforms involve 
investments in science and technology so that we can lower the 
cost structure of doing our work, and we are starting to see 
real results from that. New technologies that, for example, 
help babies breathe and save lives in the first 48 to 72 hours 
of birth in very difficult settings are already making a big 
difference.
    We focus more on monitoring and evaluation, and the 
American Evaluation Association has recognized our efforts and 
called them a gold standard for the Federal Government and 
suggested that other parts of the Federal Government may also 
take a similar approach. We are proud of that, and this year we 
will be publishing more than 200 independently peer-reviewed 
evaluations publicly on our Web site. So American taxpayers and 
everyone else can see what results we are getting for the 
resources we invest.
    And fundamental to our reforms, we have changed our model 
of partnership to work more directly and effectively with 
faith-based institutions, with private sector companies, with 
universities that have technology and ideas to add, and most 
importantly, with a broad range of local institutions, local 
civil society groups, local businesses and banks, and more 
directly with governments.
    These efforts are designed to help us be more efficient. 
And to provide just one example: In Senegal, by restructuring 
our education program to work directly with local institutions, 
we brought the cost down by almost 55 percent. It allowed us to 
build twice as many schools for the same amount of money, which 
results in more girls getting an education.
    This budget includes a focus on our top priorities. The 
State AID budget request includes a $770 million incentive fund 
to support and provide the responsiveness necessary to respond 
to the situation in the Arab Spring. In frontline states like 
Iraq, Afghanistan, and Pakistan, we continue to implement our 
reforms focused on accountability, making sure that we are 
making our work and the footprint of our work sustainable, and 
doing what we can to ensure that those societies and countries 
have a pathway to success without long-term U.S. assistance and 
engagement at the current levels.
    In each of these areas, we believe, as you have mentioned, 
that there have been significant results, and the challenge 
will be ensuring that they are sustained through a broad 
international partnership and more domestic investment and 
responsibility.
    Our core priorities are also represented in this budget. 
The Global Health budget request of $7.9 billion is the largest 
single item in the foreign assistance budget and allows us to 
achieve the goals we have laid out in very specific terms.
    The President's program for AIDS relief will be on a path 
to put 6 million patients on treatment, while maintaining 
international commitments to make sure that we reach every 
pregnant woman that is HIV-positive as an international 
community with drugs to prevent the transmission to children.
    We will be able to meet our program objectives in the 
malaria program, in which we have already seen more than 30-
percent reductions in child mortality related to what I believe 
is one of the most efficient global health programs out there.
    And we believe there are major new opportunities on the 
horizon with the introduction of new vaccines and the lowering 
of costs in terms of saving children's lives and saving 
mothers' lives, and we are very focused on achieving those 
opportunities in a very results-oriented manner.
    Our food programs have really represented a new way of 
doing business over the past 2 to 3 years. The President's 
program, which we call Feed the Future, has helped to work in 
nearly 20 countries to expand access to agricultural 
development and has done so by engaging U.S. institutions that 
have technology to add, including U.S. universities and farmers 
groups. The program is now generating specific results. In 
Haiti, we are seeing rice yields increase by 170 percent. In 
Kenya, we note that 90,000 dairy farm households have 
experienced an income increase of more than $14 million on an 
annual basis. And Bangladesh, for the first time in 3 decades, 
today has enough rice to feed itself.
    Overall, since Feed the Future was launched, we have seen 
in the 20 target countries agricultural productivity increase 
5.8 percent which is more than eight times the global average 
of 0.7 percent. And because of a more structured and results-
oriented focus on nutrition, we are seeing the rate of child-
stunting in our programs go down.
    It is those types of results that we hope to speak more 
about and deliver more effectively in a more transparent manner 
through our overall reform efforts and through these 
initiatives.
    I would like to close just by thanking our staff. We have 
asked our staff to do extraordinary things in some very 
challenging and often dangerous environments. We appreciate 
your mentioning the issue of how many of our staff have lost 
lives or our partners have lost lives.
    Perhaps the most telling moment for me personally this past 
year was at the end of a conference that we had held, the first 
one since I have been Administrator, with our mission 
directors, our leaders around the world, and they were in. And 
we talked through these reforms and these initiatives and this 
more results-oriented approach. And at the end of the 
conference, a number of them stood up and said that they were 
committed to take these reforms forward even though it often 
means more work and it often means more uncertainty and it 
means changing the way we work because they saw value in it. 
And they saw that by doing so, we could genuinely become the 
world's premier development agency, and this country deserves 
to have an institution that performs at that level.
    Thank you, and I look forward to taking your questions and 
learning from you.
    [The prepared statement of Dr. Shah follows:]

                  Prepared Statement of Dr. Rajiv Shah

    Thank you, Chairman Cardin, Ranking Member Lugar, and members of 
the committee. I am honored to join you to discuss the President's 
fiscal year 2013 budget request for USAID.
    Two years ago, President Obama and Secretary Clinton called for 
elevating development as a key part of America's national security and 
foreign policy. Through both the Presidential Policy Directive on 
Global Development and the Quadrennial Diplomacy and Development 
Review, they made the case that the work USAID's development experts do 
around the globe was just as vital to America's global engagement as 
that of our military and diplomats.
    The President's FY 2013 budget request enables USAID to meet the 
development challenges of our time. It allows us to respond to the 
dramatic political transformations in the Middle East and North Africa. 
It helps us focus on our national security priorities in frontline 
states like Afghanistan, Iraq, and Pakistan. And it strengthens 
economic prosperity, both at home and abroad.
    This budget also allows us to transform the way we do development. 
It helps countries feed, treat, and educate their people while 
strengthening their capacity to own those responsibilities for 
themselves. It helps our development partners increase stability and 
counter violent extremism. It supports those who struggle for self-
determination and democracy and empowers women and girls. And it helps 
channel development assistance in new directions--toward private sector 
engagement, scientific research, and innovative technologies.
    I want to highlight how the investments we make in foreign 
assistance help our country respond to our current challenges, while 
delivering results that shape a safer and more prosperous future.
                efficiency, tradeoffs, and usaid forward
    While foreign assistance represents less than 1 percent of our 
budget, we are committed to improving our efficiency and maximizing the 
value of every dollar. American households around the country are 
tightening their belts and making difficult tradeoffs. So must we.
    Even as we face new challenges around the world, our budget 
represents a slight reduction from fiscal year 2012.
    We've prioritized, focused, and concentrated our investments across 
every portfolio. In global health, we propose to close out programs in 
Peru and Mexico as those countries take greater responsibility for the 
care of their own people.
    We've eliminated Feed the Future programs in Kosovo, Serbia, and 
Ukraine and reduced support to Europe, Eurasia, and Central Asia by 
$113 million to reflect shifting global priorities and progress over 
time by some countries toward market-based democracy.
    And we're keeping our staffing and overall administrative costs at 
current levels, even in the midst of a major reform effort. It is 
through that effort that I spoke about last year--USAID Forward--that 
we've been able to deliver more effective and efficient results with 
our current staffing profile and operating budget.
    Our budget prioritizes our USAID Forward suite of reforms.
    That funding allows us to invest in innovative scientific research 
and new technologies. Last year, our support of the AIDS vaccine 
research through PEPFAR led to the isolation of 17 novel antibodies 
that may hold the key to fighting the pandemic. And we're working with 
local scientists at the Kenyan Agricultural Research Institutes to 
develop new drought-resistant seed varieties of sorghum, millet, and 
beans, as well as a vitamin-A-rich orange-fleshed sweet potato.
    It helps us conduct evaluations so we know which of our development 
efforts are effective and which we need to scale back. The American 
Evaluation Association recently cited our evaluation policy as a model 
other federal agencies should follow.
    It allows us to partner more effectively with faith-based 
organizations and private companies. In fact, the OECD recognized USAID 
as the best amongst peers in driving private sector partnerships and 
investment.
    And through our procurement reform efforts, among the most far-
reaching and ambitious across the federal government, we are 
aggressively seeking new ways to work with host country partners 
instead of through more costly consultants and contractors. This effort 
will make our investments more sustainable and hasten our exit from 
countries, while cutting costs.
    For instance, in Afghanistan, we invested directly in the country's 
Ministry of Health instead of third parties. As a result, we were able 
to save more than $6 million.
    That investment also strengthened the Afghan health ministry, which 
has expanded access to basic health services from 9 percent of the 
country to 64 percent. Last year, we discovered the true power of those 
investments; Afghanistan has had the largest gains in life expectancy 
and largest drops in maternal and child mortality of any country over 
the last 10 years.
    In Senegal, we are working with the government--instead of foreign 
construction firms--to build middle schools at a cost of just $200,000 
each. That helps strengthen the government's ability to educate its 
people, but it is also significantly more cost effective than enlisting 
a contractor.
    When we do invest money in partner governments, we do so with great 
care. Our Agency has worked incredibly hard to develop assessments that 
make sure the money we invest in foreign governments is not lost due to 
poor financial management or corruption.
    With your continued support of this effort, we can expand our 
investments in local systems while building the level of oversight, 
accountability, and transparency that working with a new and more 
diverse set of partners requires.
    The Working Capital Fund we've requested would give us a critical 
tool in that effort. The Fund would align USAID's acquisition and 
assistance to USAID's program funding levels through a fee-for-service 
model, so that our oversight and stewardship is in line with our 
program and funding responsibilities. The result will be improved 
procurement planning, more cost-effective awards, and better oversight 
of contracts and grants.
  supporting strategic priorities and strengthening national security
    We will continue to support the growth of democracies around the 
world, especially in the Middle East and North Africa where the 
transformative events of the Arab Spring are bringing down autocratic 
regimes and expanding freedom.
    State and USAID have requested $770 million for a new Middle East 
and North Africa Incentive Fund to respond to the historical changes 
taking place across the region. The Fund will incentivize long-term 
economic, political, and trade reforms--key pillars of stability--by 
supporting governments that demonstrate a commitment to undergo 
meaningful change and empower their people. State and USAID will 
continue to play a major role in helping the people of this region 
determine their own future.
    In Iraq, Afghanistan, and Pakistan, USAID continues to work closely 
with interagency partners including the State and Defense Departments, 
to move toward long-term stability, promote economic growth, and 
support democratic reforms. Civilians are now in the lead in Iraq, 
helping that country emerge as a stable, sovereign, democratic partner. 
Our economic assistance seeks to expand economic opportunity and 
improve the quality of life throughout the country, with a particular 
focus on health, education, and private sector development. With time, 
Iraq's domestic revenue will continue to take the place of our 
assistance.
    In Afghanistan, we've done work to deliver results despite 
incredibly difficult circumstances. We established our Accountable 
Assistance for Afghanistan--or A3--initiative to reduce subcontracting 
layers, tighten financial controls, enhance project oversight, and 
improve partner vetting. And with consistent feedback from Congress we 
are focusing on foundational investments in economic growth, 
reconciliation and reintegration, and capacity building, as well as to 
support progress in governance, rule of law, counternarcotics, 
agriculture, health and education. We continue to focus on the 
sustainability of these investments so they ultimately become fiscally 
viable within the Afghan Government's own budget.
    In Pakistan, our relationship is challenging and complex, but it is 
also critical. Our assistance continues to strengthen democratic 
institutions and foster stability during a difficult time. Crucial to 
those efforts are the efforts we make to provide electricity. Over the 
last 2 years, we've added as many as 1,000 megawatts to Pakistan's 
grid, providing power to 7 million households. We've also trained more 
than 70,000 businesswomen in finance and management and constructed 215 
kilometers of new road in South Waziristan, expanding critical access 
to markets.
                      the global health initiative
    Thanks in large part to the bipartisan support we've had for 
investments in global health, we're on track to provide life-saving 
assistance to more people than ever before. Although this year's 
request of $7.9 billion for the Global Health Initiative is lower than 
FY 2012 levels, falling costs, increased investments by partner 
governments, and efficiencies we've generated by integrating efforts 
and strengthening health systems will empower us to reach even more 
people.
    That includes PEPFAR, which will provide life-saving drugs to those 
around the world afflicted with HIV and expand prevention efforts in 
those countries where the pandemic continues to grow. We can expand 
access to treatment and lift a death sentence for 6 million people in 
total without additional funds.
    We're also increasingly providing treatment for pregnant mothers 
with HIV/AIDS so we can ensure their children are born healthy. And 
because of breakthrough research released last year, we know that 
putting people on treatment actually helps prevention efforts--
treatment is prevention. All of these efforts are accelerating progress 
toward President Obama's call for an AIDS-free generation.
    Our request also includes $619 million for the President's Malaria 
Initiative, an effective way to fight child mortality. In country after 
country, we've shown that if we can increase the use of cheap bed nets 
and antimalarial treatments, we can cut child death--from any cause, 
not just malaria--by as much as 30 percent. In Ethiopia, the drop in 
child mortality has been 50 percent.
    Last year, we commissioned an external, independent evaluation of 
the Presidential Malaria Initiative's performances. That report praised 
the Initiative's effective leadership for providing ``excellent and 
creative program management.''
    And we will continue to fund critical efforts in maternal and child 
health, voluntary family planning, nutrition, tuberculosis, and 
neglected tropical diseases--cost-effective interventions that mean the 
difference between life and death.
                            feed the future
    Last year, the worst drought in 60 years put more than 13.3 million 
people in the Horn of Africa at risk. Thanks to the humanitarian 
response led by the United States--and the investments we made in the 
past to build resilience against crises just like these--millions were 
spared from the worst effects of the drought.
    But as is well known, providing food aid in a time of crisis is 7 
to 10 times more costly than investing in better seeds, irrigation, and 
fertilizers. If we can improve the productivity of poor farmers in 
partner countries, we can help them move beyond the need for food aid. 
And we can prevent the violence and insecurity that so often 
accompanies food shortages.
    That's why we are requesting $1 billion to continue funding for 
Feed the Future, President Obama's landmark food security initiative. 
These investments will help countries develop their own agricultural 
economies, helping them grow and trade their way out of hunger and 
poverty, rather than relying on food aid.
    The investments we're making are focused on country-owned 
strategies that can lift small-holder farmers--the majority of whom are 
women--out of poverty and into the productive economy. All told, the 
resources we're committing to Feed the Future will help millions of 
people break out of the ranks of the hungry and impoverished and 
improve the nutrition of millions of children.
    We're also leveraging our dollars at every opportunity, partnering 
with countries that are investing in their own agricultural potential 
and helping companies like Walmart, General Mills, and PepsiCo bring 
poor farmers into their supply chain.
    These investments are working.
    In Haiti--where we continue to make great strides thanks to strong 
congressional support--we piloted a program designed to increase rice 
yields in the areas surrounding Port-au-Prince. Even while using fewer 
seeds and less water and fertilizer, Haitian farmers saw their yields 
increase by almost 190 percent. The farmers also cut 10 days off their 
normal harvest and increased profit per acre. Today that program is 
being expanded to reach farmers throughout the country.
    These results complement our work to cut cholera deaths to below 
the international standard. And we worked with the Gates Foundation to 
help nearly 800,000 Haitians gain access to banking services through 
their mobile phones.
    And in Kenya, Feed the Future has helped over 90,000 dairy 
farmers--more than a third of whom are women--increase their total 
income by a combined $14 million last year. This effort is critical, 
since we know that sustainable agricultural development will only be 
possible when women and men enjoy the same access to credit, land, and 
new technologies.
    Overall, since we began the initiative in 2008, our 20 target 
countries have increased their total agricultural production by an 
average of 5.8 percent. That's over eight times higher than the global 
average increase of 0.7 percent
                          building resilience
    We all know that a changing climate will hit poor countries 
hardest. Our programs are aimed at building resilience among the 
poorest of those populations. By investing in adaptation efforts, we 
can help nations cope with these drastic changes. By investing in clean 
energy, we can help give countries new, efficient ways to expand and 
grow their economies. And by investing in sustainable landscapes, we 
can protect and grow rainforests and landscapes that sequester carbon 
and stop the spread of deserts and droughts.
    That work goes hand in hand with our efforts to expand access to 
clean water to people hit hard by drought. In 2010 alone, those efforts 
helped more than 1.35 million people get access to clean water and 2 
million people access to sanitation facilities. Increasingly, we're 
working with countries to build water infrastructure and with 
communities to build rain catchments and wells to sustainably provide 
clean water. We're currently in the process of finalizing a strategy 
for our water work designed to focus and concentrate the impact of our 
work in this crucial area.
                        strengthening education
    Last year, we made some critical decisions about how we strengthen 
global education. Since 1995, USAID's top recipients have increased 
primary school enrollment by 15 percent. But even as record numbers of 
children enter classrooms, we have seen their quality of learning 
sharply drop. In some countries, 80 percent of schoolchildren can't 
read a single word at the end of second grade. That's not education; 
it's daycare.
    The strategy we released last year will make sure that our 
assistance is focused on concrete, tangible outcomes like literacy. By 
2015, we will help improve the reading skills of 100 million children.
                               conclusion
    Thanks to these smart investments, every American can be proud that 
their tax dollars go toward fighting hunger and easing suffering from 
famine and drought, expanding freedom for the oppressed and giving 
children the chance to live and thrive no matter where they're born.
    But we shouldn't lose sight that these investments aren't just from 
the American people--as USAID's motto says--they're for the American 
people. By fighting hunger and disease, we fight the despair that can 
fuel violent extremism and conflict. By investing in growth and 
prosperity, we create stronger trade partners for our country's 
exports.
    And above all, by extending freedom, opportunity and dignity to 
people throughout the world, we express our core American values and 
demonstrate American leadership.

    Senator Cardin. Dr. Shah, thank you very much for that 
update on the budget.
    And I join with Senator Lugar in complimenting the 
dedicated people that you have working for you under extremely 
difficult circumstances. I had a chance to meet with some of 
your mission leaders and they are incredible people, and I 
applaud you for the people that are working with you on this.
    I want to talk a little bit about the overall budget 
problems. You have certainly put a good face on this, but the 
truth is that the budget is very tight. It is basically a no-
growth budget, and you have to make some very difficult 
decisions. So far, you have indicated that you want to be more 
efficient, and we all want you to be more efficient. And your 
example in Senegal is certainly very impressive.
    But we also know that you are moving forward with new 
initiatives, as you indicated, the Middle East with Arab 
Spring, the initiative there. There are additional resources 
being made available in several other areas.
    Last year, in a speech that you made to the Center for 
Global Development on the modern development enterprise, you 
mentioned by 2015 USAID could graduate away from assistance in 
at least seven countries, actually closing the missions in 
those countries.
    Can you just give us an update, with this tough budget--and 
I am one who would like to see you have a larger budget, but 
with this tough budget, what type of programs are likely to 
see--might have to be compromised in order to be able to meet 
the highest priorities that we have, knowing full well that 
efficiency can only take you so far?
    Dr. Shah. Well, thank you, Senator. I think this budget 
does represent our best effort to focus and concentrate. We 
have cut or reduced significantly more than 165 specific 
programs. We have made real reductions in each area where we 
work to concentrate our resources. I mentioned maternal health 
where we shut down 20 or 25 country programs in order to 
reallocate those resources to places where the burden of 
disease was higher and where we felt we could generate more 
lives saved with the investment of the same dollars.
    We are on path to, as I mentioned in that CGD speech, close 
out a number of our missions, places like Panama and 
Montenegro, that can take on the costs of doing what we were 
doing. And that transition to country ownership and 
responsibility is a major part of the strategy. We think of 
that as success when we are able to achieve that outcome.
    And there are 11 more missions where we are actively 
reducing our expenditures quite significantly, and ultimately 
we will go down to zero as those countries take on more 
responsibility.
    So part of it is a geographic focus and reallocation. Many 
of the results-oriented initiatives, by focusing in places 
where the problem is most acute and most solvable, are 
investing resources in Africa perhaps at the expense of other 
regions and geographies. These are just tough tradeoffs that we 
need to be able to make.
    Some are around different issues and topics. We have 
reduced in this budget commitments to certain parts of our 
environmental portfolio in order to focus on delivering human 
outcomes in a clear and specific way. And when we are forced to 
do that, we try very hard to make sure we work with our 
international partners and explore whether others can take up 
the burdens of those costs and those programs so that the 
benefits do not go away. But we have had to make those types of 
tough decisions in this budget.
    Senator Cardin. Well, thank you.
    The administration has said it wants to make AID more 
transparent, a goal that I know Senator Lugar and I both agree. 
Transparency is important so that we can actually trace how the 
funds are being used. Part of that is to deal with the 
corruption in countries around the world and to protect 
whistleblowers who can help us in making sure that our funds 
are being used for its intended purpose.
    Can you just give us an update as to how you are proceeding 
on advancing transparency in USAID and our goal of more 
sustainable governments where the funds are actually being used 
for the people?
    Dr. Shah. Well, thank you.
    I think this has been an area where we have really tried to 
move from being seen as intransigent in the global community to 
being the world leader in the global community. We have signed 
on to join the International Aid Transparency Initiative, which 
is the premier entity that sets standards for fiscal 
transparency and investment transparency, and we announced that 
in Busan, South Korea, recently.
    We have launched the foreignassistance.gov Web site that 
puts all of our program expenditures and obligations in the 
public domain, for every country, by sector so there is clarity 
of where the resources are going.
    We are testing different strategies to use our Web site and 
to use different programs in-country to expand transparency, 
and I would highlight the new Pakistan country Web site that 
lists every program that we support in Pakistan. It has a ways 
to go and can get better and we will be relaunching our site 
completely this June, and I think that will improve 
transparency. People can click through and see every program we 
have everywhere.
    And we will be launching a valuation database so that all 
of our program evaluations are made public within 3 months of 
completion of the program. There will be no effort to edit 
those independently conducted evaluations. They will be part of 
a public database, and by the end of this calendar year, we 
will have 250 of those evaluations. It will be the largest and 
most significant repository of real evaluation data on 
development programs of any institution worldwide.
    So we are very proud of what we are trying to do there, but 
we also know that we have a long way to go and we will stay 
very focused on that space.
    Senator Cardin. And please keep us informed on those 
initiatives. There is a great deal of interest.
    I mentioned in my opening statement the initiative on 
gender equality for a focus on women and girls. Would you just 
bring us up to date briefly as to how you are integrating that 
priority into all of our USAID programs?
    Dr. Shah. Sure. We have launched a new policy, as you 
mentioned, just last week that is the culmination of more than 
a year's worth of work to make sure that we integrate gender 
programming in everything we do.
    The challenge has not been knowing that that is the right 
thing to do. The challenge has been for this field for decades 
operationalizing it. And this was the first operational policy 
issued in the last 3 decades by USAID to achieve that goal.
    In agriculture and health, in education, in countering 
trafficking in persons, in all of these areas, we will begin 
measuring with specificity the impact of our programs on women 
and girls. For example, in agriculture, we have launched a 
women's empowerment index, which is a sophisticated and 
appropriate tool for actually generating data on how our 
programs preferentially help women, and where they do not, 
learning why and exploring what we can do there.
    I think those kinds of measurement and policy tools will 
make a big difference. That is just one part of a suite of 
activities that is being coordinated by our new gender 
coordinator in the office they represent, and I think it is 
making a very, very big difference.
    Senator Cardin. Thank you.
    Senator Inhofe. Mr. Chairman, are you going to hold the 
record open for questions to the record? I am not going to be 
able to stay, but I had several questions to ask.
    Senator Cardin. Yes, we will be holding it open for the 
record.
    Senator Inhofe. Thank you.
    Senator Cardin. Thank you.
    Senator Lugar.
    Senator Lugar. Dr. Shah, you mentioned that since Feed the 
Future was launched, we have witnessed great advances in 
agricultural productivity worldwide in target countries. While 
agricultural productivity increased by 5.8 percent across the 
board, you also mentioned very dramatic increases pertaining to 
rice and dairy production.
    With these facts in mind, let me just ask a fundamental 
question. One of the great disputes in the past in terms of 
agricultural advancement has been resistance to genetically 
modified seed, and this has come perhaps because of European 
influence among policymakers in the developing world. But in 
the absence of the use of genetically modified seed in many of 
these countries, efforts to realize productivity increases have 
resulted in minimal gains, and in cases of bad weather, they 
have been almost nonexistent.
    Now, I am curious how you have overcome that resistance, 
which endures among the Europeans. As I have visited with 
German farmers or even those in Ukraine, there is continued 
adherence to the thought that somehow this modification infects 
the soils or the waters or is an environmental hazard, quite 
apart from a boost in nutrition.
    Given these barriers, can you describe your success or how 
you have moved to realize success in these matters?
    Dr. Shah. Thank you, Senator.
    We have, as we have discussed previously, been very focused 
on making sure we use all available appropriate technology to 
help in particular vulnerable, small-scale farmers--70 percent 
of whom in sub-Saharan Africa are women--improve their 
production of food. And we know that that is directly 
correlated--that agricultural productivity--with improved human 
outcomes and child nutrition.
    Our strategy here has been one of just engaging real 
partnerships with countries so that today we are actually 
testing both hybrid conventional and transgenic technologies on 
the ground with countries on their research stations at their 
leadership. And I think once African scientists and scientific 
institutions develop their own products that have a broad range 
of technologies, they ought to have the capacity and the 
regulatory awareness and ability to make their own judgments 
about what technologies are appropriate as opposed to, you 
know, taking guidance from outside partners, whether it is the 
European partners or anyone else.
    And I think we have seen in places like Tanzania where we 
have been engaging that way a change in the mindset and an 
eagerness to use some of the improved seeds that are currently 
mostly conventionally improved but are yielding real results, a 
more than tripling of maize yields in western Kenya. There are 
any number of new seed varieties in Tanzania that are ready for 
introduction, and I think it will be a slow and steady process. 
I do not think we have overcome it completely yet, but we are 
very focused on making sure that farmers have the tools and 
technologies that help them escape poverty.
    Senator Lugar. Well, I appreciate that. I have an almost 
emotional bias on the subject. On my own farm, we are getting 
400 percent more production in corn than my dad did 50 years 
ago. And I have seen in my lifetime the change on the same 
acreage with the change in seed, fertilizer, and other 
agricultural methods. Now, that kind of change worldwide would 
make an enormous difference in humankind.
    But you have an influence right now to be able to make 
those breakthroughs, and this is why I am pleased that there is 
some good data. But more power to you in moving ahead.
    I am curious on the health front. How and to what extent 
are institutions changing as positive developments take place 
on these issues? Do you see the building of institutions that 
are going to continue to work when they are no longer receiving 
direct financial support from USAID? I know you are working on 
this, but what sort of markers can you give us of progress?
    Dr. Shah. Well, this has been a central part of our health 
strategy and our entire strategy in terms of how we work with 
countries. And I would just preface by saying before we invest 
directly in local institutions for the purpose of building up 
their capacity and their experience in delivering services and 
using new vaccines or new improved insecticide-treated bed nets 
to help save kids lives, we do a rigorous assessment to make 
sure we can vouch for the accountability and the resources, 
that they are not lost or stolen and that they are generating 
results.
    That said, I think the big defining trend in global health 
over the next 5 to 10 years will be countries taking more 
direct responsibility for providing health services to their 
populations. We can play a critical role in starting that 
process, and so we are very focused on doing that.
    There are some countries that are doing a particularly 
effective job of that, and one example of success is 
Afghanistan. Seven or eight years ago, we made the 
determination to work to build up the capacity of the Ministry 
of Public Health there. Today we now have data that shows over 
the last 8 years, Afghanistan has seen the most rapid reduction 
in maternal mortality of any country on the planet, has seen a 
huge reduction in child mortality, and importantly, has a 
ministry that is essentially in charge of their health system. 
They still need a lot of help from outside partners and for 
securing finance, but that is the pathway to sustainability. 
And people would not have thought 8 or 9 years ago when they 
had no capacity to do this, that this would have been one of 
the biggest success stories in the global health arena.
    Senator Lugar. Well, I hope your reports will give data 
about this so-called sustainability in Afghanistan and, for 
that matter, in Iraq, where we still have an important program.
    I would ask about just one controversial country situation 
now. We have run into a lot of problems with Egypt, and we have 
heard from polling efforts that 70 percent of the Egyptian 
people do 
not care that the United States is threatening to withdraw $1.5 
billion of support. It appears that they perceive this 
assistance as interference.
    What is the on-the-ground situation in Egypt with your 
program at this point?
    Dr. Shah. Well, you know, it has been a challenging few 
weeks, of course, as you are aware. We took the position that 
we really wanted to see resolution to the issue with respect to 
NDI and IRI and their staff. That situation is still active and 
is still being worked. We are pleased to see the U.S. staff be 
able to leave or the international staff. There are still 
remaining and outstanding issues there that we are working 
through.
    With respect to the remainder of our programmatic approach, 
we remain focused on trying to make sure that is successful, it 
is responsive to the critical needs, but in a context where we 
are
really trying to work through some of these issues as a 
condition to continue that overall approach.
    Senator Lugar. Thank you.
    Senator Cardin. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Dr. Shah, thank you for your service.
    I have to be honest with you, though. I do not understand--
and I know what you answered last year when I raised this 
question. So you are going to have to do better this year than 
last year because I have waited to see, and remain concerned 
about what is happening in Latin America and the Caribbean.
    As in many regions of the world where USAID works, the 
absolute level of U.S. assistance to the countries of Latin 
America and the Caribbean has begun to decline; however, in 
Latin America, unlike Africa, South and Central Asia, and the 
Middle East, so too has the proportion of USAID going to the 
region. So that is a compounding factor.
    Between fiscal year 2008 and 2012, United States assistance 
to Latin America and the Caribbean fell from $2.1 billion to 
approximately $1.8 billion, a 13-percent decrease since 2008. 
Assistance to Latin America has also declined proportionately. 
Latin America now receives only 8 percent of the bilateral aid 
pot, whereas in 2008, it received 10. And looking over this 
year's funding requests, I am alarmed by what I see. For 
example, the spending request for ESF is down 7 percent from 
last year and a whopping 21 percent from 2008. Even direct 
assistance to Guatemala is down slightly even though the Miami 
Herald shocked no one when it asked the President of Guatemala 
whether his country had the possibility of being the next 
Somalia and knowing, as we do, that the drug cartels are 
overwhelming not only the Guatemalan Government, but other 
Central American governments as well.
    I know you told me in response to my question last year in 
this regard--and this has only gotten worse--that your theory 
of budgeting is to fund what gets the best bang for the buck 
but not if that means ignoring the areas where some of the need 
is the greatest.
    I look at the Western Hemisphere, our own front yard, I 
look at what is undermining these countries through the 
narcotics trafficking. I look at the resurgence of health 
issues that were once cured like tuberculosis and I see it 
rise. Of course, health and disease know no borders.
    When I look at the question of undocumented immigration 
that we debate in this country and think about what creates 
that movement, it is either dire economic necessity or civil 
unrest. I see the movements that are antidemocratic in the 
region continuously challenging their citizens in terms of 
their fundamental rights--and the list goes on and on.
    I do not quite understand what it is that the 
administration does not see that I and maybe others see. So my 
question is, what is your justification in this regard and how 
do you rank the needs of the region versus the needs of other 
regions? What indicators did you consider when making these 
types of cuts in your budget? And if we start there, maybe I 
will get a sense of how you came to your conclusions. But this 
is not a budget I can support.
    The final point I will make before giving the balance of 
time to your answer is within that context as well. I know that 
ESF accounts took a hit, but I see what you did to the account 
for our democracy programs in Cuba. We have an American citizen 
languishing in Castro's jails, and so our response is to cut 
the democracy program in Cuba. Is that a deal that we made, 
that we are going to cut the program in Cuba in response to an 
American who is sitting in jail? Are we going to get anything 
for that? Because otherwise we send the absolute wrong message 
at the end of the day.
    We never in the world--in the world--Vaclav Havel, Lech 
Walesa, Alexander Solzhenitsyn--cut our democracy assistance 
programs because of the disapproval of a regime. Here you are 
cutting it by 25 percent. It is pretty significant. So make me 
feel better, if you can.
    Dr. Shah. Thank you, Senator, for the comments. I will take 
them in order.
    Our approach overall to budgeting is to do our best to 
maintain core results or achieve new ones given the overall 
budget situation, and this was a budget and is presented as a 
budget that has a real reduction in overall foreign assistance 
within the 150 Account.
    Within Latin America, our No. 1 priority has been security 
in Mexico, Central America, and the Caribbean. Programs like 
CARSI have seen real and significant and sustained increases 
year on year under this administration that are significant, 
and we would like to continue on that path and that trend for 
that No. 1 priority.
    We have experienced savings that have come in large part 
from ESF in places like Colombia or Peru--Colombia was the 
second-largest program--and where by our criteria of country 
readiness--country willingness--to take on the costs of 
implementing certain programs, basic levels of per capita 
income and revenues at the country level, we are able to 
transition those efforts to domestic responsibility. And we 
believe that that is an appropriate tradeoff to make and, in 
fact, is part of the pathway and vision for success, most 
notably exemplified by a place like Panama where we can close 
our mission and move on.
    Senator Menendez. But with respect, Dr. Shah, you are 
talking about where you reduced in one country. I am talking 
about a whole region. You cannot tell me that Central America 
and its present challenges today are the equivalent of a 
Colombia or some of the other examples you have cited.
    Dr. Shah. Well, for Central America--and I would have to 
review and come back to you with the specific numbers. I think 
for Central America we have maintained a commitment and we have 
maintained our budgets and in some areas, like in the CARSI 
program, seen significant increases. When you look at the 
region overall, because of the significant growth in Latin 
America because many of these countries are making the 
transition from recipient to donor themselves like Brazil, we 
believe the criteria are applied in an effective way.
    I would also add that in places like Guatemala and El 
Salvador, we have made them priority countries for initiatives 
like Feed the Future, the Global Health Initiative, the 
President's Partnership for Growth effort. In some cases, that 
does not necessarily come with a tremendous amount of 
additional investment, but it does come with a lot of 
additional support for improving the quality of the programs, 
for making sure we bring partners like Wal-Mart to those 
economies to help move farmers out of poverty in a sustainable 
way.
    And we are seeing some very real results, and western 
Guatemala is a good example where we are seeing 15,000 farmers 
move out of poverty. We are seeing a serious reduction in child 
stunting rates in the western highlands. And those are sort of 
model initiatives and even though we can do them at lower cost 
because we are building real partnerships with others that can 
sustain it.
    With respect to Cuba--and I know my time is short--I would 
just say we did not make any proposed reduction because we were 
urged to by an external regime. We are presenting a budget we 
think we can implement effectively, and we recognize and have 
done quite a lot especially through our State Department to try 
to deal with the situation with Alan Gross and have taken some 
extraordinary steps to support his situation and his family, 
and we hope to see him released and continue to ask for and 
work toward that objective.
    Senator Menendez. Well, I will close, Mr. Chairman, by 
simply saying it is remarkable to me that you could sit there 
and tell me that at a time of greater repression, at a time 
when two hunger strikers whose only crime was speaking out 
against the regime have died, at a time when the women in white 
get attacked by security forces, at a time in which a recent 
roundup of 100 peaceful protesters ended up in jail--we reduce 
our democracy program in Cuba by 25 percent. I do not 
understand how you figure the metrics, but those metrics do not 
work.
    Senator Cardin. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Mr. Shah, thank you for the work you do and for being 
with us in advance to let us know a little bit about what you 
are laying out.
    If you look at growth around the world, the developed 
countries are where rapid growth is taking place. In the 
developed countries there is lesser growth happening. And as we 
watch some of the other powers around the world and the way 
they invest in developing countries, much of that is done in a 
way that furthers their own growth also. And I am just 
wondering as you look at these investments in the developing 
world, do we give any thoughts to how that might benefit our 
own country in creating a relationship that is symbiotic and 
allows jobs to be created here in our own country.
    Dr. Shah. Thank you, Senator, for that question. And I 
think we have also studied carefully some of the models that 
countries like China have deployed to essentially position 
themselves aggressively in what are going to be the emerging 
markets of the next few decades. It is worth noting that in 
Africa you have 15-17 countries that have been growing at 6 or 
7 percent annually consistently for more than a decade. You 
have a common market that is larger than the market in China, 
and there is very clearly serious and important business 
opportunities on that continent.
    The same is true even in lower income populations in Asia 
where we think globally the bottom 2 billion, 3 billion, 4 
billion in the world represent a real significant emerging 
market.
    A lot of what we have done in our public-private 
partnerships and in our major efforts and initiatives have been 
designed to help American institutions participate in 
development both to generate very concrete and specific 
development results and to innovate and create business models 
that will help them serve and, in some cases, profitably very 
low-income communities today that I think will be the emerging 
markets of the future.
    In Ethiopia, for example, we have worked with Pepsi to help 
them build out a supply chain to reach 30,000 chickpea farmers, 
most of whom are women. By growing chickpeas, they are able to 
then have a product, the humus product, which they will sell in 
commercial markets. But about half of the total product that is 
produced will be packaged as a ready-to-use, high-nutrition 
paste that is provided in food aid programs to stunted and 
vulnerable children in that region. I think that is a good 
example of the kind of partnership that achieves concrete 
results and allows for positioning and engagement in these 
markets.
    With Procter & Gamble, we have a major partnership to help 
them develop and sell to low-income communities improved 
products to purify water. And in slum communities in Asia and 
Africa, that is a major product, and they have some unique 
technology and can do that and generate really great results.
    So we have tried to adapt the way that frankly the whole 
development community has traditionally thought about 
partnering with the corporate sector and the private sector and 
try to engage in a more creative and results-oriented approach 
to develop new business models, new technologies, achieve our 
development outcomes, often at lower cost, and create a 
countervailing system to what we are seeing some other 
countries do.
    Senator Corker. It would be great over time to develop some 
metrics so we could see results in that regard.
    And I thank you for certainly the focus. I know we have 
talked about that some privately.
    We notice in the PEPFAR budget--I know this is something 
that has been very bipartisan as far as support goes--that you 
set a pretty ambitious goal of increasing the number of people 
on ARV's from 4 million today to 6 million in 2013; at the same 
time, reduced funding from $5.1 billion to $4.5 billion. So you 
have a substantial increase in your goal of over 2 million and 
yet a reduction. I know that all of us need to be focused on 
the amount of resources we are putting into all these programs, 
but I am just wondering if those two are lining up or if the 
goal itself is overly ambitious.
    Dr. Shah. We have studied this very carefully, Senator. We 
believe this is an achievable goal. We think that with the 
budget request we are making for global health with the 
significant efficiencies in the program as we both reduce the 
cost structure of doing our work and, importantly, as the cost 
of providing antiretroviral therapy to patients has come down 
very significantly and continues to go down, we believe this is 
an achievable goal. We think we will hit the 6 million target. 
We are at 4.7 million right now, having exceeded previous 
expectations already, and we believe we will have the resources 
to continue to really lead the world in a global effort to 
address the transmission of HIV from pregnant mothers to 
children and end that transmission so that we can get to, as 
the President and the Secretary have both committed to, a 
situation where we have a generation that is free of HIV/AIDS.
    And we are very committed to those objectives. We are very 
committed to making sure that institutions like the Global Fund 
that have been important places for us to leverage our dollars 
with other donors continue to be successful. And we have 
presented a budget that we think can achieve that.
    Senator Corker. Senator Lugar in his opening comments 
referred to the Climate Change Adaptation Fund of $407 million. 
It is kind of curious with all the other issues that we are 
pursuing right now. What exactly are we planning to do with 
that $407 million as it relates to climate adaptation and what 
effect do we think it is going to have with our aid programs?
    Dr. Shah. Well, thank you.
    First, the resourcing for the climate change program 
overall includes adaptation but it also includes an effort to 
improve access to energy and an effort to address deforestation 
and do that in a way that creates business opportunities for 
local populations and sources of income.
    On the adaptation in particular, it covers a pretty broad 
range of activities, but some of them, such as creating 
climate-resilient agriculture, for example, I think are going 
to be very important and will very directly deliver specific 
results and specific outcomes. Other activities are designed to 
really help countries develop their own adaptation strategies 
to hotter and drier growing conditions to more droughts like 
the one we saw in the Horn of Africa to resilience efforts. 
Sometimes that may even include getting insurance to 
pastoralist communities that are vulnerable to climate shocks 
or helping farmers in Bangladesh who are vulnerable to floods. 
So we are trying to find alignment between our Feed the Future 
program, our climate change initiative, and our health efforts, 
and we are trying to point resources toward those types of 
things that do deliver specific development results in a 
logical manner.
    Senator Corker. So it is really more about in the ag 
community getting people to plan for weather trends. Is that 
what you are saying?
    Dr. Shah. I am sorry? Weather?
    Senator Corker. It sounds like it is really in developing 
countries trying to get farmers there to look at weather trends 
that are taking place and plant agriculture crops accordingly.
    Dr. Shah. Those are some of the examples. One in 
particular--we have a really exciting partnership with NASA 
called SERVIR that allows us to marry some of their earth 
observation systems and weather collection systems with the 
reality of what is happening in certain parts of the world that 
are vulnerable to climate shocks or to extreme weather events 
and plan for and adapt to that. In our field, it is called 
resilience programming. I know that is a technical term, but it 
is helping communities really protect themselves against what 
we know is happening which is more droughts in the Horn of 
Africa, more floods in the delta in Bangladesh, and those types 
of situations.
    Senator Corker. If it is oriented that way--I know my time 
is up--I would suggest a title change or something. I think it 
sort of sends out a different signal when you first hear it, 
and what you are talking about obviously fits, if it is 
described as you just said, very much into much of the 
agriculture efforts that Senator Lugar and others have talked 
about.
    I know my time is up. I look forward to talking to you in 
more detail, and thanks for coming.
    Dr. Shah. Thank you.
    Senator Cardin. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Administrator Shah, thank you very much for being here and 
for your efforts on behalf of the country around the world.
    I know that Senator Cardin raised the concern about 
investing in women and the importance of doing that. I know it 
is something that Secretary Clinton is very committed to, and I 
happen to support the belief that investing in women is one of 
our best development strategies if we are going to get the most 
out of our dollars. And the hope is that we are coordinating 
these programs and making those investments across all our 
development efforts.
    So I wonder if you could talk a little bit about how USAID 
staff and contracting agencies are held accountable, what kinds 
of metrics they have for integrating gender throughout all of 
their planning and budgeting throughout program design, 
throughout implementation and monitoring.
    Dr. Shah. Thank you so much for that question and that 
comment.
    You know, we really do believe and understand and think 
there are decades of strong data to substantiate the point that 
if you can effectively engage women in development solutions, 
you get better results, more sustainability, more kids in 
school, reduced child malnutrition, and the structure of what 
you are trying to accomplish becomes easier to accomplish and 
solve and more sustained over time.
    For that purpose we have really helped to put together the 
national action plan for women: peace, and security. We have 
introduced a new gender and women and girls policy that will 
make sure that we do exactly what you suggest, which is 
establish metrics and measures in our major programs to be able 
to assess whether our efforts are preferentially focused 
effectively on women and girls and whether we are seeing 
results from that.
    Senator Shaheen. So can I just interrupt you? I am sorry. 
So that effort is underway now? The metrics are not in place 
yet. You are in the process of developing those?
    Dr. Shah. Well, they are being developed for every area we 
work in. In most of our major areas, we do have them. We have 
spent a year putting this together and are steadily rolling 
them out. Some examples include--we have a major effort in 
using mobile phones and mobile banking to help people who 
otherwise are not connected to a cash economy but do actually 
have a mobile phone, use that tool to connect better to receive 
financial services, be part of the economy. We believe and have 
established specific targets within those efforts to make sure 
they preferentially target and reach women and are seeing that 
make a huge difference in Haiti where there have been more than 
a million banking transactions, the majority of which have been 
conducted by women on mobile phones who previously did not have 
bank accounts or access to finance. The same is true in 
Afghanistan and Kenya and other Asian countries where we are 
prioritizing that effort.
    In our agriculture program, we have launched a women's 
empowerment index so that every one of our 20 Feed the Future 
priority countries will report on the extent to which their 
programs are empowering women farmers. And it actually has been 
highlighted as a best practice in the field because it does not 
just measure women's incomes, but also their relative standing 
compared to men and their position in decisionmaking in their 
communities.
    In our civil society and democratic governance programs, we 
are taking new efforts, together with Ambassador Verveer at the 
State Department, to ensure that we are identifying women 
leaders of NGOs and civil society organizations, providing 
support as appropriate, but also bringing them into the embassy 
fold and using our diplomatic resources to elevate their 
visibility and their standing in country.
    These are just some of a broad range of actions and 
activities that get as operationally detailed as making sure 
there is better lighting and safe spaces for women in IDP camps 
and refugee camps from the get-go through our U.N. partners.
    So I am very excited about the approach. I think it will 
generate very concrete and real results, and we have a lot of 
this detail. We would be happy to share that with you in more 
detail as well.
    Senator Shaheen. Great. Thank you very much.
    And while we are talking about women, obviously one of the 
issues that is very important to women is family planning. 
International family planning remains a controversial issue. We 
had former President Clinton and Bill Gates before this 
committee last year, and I had the opportunity to ask them what 
we could do to try and get beyond that controversy and 
recognize that family planning is actually very pro-family, 
pro-women. It is important to saving the lives of both women 
and infants.
    I wonder what experience you have had in your position 
today and whether you have any thoughts about how we can make 
this issue less controversial and more supportive of what women 
and families need around the world.
    Dr. Shah. Well, thank you. I perhaps also look forward to 
learning your thoughts on that or Bill Gates' and President 
Clinton's.
    But at the end of the day, we know that our history of 
program support in family planning has been one of our most 
successful areas of work. We do not, as you know, in any way 
support or fund abortion or any counseling related to abortion. 
We have very strict controls on that.
    We have seen in country after country a common pattern that 
gets you to a place where you have a better demographic 
situation for development, and that is, first, a significant 
reduction in child mortality, and we know when that happens, 
people and families invest more in kids, get them into school, 
and they become the pathway out of poverty. And then that is 
generally followed by a long-term and more effective approach 
to family planning and reducing the total fertility rate in 
countries. And the combination of those two things has been a 
major part of the development success story in nearly every 
success story we see around the world. So it is incredibly 
important.
    We have seen in our own programs that effective birth 
spacing reduces maternal and child mortality by 25 percent, and 
we think that there are relatively noncontroversial ways to 
achieve that outcome simply as part of having trained community 
health workers, the same people who are visiting people's homes 
and making sure kids who are malnourished have access to 
protein and micronutrients, also engaging in conversation about 
just the facts related to the effectiveness of that approach.
    In Pakistan, for example, we have helped train more than 
22,000 health providers and have seen significant and positive 
results in terms of reducing the birth cohort year on year as a 
result of that effort over a number of different years.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. I appreciate it.
    Dr. Shah, thank you for being here and your great 
contribution to not just the United States but the whole world 
community.
    Let me, first of all, start off with a parochial interest, 
if I might, and I doubt if you will know the answer, but if you 
would check it out and let me know, I would appreciate it.
    There is a program called the Peanut CRSP program which is 
a collaborative research support program through USAID. It is a 

5-year contract that ends at the end of this year and is being 
reviewed for extension. There are a number of universities, of 
which the University of Georgia is one, that are participating 
in the program. And they have recently isolated a microtoxin 
known as aflatoxin and tied it to the decline in human immune 
systems, and they are making a major breakthrough in turning 
that around and improving health.
    So my interest would be to find out what the status of that 
review is and what the agency thinks of what has been produced 
so far by the Peanut CRSP program, if you would not mind.
    Dr. Shah. Certainly. That has been an external evaluation 
that is currently underway. We have tried to restructure our 
entire research strategy in agriculture and food security, and 
this is part of that review. I will explore the details and 
come back to you on that.
    But I do want to note that certainly aflatoxin is a 
critical issue that we have expanded our focus on under the new 
strategy, and we also would note that through some of our other 
mechanisms, we have been working with, I believe, a group in 
Georgia that is producing a peanut-based, high-nutrition 
product for some of our food aid as our food aid makes the 
shift to include more high-nutrient, high-protein, prepackaged 
foods that have a bigger impact on helping kids survive and 
overcome acute child malnutrition in certain settings. But I 
will explore the details of the Georgia Peanut CRSP.
    Senator Isakson. Well, at the risk of grandstanding, I was 
not going to bring that up, but since you brought it up, that 
is the Manna program, which is in Fitzgerald, GA, which is 
where my mother was born. And they are making the packets that 
are bringing nutrition to Somalia and Kenya right now during 
the difficult drought, and it is a 3.5-ounce peanut paste with 
fortified vitamins and powdered milk in it that is remarkable. 
And it is produced by a not-for-profit. The other big producer 
is a French company that is for-profit. So when you all make 
note of that, make note that we are not-for-profit down in 
Georgia.
    Would you explain to me the role of USAID and the role of 
CDC in PEPFAR?
    Dr. Shah. Sure. Thank you, Senator.
    I think from the beginning, PEPFAR was established to both 
support countries to develop health systems and systems for 
expanding service access to affected populations and to have a 
very focused, disease-specific disease control model. So 
initially the approach was CDC did what it does best, which is 
epidemiological analysis, training of field workers, 
identification of the structure of an epidemic, and development 
with the host country of the strategy to address HIV/AIDS. And 
USAID does what it has done best, which is support service 
delivery, the development of a long-term sustainable health 
system inclusive of financial models that will help it sustain 
over time.
    Over time, the reality is those lines have blurred, and now 
both partners do a lot. When I started certainly, the degree of 
overlap and duplication was pretty extraordinary. I want to 
compliment both Tom Frieden and Eric Goosby, the Ambassador for 
PEPFAR, and Tom, of course, the CDC Chief. But we have worked 
very closely with them to try to improve our coordination in 
countries to make sure we are getting to a much more efficient 
approach to the provision of services and to ensuring there is 
more country ownership and local responsibility for seeing the 
program through. And it has been hard. It has been challenging 
work, but I think we are seeing results because we are seeing 
situations like in Kenya where without spending extra 
resources, we were able to expand services considerably by 
bringing these platforms together across CDC and USAID and 
PEPFAR and just being more integrated about delivering services 
to affected populations.
    Senator Isakson. Is that specifically the program where you 
isolated the 17 novel antibodies that may hold the key to 
fighting the disease? Is it in Kenya?
    Dr. Shah. That is part of a USAID program with an outside 
partner called the IAVI, the International AIDS Vaccine 
Initiative, that has helped to identify some novel antibodies 
that we think will be an important breakthrough to try to 
actually get a real HIV/AIDS vaccine.
    Senator Isakson. Well, the reason I asked that question 
is--and I am not a scientific guy by any stretch, nor a doctor 
of medicine but it seems like to me that that is sort of a CDC 
role not a USAID role. How much collaboration do you all do to 
make sure you are not working at either cross purposes or 
duplicating good purposes?
    Dr. Shah. We do quite a lot of collaboration. Just being 
perfectly honest, joining the U.S. Government from a different 
entity, I was struck by how much coordination we do do. I think 
it is necessary because there are these areas of overlap and 
partnership. But at the end of the day, especially on our 
research and development and technology efforts, of which that 
is a part, we work with CDC but also the NIH, and the NIH is 
actually the sort of hub within the Federal Government for 
supporting those types of activities. So when we do work 
against that goal, we do it with complete joint review of 
programs and against an aligned strategy. And I think that is 
why you are seeing some of the big efficiencies in the PEPFAR 
program and in our health efforts create new opportunities for 
the level of patient coverage and the level of impact we 
believe we can achieve with constant budgets.
    Senator Isakson. Well, I commend you and Dr. Frieden both 
because we are getting more bang for the buck in PEPFAR than we 
ever have, and a lot of that is because of the countries that 
are receiving the help are doing more of the delivery. And our 
cost is down to the retrovirals and the testing in a lot of 
cases.
    But I appreciate what you do in that, and I would love to 
talk to you more when we get a chance about the comparable 
roles because I think your programs provide a great service and 
help open the door for the United States of America in some 
places where we might not be as popular as we should be.
    Thank you.
    Dr. Shah. Thank you, Senator.
    Senator Cardin. Thank you, Senator.
    Senator Coons.
    Senator Coons. Thank you, Senator Cardin.
    I will just follow on with a line of questioning Senator 
Isakson was hitting on there. As you can see, we have a great 
partnership on the Africa Subcommittee.
    And I would like to join Senator Cardin and Senator Lugar 
in opening by expressing my regret at the passing of 
Congressman Donald Payne who was deeply knowledgeable about 
Africa and a great advocate both for your work in USAID and for 
the work all of us are trying to carry forward in terms of 
meeting basic human needs in Africa.
    And I think, Administrator Shah, you have been a true 
visionary and an innovator. You have really brought a new level 
of energy and leadership and focus. In these difficult 
budgetary times, championing USAID Forward has been difficult, 
but I think has made real progress with procurement. I also 
think in a number of the areas of initiative I have been able 
to see in Africa, whether it is Feed the Future or the Global 
Health Initiative, as Senator Isakson was referencing, you have 
been able to both reduce the total cost of service delivery 
while improving outcomes. So I am grateful for what you have 
done in improving development assistance and saving lives of 
women and children and improving transitions.
    If I could, I would be interested in just asking about how 
we are going to continue to meet the challenges of global 
development in these difficult budget times and what in 
particular we can do to apply science and technology solutions 
to the very complex challenges of development. In February at 
the White House Innovation in Science and Technology, you 
announced an RFA, a request for application, for a higher 
education solutions network. And it is my understanding this is 
part of a larger initiative to harness cutting-edge innovation 
in science and technology to American universities to implement 
new solutions to development challenges. Senator Lugar 
mentioned previously the dramatic increases in agricultural 
production and output on his farm in just a few decades. I 
think we are seeing comparable advances potentially in Africa 
in farming.
    Can you describe how this RFA will further help USAID's 
innovation agenda while also helping universities here at home 
and how this particular budget request advances science, 
technology, and innovation at USAID? Sorry for the long 
question. I know you can handle it.
    Dr. Shah. Thank you, Senator Coons, and thank you for your 
extraordinary leadership and counsel on this range of issues.
    I think the basic premise around your question about how do 
we drive the most significant transformational results in an 
environment where budgets are going to be tight is that we have 
to lower the cost structure of doing our work and we have to 
literally invent new solutions that make extraordinary things 
possible. That happened a couple of times in our history. In 
the 1960s and 1970s the Green Revolution, as Senator Lugar has 
certainly talked to me about, happened in part because of great 
new technologies created by scientists, in that case Dr. Norman 
Borlaug. In the 1980s the USAID worked to create an oral 
rehydration solution which since then has saved 11 million 
children because it basically took the power to save a life out 
of the hands of a doctor and put it in the hands of a mother, 
and it turns out that is a much more effective way to save 
children's lives.
    We basically believe we are on the cusp of an era of a 
whole new range of technological and scientific breakthroughs 
and innovations that will do that again. Whether it is orange 
flesh sweet potatoes that help kids avoid river blindness 
because it has more vitamin A or whether it is new seeds that 
use appropriate technologies and have more yields and more 
resilience to climate shock or some things that come straight 
out of U.S. universities. One of my favorite examples is a CPAP 
device, which is a continuous positive airway pressure device, 
that would normally cost thousands of dollars. A group of 
students at Rice University invented one that costs $160. That 
is going to save countless kids' lives in the first 48 hours 
after birth in very difficult environments around the world.
    So with that as our motivation, we launched this request 
for partnerships with U.S. universities and institutions, and 
we did it basically saying we want to find more dramatic, game-
changing, cost-reducing technologies and innovations and 
approaches that will help us achieve the outcomes we have said 
we are going to achieve with the investment of taxpayer 
dollars. On three webinars, we have had more than 1,000 people 
express interest. Every time I have gone to a U.S. college or 
university, I am struck by the passion that students have. I 
was at Bethel University outside of Minneapolis a few weeks 
ago, and the students there had read our entire 
countertrafficking in persons program. A student NGO had 
already gone out to their partner country in Uganda and had all 
these ideas.
    We are not going to fund every idea, but we do want to 
engage the power of American innovation and the power of 
American research institutions and universities to really 
change what is possible in development. It is something the 
President and Secretary feel strongly about, and we have done 
it before in our history and we can do it again in a way that 
is responsible, cost-reducing, and hopefully inspiring to 
students across this country.
    Senator Coons. Thank you, and I am eager to work with you 
in carrying that forward. And hopefully that will be a part of 
this budget submission that will not just be sustained but 
contribute to the success of your agency in our development 
efforts.
    You worked, along with many others, not the least of them, 
Dr. Jill Biden, on drawing attention to the very real 
humanitarian crisis in the Horn of Africa. Recently it has been 
downgraded from a famine largely due to U.S. and other 
multinational aid. I would be interested in an update on what 
is the current status of the humanitarian situation in Somalia 
and the Horn and what additional assistance is needed and how 
the learnings from this particular famine are going to be 
implemented and how these ongoing humanitarian needs are 
reflected in your budget request.
    Dr. Shah. Thank you.
    As you point out, more than 13 million people were affected 
because of the worst drought in more than 6 decades. When I had 
the chance to travel with Dr. Biden and Senator Frist, we 
actually met a young woman who had to make just a harrowing 
choice because she had to walk with her two children for 70 
kilometers to safety at the Dabaab refugee camp and actually 
had to chose which child she could physically take forward 
because she could not physically carry both on that dangerous 
and difficult trek. It is extraordinary the stories we heard 
and the conditions people were under.
    In that context, the United States--and I think Americans--
can be proud. We are nearly 60 percent of the global response. 
We put in place efforts that were both informed by prior 
experience, targeting children who were most vulnerable, and at 
a time when the U.N. was estimating that up to several hundred 
thousand people might die, we were able, with our international 
partners, to do some innovative things, some of which I can 
talk about, some of which I really cannot, to make sure we had 
access in very difficult environments. And I am convinced those 
efforts helped save tens of thousands of lives. We will get 
specific evaluations done and we will know very soon.
    I think what we learned from that is that we have put in 
place something called the Famine Early Warning System that 
allows us to predict where these types of disasters will 
happen. We have learned that we need to be more aggressive 
about taking those predictions and creating an international 
consensus to plan for the year ahead to try and get out in 
front of disasters before they strike. And that is what we are 
doing.
    And later this month, we are organizing the entire 
international community in Nairobi so that we plan for the year 
ahead in the Horn. We know there are still more than 7 million 
people at risk. We expect because of the current estimates are, 
the rains will be poor again, we expect some ups and downs, but 
we expect things to get worse before they get better. We want 
to see as much burden-sharing across the international 
community as possible, and we want to learn rigorously from the 
things we did that worked and the things we did that did not 
work so that we can be even more effective at saving lives this 
year.
    I also think most of this work is reflected in our IDA 
account, the International Disaster Assistance Account, and I 
thank the committee for its support of those budgets.
    And I would finally just conclude on that point by saying 
that at the same time that we saw that extraordinary disaster, 
that afternoon we had a chance to see some of our Feed the 
Future programs actually working. We saw kids receiving orange 
flesh sweet potato and the impact that made on their health and 
their livelihoods. We heard from farmers on a research station 
working with scientists that were doubling or tripling their 
yields of maize in the western part of Kenya. And the estimates 
are that in Kenya alone, about 4.5 million people did not need 
assistance because of improvements in their agriculture over 
the last few years. And that is the trend we really want to see 
in a consistent, focused, results-oriented way to really take 
hold over the next decade.
    Senator Coons. Thank you. Thank you, Dr. Shah.
    Senator Cardin. Dr. Shah, you mentioned about specific 
evaluations which I think are very important as related to our 
famine relief but also as it relates to all of our programs.
    Feed the Future is an initiative of the Obama 
administration. You have mentioned it several times in your 
testimony, most recently on dealing with nutrition and life and 
also dealing with gender issues and women. I think it would be 
helpful for us if you could give us how we can evaluate 
progress made on Feed the Future, what your objectives are. I 
know that you have done this, but if you could provide that to 
the committee as to the progress you believe we can make in 
Feed the Future in the short term and long term, I think it 
would be helpful for us to have that information.
    And I would encourage you to provide as much specifics 
about the results of USAID as you can because it is important 
not just for us to feel good, but it helps provide the type of 
support we need here in the United States for these programs 
but also I believe encourages stronger partnerships, not just 
with other governments but with private entities, when we know 
that what we do has real consequences. For a mother to have to 
make a decision as to what child to take is heartbreaking, and 
we all can do better. So I think the more specifics you can 
give us, the better we will be.
    I want to ask you one or two more questions before we 
conclude and turn to Senator Lugar.
    Afghanistan. We have not talked a lot about Afghanistan 
here. I am very concerned about the safety of our workers in 
Afghanistan. We see daily reports about the Afghan people 
expressing not only lack of interest in what the United States 
is doing, but the fact that even though we are the largest 
donor of aid, they do not believe we are doing anything to help 
them. I do not know how we continue a program without the 
support of the people of the country. So I just really want you 
to be able to comment with us as to the safety of our workers 
and those who are working with us in Afghanistan, and that 
needs to be our highest priority, protecting their safety.
    Dr. Shah. Thank you, Senator.
    I appreciate your expressing such a strong commitment to 
the safety of our personnel. As you know, we have pulled our 
personnel from specific technical assistance roles where we 
felt they were exposed to undue risk, given the current 
situation and environment, and we will only be putting them 
back in after Ambassador Crocker is convinced on a case-by-case 
basis that that is an appropriate situation from the 
perspective of their safety.
    We also know that later this month there will be the 
implementation of the decree around the Afghan public 
protection force, and we have worked hard over the last 18 
months to make sure we reduce our need for private security 
contractors. Today more than 75 percent of USAID programs do 
not require private security contractors, but 25 percent do. 
And we have been working very
actively with those implementing partners to make sure that 
they have a pathway to safety and security as they work to 
complete these programs and transition them to Afghan host 
country institutions.
    We will stay very focused on the safety of our United 
States direct-hire staff and the safety of our Foreign Service 
nationals, the Afghan nationals, that really do take incredible 
risks to carry out this mission and do it in a visible and 
transparent manner.
    I am also glad in your opening statement you made reference 
to some of the accomplishments of the program. It has been my 
belief that we have done a better job over the past 2 years or 
so of aggressively communicating some of the specific 
advantages these programs have had to the Afghan people, the 
fact that longevity has increased for Afghan women by nearly 2 
decades, the fact that health services have gone from 7 percent 
to 64 percent, that there are 7 million kids in school, 35 
percent of whom are girls. Compared to when we started that 
work, it was just a few hundred thousand. And we have built out 
800 kilometers of road and seen year on year annual growth 
rates of nearly 10 percent.
    We know that this situation needs to focus on and we have 
been very aggressive about making it more sustainable and have 
a number of different approaches we have been taking over the 
past 2 years to enhance the sustainability, including working 
with the Afghan Government to increase their own domestic 
revenue collection, which has gone up fourfold, and we think 
will continue to rise as they assume more direct 
responsibility.
    But these are important results and they are the results 
that have accrued because our team has been there, has taken 
risks, and has focused on delivering those outcomes.
    Senator Cardin. Our involvement in Haiti pretty much 
parallels your leadership in USAID. Well, we were involved 
before, but since the tragedy occurred. Can you just give us a 
brief update as to the capacity of the Haitian civilian 
authority to take on responsibility to maintain the progress 
that has been made through international assistance?
    Dr. Shah. Sure. We have seen steady and now accelerating 
progress in areas like agriculture, access to financial 
services through mobile phones, improvements in health. The 
cholera epidemic, which was so devastating, is now down well 
below international norms and standards. And we have been 
working aggressively to help the new President, President 
Martelli, build the capacity to assume greater responsibility.
    They have gone through a long process that had an effective 
democratic election of a new President and new Parliament. But 
it has been a slow process of building the institutional 
capacity in the Haitian Government to effectively take on all 
of these responsibilities. That is why we will continue to work 
with them as a partner, consulting and taking their guidance on 
when they want to really hold hands and do activities and 
programs together and when the priority needs to be, as it has 
been with efforts to get people out of settlements and tents 
and into homes, a more directed effort to just get the job done 
as quickly as possible in discussion, dialogue, and 
partnership.
    I would also say in that context the role of the private 
sector has been I think underdiscussed in the context of Haiti, 
but our partnership with Coca-Cola to reach 20,000 farmers and 
create a mango juice value chain I think is a good example of 
what is possible when we work effectively with the private 
sector. And we are now seeing new announcements by Marriott to 
build a hotel in Port-au-Prince and the opening of an 
industrial park in the north that can create nearly 60,000 
jobs. And those are the kinds of partnerships we have been 
eager to build together with our Haitian counterparts.
    Senator Cardin. Thank you.
    Senator Lugar.
    Senator Lugar. I just want to thank again Dr. Shah for very 

informative testimony. I have no more questions, only 
commendation for the hearing.
    Senator Cardin. And let me join again Senator Lugar in the 
compliment to our witness and to the work that you are doing 
and that your agency is doing in furtherance of U.S. objectives 
in a very difficult environment.
    The record will remain open for 1 week for questions by 
members of the committee. I would ask that you respond as 
promptly as possible if questions are propounded.
    And with that, the hearing will stand adjourned. Thank you.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of USAID Administrator Rajiv Shah to Questions Submitted 
                        by Senator John F. Kerry

    Question. Earlier this year USAID released its new ``Climate Change 
and Development Strategy'' highlighting the Agency's commitment to 
addressing the impacts of climate change and capturing opportunities to 
promote solutions. This strategy is an important step forward for 
increasing the effectiveness of development assistance by providing a 
roadmap for integrating climate change efforts throughout the Agency's 
programs.

  <bullet> Given that integration is one of the three pillars to the 
        new strategy, please describe how USAID is working to integrate 
        climate change throughout its development portfolio. How will 
        USAID measure that integration?

    Answer. Global challenges, particularly in development, are 
increasingly complex and interrelated, and thus demand integrated 
solutions that bridge traditional programming sectors. Climate change 
is an inherently cross-cutting issue that presents risks and 
opportunities for numerous areas of USAID programming. For example, 
more variable rainfall, stronger storms, and increasing temperatures 
have the potential to reduce agricultural productivity; warming ocean 
temperatures and ocean acidification are already negatively impacting 
fisheries. These impacts are poised to undermine the livelihoods of 
millions in developing countries, especially the poorest. Similarly, 
increased incidence of flooding and drought, saltwater intrusion into 
drinking water supplies, and the migration of disease vectors into new 
areas (such as mosquitoes carrying malaria) will affect public health 
by undermining access to clean water and sanitation, undercutting 
nutritional gains, and changing disease distribution patterns and 
prevalence. Strategic integration of climate change offers the 
opportunity to increase impact and achieve sustainable, resilient 
development solutions that address interrelated issues simultaneously. 
For example, USAID's experience in disaster risk reduction provides a 
solid foundation for expanded efforts to build resiliency by helping 
the most vulnerable populations adapt to and avoid climate change 
impacts, and to quantify the costs associated with increasing climate 
change risks. Many years of leadership in biodiversity conservation and 
natural resources management inform climate-sensitive approaches to 
land-use planning and sustainable use of natural resources such as 
forests and water.
    In support of the new Climate Change and Development Strategy, 
USAID has embarked on a series of integration pilots that will help to 
develop a suite of practices and tools that can be adopted throughout 
the Agency's development portfolio. Pilots will emphasize integration 
of climate change considerations into other administration priorities 
such as the Feed the Future and Global Health Initiatives, sustainable 
economic growth, water, gender, democracy and governance, youth, and 
security. Pilots will demonstrate the potential to generate lessons and 
tools over the next 1 to 4 years. An integration pilot, for example, 
might test ways to reduce energy consumption as part of a USAID 
agriculture program. The results will inform the Agency's wider 
development portfolio moving forward.
    Crucial to integrating climate change is integrated program 
planning that is problem-oriented and maximizes cobenefits. 
Consideration of climate change in strategic planning, program design, 
and project implementation across a wide range of development sectors 
is essential to the success of USAID's mission. It must become the 
responsibility of all USAID development professionals to consider the 
impact climate change will have on their efforts and to search for 
opportunities to promote greener, cleaner, more resilient approaches to 
driving development results. To enhance the ability of staff to do 
integrated programming, USAID has already developed and fielded 
specific training modules on Integrating Global Climate Change in 
Development, as well as sector specific training modules, and has 
developed climate change guidance for country strategies. Current 
efforts are also analyzing ways to enhance Agency project design, 
management, monitoring and evaluation practices to be better able to 
integrate climate change issues.
    In addition, the Agency has developed a comprehensive climate 
change results framework and a set of metrics to measure progress, 
which will be refined over time as lessons and trends emerge. Over the 
coming years, the Agency will evaluate a series of climate change 
integration pilots that are testing different approaches to integrating 
adaptation and mitigation into other USAID development endeavors. For 
instance, a pilot to help smallholder farmers in the Dominican Republic 
adapt their agricultural and business practices to better cope with 
climate variability and change will help the Agency evaluate the 
efficacy of its adaptation interventions and better integrate climate 
adaptation into its broader food security portfolio. In addition, 
Agency GCC and monitoring and evaluation specialists are engaging 
actively with other donors and experts to develop more robust 
adaptation indicators that will better estimate the impact of climate 
adaptation programs.

    Question. It is important for USAID to consider climate change 
throughout relevant program development, from supporting research to 
in-country programmatic implementation. Please describe a few 
noteworthy examples of interventions that will showcase this holistic 
and comprehensive integration.

    Answer. USAID's newly adopted Climate Change and Development 
strategy has three objectives--mitigation, adaptation, and integration. 
The integration objective seeks to mainstream climate change across 
USAID's core programs, in recognition of the fact that climate change 
is not a sector unto itself; rather it is a set of global, national, 
and local challenges that can undermine progress and increase 
vulnerability and insecurity in development sectors throughout 
developing countries.
    It is incumbent upon USAID to consider the impacts of climate 
change on our development goals and objectives, the country's 
development plans, and public and private investments when designing 
strategies and programs. USAID has therefore asked its missions to 
inform themselves of the potential impact of climate change on their 
host countries and their development priorities in the earliest stages 
of developing a Country Development Cooperation Strategy (CDCS) and has 
provided guidance to help them do so. Many missions are pursuing 
explicit climate mitigation and adaptation results within their broader 
development objectives. Others will monitor climate-related measures as 
they design and implement traditional development objectives, such as 
food security and health.
    For instance, one mission is building an ``improved economic 
governance'' subobjective into its economic growth objective, which, 
among other things, will monitor the quantity of reduced greenhouse gas 
emissions, providing a ``more responsible management and development of 
natural resources'' subobjective. This will allow the mission to 
monitor and report on total investments facilitated by USG for 
hydropower development and number of hectares under improved management 
practices.

    Question. The administration is not seeking Global Health Program 
funds for Pakistan for FY 2013. Global Health and Child Survival 
(USAID) funds amounted to $29.7 million in FY 2010 and $28.4 million in 
FY 2011. How much funding are you providing for Global Health 
activities within the Economic Support Fund (ESF) account for Pakistan 
in FY 2013 and what are the objectives? Is the proposed funding level 
sufficient to achieve them?

    Answer. U.S. Government (USG) efforts in global health are a 
signature of American leadership around the world. The Global Health 
Initiative (GHI) is saving and improving the lives of millions, 
spurring economic growth, and strengthening families, communities, and 
countries.
    Pakistan is a vital country within the GHI, and its importance is 
reflected in the administration's FY 2013 $70 million request for the 
health portfolio. The USAID/Pakistan health portfolio is focused on 
enabling the provincial governments to strengthen the provision of 
health services, improve the management of the health care system, and 
increase coverage of services. The FY 2013 request will contribute to 
the reduction of maternal and child mortality and unintended pregnancy 
through strategic programming of high-impact integrated family planning 
and maternal and child health, and health systems strengthening 
interventions.

    Question. Polio remains endemic in Pakistan. Last year, more than 
175 cases of polio were reported, which was the highest caseload in the 
world. According to UNICEF, ``roughly 700,000 children in [Punjab] 
province already miss immunization drives . . . [and] medical experts 
fear this number will now rise.'' What steps is USAID taking to help 
support efforts to eradicate this disease in Pakistan?

    Answer. USAID, working through the World Health Organization (WHO), 
supports the national polio surveillance system, which identifies and 
investigates suspected polio cases; collects and analyzes laboratory 
samples to determine the type of virus circulating; and publishes 
weekly surveillance updates, which are widely disseminated. USAID also 
supports UNICEF's work to develop communication networks that build 
public trust in immunizations, increase community awareness about 
immunization campaigns, and increase demand for immunizations. This 
network of community mobilizers is targeted in areas with high refusal 
rates. USAID believes that surveillance and communication networks are 
the two components of the polio eradication initiative that will lead 
to eradication and strengthened disease control efforts. It is 
important to note that there are other donors who support the 
procurement of vaccines and the operational costs of the immunization 
campaigns (e.g., per diem, transportation, ice packs and other 
supplies). USAID works in partnership with these donors, which include 
the World Bank, JICA, DFID and the Bill & Melinda Gates Foundation.

    Question. I recognize and appreciate the efforts of USAID to update 
its Pakistan Web site to improve the information available about its 
development assistance program. I also believe it is important to 
publish this information in local languages, such as Urdu, to ensure 
that it is readily available to key audiences. Does USAID have plans to 
translate its newly updated Web site into Urdu, and if so, when will 
this occur?

    Answer. While USAID does not have immediate plans to translate the 
Web site to Urdu, we understand the importance of communicating in 
local languages in Pakistan and are including Urdu information in a 
variety of other communications efforts in Pakistan. USAID is reaching 
out to key Pakistani audiences, which include Urdu-speakers, through 
multiple mediums to advance U.S. foreign policy goals.
    Over the last year, in particular, USAID has prioritized raising 
awareness of U.S. assistance and mitigating unfavorable opinions of the 
United States by sizably increasing communications efforts, including 
in Urdu as well as Sindhi, Punjabi, Balochi, and Pashto. Public opinion 
research has shown that the vast majority of Pakistanis receive 
information from radio and television broadcasts rather than by the 
Internet, so our initial emphasis in increasing awareness is to utilize 
these mass media outlets. USAID now conducts a weekly call-in radio 
program in Urdu that features USAID staff, partners, and beneficiaries. 
It is widely broadcast and receives call-ins from across the country. 
Television and radio are where 70 percent of Pakistanis receive 
information and have accordingly been a focus of USAID efforts. Already 
this year USAID has placed more than 10 documentaries about U.S. 
assistance projects on five television stations for a total of 38 
showings. USAID has also recently begun a multifaceted communications 
campaign that will use television, radio, and print public service 
announcements to increase awareness of U.S. civilian assistance.

    Question. What activities did the Task Force for Business and 
Stability Operations (TFBSO) undertake in Afghanistan in FY 2011? Which 
Task Force activities in FY 2011 will be continued by USAID in FY 2012? 
How is the Task Force working with USAID to transition those activities 
it would like to see continue post-2014? What are the advantages and 
disadvantages of transferring TFBSO activities to USAID?

    Answer. TFBSO undertook activities in five programmatic areas in FY 
2011: (1) Minerals; (2) Energy; (3) Indigenous Industries; (4) 
Agriculture; and (5) Information Technology. Currently, there are no 
plans for transitioning any of the FY 2011 TFBSO activities to USAID in 
FY 2012 as TFBSO has received funding from Congress to continue 
operations in Afghanistan through FY 2012. A new process of quarterly 
coordination meetings between TFBSO, State, and USAID was recently 
initiated to enhance dialogue and coordination. The Department of 
Defense, the Department of State, and USAID are jointly developing a 
proposed plan of action on the future of TFBSO and the possible 
transition of its activities to the Government of Afghanistan, other 
USG agencies, or the private sector. We expect the plan to be cleared 
through the three agencies and submitted to Congress shortly.

    Question. Please provide me with an update and description of your 
new Monitoring and Evaluation (M&E) framework for Afghanistan.

    Answer. As you are well aware, monitoring and evaluation in a high 
threat environment remains a longstanding challenge, including in 
places such as Afghanistan. Our Agency understands that a framework of 
clear, measureable goals and expected results is the heart of effective 
programming. Direct monitoring of results not only enables us to 
improve the quality of implementation abut also to inform others of 
progress and lessons learned in Afghanistan. Under such tough 
conditions as exist in Afghanistan, we are constantly refining and 
improving our approaches to increase impact, improve oversight of 
projects, and build Afghan capacity. The following constitutes the 
major elements of our monitoring and evaluation program in Afghanistan:
    Results Frameworks: USAID's Results Framework in Afghanistan 
graphically represents the development hypothesis, defines goals, 
development objectives, and multilevel results, along with 
corresponding performance indicators for each objective and result. 
Results Frameworks serve as the basis for project design, monitoring, 
evaluation, performance management and reporting, and ultimately, the 
Performance Management Plan.
    Performance Management Plan: Since fall 2010, USAID/Kabul has been 
reporting against a mission-level Performance Management Plan (PMP) 
which illustrates how programs contribute to achieving overall U.S. 
Government goals in Afghanistan. The Afghanistan mission's results 
framework and PMP outline eight overarching assistance objectives, with 
related intermediate results and indicators. All USAID programs are 
mapped to results frameworks and report quarterly on indicators linked 
to those results, showing progress toward goals. USAID's implementing 
partners are also realigning their projects as needed to map against 
the Results Framework and its PMP. The data for the Mission Results 
Framework and PMP is tracked and monitored in a central database known 
as Afghan Info.
    Afghan Info: Afghan Info is the USAID mission's information storage 
and retrieval system. In the first quarter of 2010, the mission began 
using Afghan Info, a database through which implementing partners 
directly report results against project indicators. In February 2011, 
USAID/Afghanistan's 53,000 project site locations, PMP indicators for 
the eight overarching strategy goals, and spending figures were added 
to the system. Since February, the system has transitioned to a new 
Web-based platform to provide increased U.S. Government oversight of 
partner reporting and provide the mission with additional management 
tools that can be accessed in Afghan Info, including performance 
management functions, project evaluation documentation, and project 
financials. Additionally, geospatial data is included in Afghan Info 
for all USAID projects with specific locations. By knowing the location 
of the project sites and examining program performance, USAID can (1) 
ensure better integration of its programs and coordination among its 
implementing partners; (2) manage resources; and (3) maximize impact of 
its programs.
    Third-party Monitoring and Evaluation: USAID/Afghanistan has had a 
monitoring and evaluation (M&E) contract in place since 2006 that 
provides the entire USAID mission with M&E services. The mission is 
committed to maintaining the constant presence of a missionwide third-
party monitor in addition to support from other third-party monitors as 
needed.
    Monitoring & Evaluation Unit: In 2011 the mission established a 
monitoring and evaluation unit to improve oversight, ensure compliance 
with required agency M&E policies, and see that relevant information is 
shared and understood widely within the mission. In 2011, the M&E team 
of 3-4 full time staff has also established an extended M&E team 
throughout the rest of the mission. All USAID/Kabul technical offices 
have designated M&E liaisons who meet regularly with the core M&E Unit.
    Third Party Monitors are also engaged by the mission. They are not 
subject to Chief of Mission (COM) authority and therefore often have 
fewer security restrictions than USAID direct hire employees to visit 
projects and assess progress on the ground in real time. USAID 
Contracting officers and key mission staff are encouraged to visit 
their project sites to the maximum extent allowable under Chief of 
Mission authority.
                      evaluation outlook for 2012
    Increased Evaluation: USAID`s Afghanistan evaluation program is 
aligned with the USAID Evaluation Policy issued in January 2011: http:/
/www.usaid.gov/evaluation/. It adheres to Agency guidelines for high 
quality evaluations. Afghanistan has identified seven high quality 
performance evaluations that will be completed between July 1, 2011, 
and December 31, 2012.

    Question. What are your projected levels of spending in FY 2014, FY 
2015, and FY 2016 for Afghanistan and Pakistan?

    Answer. The USAID Afghanistan and Pakistan missions are currently 
in the process of preparing their FY 2014 Mission Resource Requests, 
which will in turn inform the FY 2014 budget submission by USAID and 
the Department of State to the Office of Management and Budget and, 
subsequently, the FY 2014 Congressional Budget Justification. USAID's 
budget request in FY 2014, FY 2015, and FY 2016 will ultimately be 
determined by overall U.S. Government policy. In Afghanistan, the FY 
2014 resource request will be guided by the ongoing comprehensive 
review of our assistance portfolio in consultation with the Government 
of Afghanistan. USAID is aligning programs with a focus on activities 
that are the most necessary, achievable, and sustainable, and with the 
intent of setting a foundation for an economically sustainable and 
stable Afghanistan post-transition. As you know, in Pakistan, FY 2014 
will be the last year under the Enhanced Partnership with Pakistan Act 
of 2009. The FY 2014 budget request will be guided by an ongoing review 
of our assistance portfolio in five priority areas of energy, economic 
growth, stabilization, education, and health. It will also be guided by 
consideration of broader foreign policy goals in Pakistan and the 
region.

    Question. What steps are you taking to ensure that USAID Forward 
and other reforms you have made to agency operations are maintained and 
strengthened beyond your tenure? What legislative measures have you 
considered to strengthen these reforms in the long term?

    Answer. I have spent a great deal of time working with USAID staff 
in Washington and with our leaders and managers overseas to make the 
USAID Forward reforms ``irreversible.''

  <bullet> We have approached this priority task on three levels:

      <all>  By establishing and empowering a select number of new 
            organizational units where this was necessary to bring back 
            core competencies into the Agency;
      <all>  By improving our recruitment, assignment and career 
            development services, ensuring we get the right staff in 
            the right place with the right skills;
      <all>  By conducting a full review of all key regulations and 
            guidelines to ensure they do not stand in the way of our 
            officers' success.

  <bullet> In support of Implementation and Procurement Reform (IPR):

      <all>  We are reviewing and revising relevant policies and 
            regulations in order to provide an enabling environment 
            that enables our staff to more easily work through partner 
            country systems and with local NGOs and businesses while 
            guarding against corruption or other improprieties. We are 
            also streamlining and simplifying our procedures and 
            compliance requirements so that we can be more cost 
            effective and broaden our partner base.
      <all>  We are building sustainability into our country 
            development strategies and project design and requiring 
            that all our programs consider how to build more local 
            capacity. We want to transition out of certain countries or 
            at least out of certain sectors within the next few years 
            because we have built stronger local institutions that lead 
            their own country's development.
      <all>  We are training staff in both Washington and the field to 
            ensure that staff across the Agency have the knowledge and 
            skills to make IPR an integrated part of the way we do 
            business.

  <bullet> Following the establishment of the Bureau for Policy, 
        Planning and Learning (PPL):

      <all>  We are revising our policies mandating country strategies, 
            project design and evaluation to ensure these practices are 
            embedded in Agency operations.
      <all>  We are training staff across the Agency to ensure USAID is 
            guided by evidence-based policy making and strategies.
      <all>  We have reinstituted the AAAS program to bring high 
            quality scientists back to USAID and developed partnerships 
            with the scientific and university communities.

    The new Office of Budget and Resource Management (BRM) and the 
associated increase in budget responsibility at USAID is 
institutionalized in the QDDR, which codifies reforms already underway 
through USAID Forward.

  <bullet> BRM is making us more cost-effective:

      <all>  By focusing budgetary resources on development and 
            humanitarian assistance activities and in countries where 
            there is a greater return on investment;
      <all>  By strengthening the development voice in the formulation 
            of the International Affairs budget, through the 
            Administrator's comprehensive development and humanitarian 
            assistance budget as envisioned in the QDDR; and
      <all>  By strengthening budgetary practice and attention to cost-
            effectiveness throughout USAID.

  <bullet> To support and further talent management:

      <all>  We have concentrated overseas expansion funded through the 
            DLI program in Africa, Asia and the Middle East, and more 
            than doubled the number of engineers, economists, 
            agricultural, health, financial management, and contracting 
            and project development cadre through new hiring.
      <all>  We have launched an ambitious mentoring program, and 
            expanded career development counseling and staff care 
            services for our workforce, enabling us to better meet the 
            needs of USAID's larger and more diverse workforce.
      <all>  Recognizing that the success of any change management 
            program rests on leadership, we have published and widely 
            discussed a set of leadership principles that senior 
            managers are being held accountable for. We have also 
            expanded both the use of survey tools and social media to 
            generate more awareness and enthusiasm for the reforms 
            among our staff.

  <bullet> To advance innovation through the newly established Office 
        of Innovation and Development Alliances (IDEA):

      <all>  USAID has reformed and improved the application process 
            for public-private partnerships that has resulted in 
            multiple multimillion dollar partnerships as well as small 
            grants to growing entrepreneurs, both domestic and 
            international, to achieve targeted development goals.
      <all>  USAID has created a new tool, Development Innovation 
            Ventures, to engage with new partners and embrace a venture 
            capital approach to development that leverages small scale 
            investments to have a significant development impact.
      <all>  USAID is using mobile technology to integrate electronic 
            payments and mobile banking into our development programs 
            and host-country financial systems to increase aid 
            effectiveness, transparency, and accountability across the 
            board and to cut costs associated with cash payments (i.e., 
            transportation, security, and printing).

  <bullet> To sustain the momentum we have achieved, I ask your help 
        with the following:

      <all>  (Implementation and Procurement Reform) To ensure that 
            USAID can manage the increased partner base, we have 
            requested the authority to create a Working Capital Fund 
            resourced from program funds obtained via a fee-for-service 
            model of up to a 1 percent charge on estimated annual 
            acquisition and assistance obligations worldwide. We will 
            use the fees collected to improve acquisition and 
            assistance services to bureaus, offices, and missions, and 
            to realign our workforce to match evolving Agency policy 
            and priorities. This new way of operating will allow USAID 
            to enhance its procurement capacity, build local capacity, 
            provide better service, and increase strategic sourcing of 
            supplies and services.
      <all>  (Budget) To continue the progress we have made, we ask 
            that you continue your strong support of USAID's 
            development assistance, humanitarian assistance, and 
            especially its operational expense budget which is 
            essential in making USAID truly the world's preeminent 
            development agency.

                                 ______
                                 



   Responses of USAID Administrator Rajiv Shah to Questions Submitted
                      by Senator Richard G. Lugar

                              afghanistan
    Question. The administration has long been engaged with President 
Karzai's government in concluding a longer term Partnership Agreement, 
as other allies have done, with little progress and diminishing 
prospects for success. Some now suggest an agreement may be unlikely. 
How will the United States effectively implement foreign assistance at 
the levels proposed by the President with this situation of diminishing 
cooperation, especially given the lessons we must draw from Iraq?

    Answer. The United States and Afghanistan have signed a strategic 
partnership agreement that demonstrates the enduring U.S. commitment to 
Afghanistan, strengthens Afghan sovereignty, and allows us to continue 
targeting terrorists together so they cannot outlast us.
    A prime example of our ongoing cooperation and close collaboration 
with the Government of Afghanistan (GIROA) is the joint review of U.S. 
assistance programs held in March 2012. These reviews were unique in 
that they focused on U.S. assistance at the project level, and provided 
a comprehensive and frank review of each project's performance and any 
outstanding issues from the perspectives of the U.S. and Afghan 
Governments. Afghanistan's participation was led by the Ministry of 
Finance at the Deputy Minister level, and included the Minister of 
Mines and high-level representatives from the Ministry of Agriculture, 
Irrigation and Livestock, the Ministry of Justice, the Ministry of 
Reconstruction and Rural Development and the Independent Directorate 
for Local Governance. Key issues raised by both sides included 
alignment with key deliverables for National Priority Programs under 
the Afghanistan National Development Strategy, coordination with other 
donors, and sustainability and progress toward transition goals.
    This joint review process reflects an unparalleled and increasing 
level of dialogue and cooperation between the U.S. Government and the 
Government of Afghanistan on development issues. It also comes at a 
critical time--despite the various challenges to U.S.-Afghan 
cooperation in recent months. The U.S. Government's continued 
collaboration on development issues sends a strong signal to our fellow 
donors and GIROA about our commitment to Afghanistan. Furthermore, the 
willingness of the Afghan Government to engage in detailed and critical 
dialogue and take an active role in the implementation of U.S. 
assistance is a sign of an ongoing commitment to collaborate 
productively with the U.S. Government and an increasing and critically 
important ability to take ownership of development as we approach the 
transition in 2014.

    Question. How will our assistance and planning be affected in the 
absence of such a strategic agreement?

    Answer. We are committed to a strong, enduring partnership with 
Afghanistan and we were heartened that the Loya Jirga expressed its 
support for this partnership at its meeting in November 2011. The donor 
community, including the United States, has been working closely with 
Afghan Government officials to plan assistance post-2014. And as 
mentioned above, USAID has conducted an extensive review of its 
portfolio with the Afghan Government, to ensure that its activities 
support Afghan development priorities, build Afghan capacity, and 
promote sustainability of development. These reviews reflect a 
commitment on both sides to work productively to achieve jointly 
responsible development results over the long term. In addition, at the 
December 2011 Bonn Conference, the United States, along with the 
broader international community, committed to supporting Afghanistan as 
it consolidates its development and security gains, and moves toward 
self-sufficiency. This commitment will be reemphasized in the coming 
months at both the May G8 meetings and the July 2012 Tokyo Conference 
on Afghanistan. One of the key dimensions of this commitment is the 
principle of ``mutual accountability,'' in which the United States and 
broader donor community continues to closely coordinate with and align 
its assistance in support of the Afghan Government, while the Afghan 
Government for its part fulfills key governance commitments it outlined 
at the Bonn Conference.

    Question. How have you ensured that the available assistance that 
is appropriated is closely managed and applied to only the highest 
national security purposes rather than an Afghan wish list that might 
perpetuate the misgovernance present in many parts of the country?

    Answer. USAID programs in Afghanistan are designed to further U.S. 
policy objectives and regularly evaluated to assess whether they are 
having a positive impact in support of U.S. national security. USAID's 
country program, as approved through and guided by the interagency 
process, supports the administration's goal of disrupting, dismantling, 
and defeating al-Qaeda in Afghanistan and Pakistan and eliminating its 
capacity to threaten America and our allies by stabilizing key 
districts and enabling Afghans to develop a foundation of sustainable 
economic growth and effective, legitimate governance.
    As the United States and international partners prepare to 
transition greater security responsibility to Afghan forces, USAID is 
focusing its assistance on the development of a stable Afghanistan by 
working to enhance the ability of Afghanistan to withstand the 
economic, security, and governance challenges associated with the 
transition and drawdown of the international forces.
    Importantly, USAID is implementing the Administrator's 
Sustainability Guidance for Afghanistan to ensure sustainability and 
accountability. USAID's country program, as a result of the 
sustainability review conducted within the USG and with the Afghan 
Government, will focus on (1) driving inclusive economic growth; (2) 
enabling increasingly effective governance; and (3) fostering a more 
resilient and capable population able to demand and receive government 
services. As we go forward, USAID programs will: (1) increase Afghan 
ownership and capacity; (2) contribute to stability and confidence in 
the Afghan Government; and (3) be scrutinized for efficient cost and 
results.
    Each technical area in USAID/Afghanistan has a high-level goal 
which contributes to establishing stable and effective Afghan-led 
development. Some key sector goals include improved performance and 
accountability of governance. The mid-level results, assuming success, 
will combine to achieve the higher level goals. Indicators are 
associated with every level of goal to signal to the mission whether 
progress is being made or if managers need to make adjustments to the 
program.
    USAID also works with other USG entities and donors operating in 
Afghanistan to ensure that its assistance is aligned with the work of 
others and there is no duplication of effort. As USAID plans for the 
2014 security transition, and noting a decline in its resources, USAID 
is focusing its program on key foundational investments in priority 
sectors--such as energy, agriculture, extractive industries, and human 
capital--that will help develop Afghan capacity, promote economic 
growth, and increase government revenue generation to support a 
sustainable, durable transition in Afghanistan.
    Coordinating interagency USG assistance to Afghanistan is important 
for maximizing the developmental impact of donor funds, avoiding 
duplication of effort, and strengthening our partnership with allies in 
Afghanistan. In Washington, USAID works closely with our counterparts 
at the Department of State to ensure close coordination in our 
programming and overall assistance goals. In Kabul, all of USAID's 
activities in Afghanistan are closely overseen by State's Coordinating 
Director for Development and Economic Affairs. Beyond Kabul, USAID 
works hand in hand with field staff from State, the U.S. Department of 
Agriculture, Department of Defense, and other agencies as part of the 
Regional Platforms, Provincial Reconstruction Teams, and District 
Support Teams.

    Question. What is the current level of USAID assistance in the 
following areas:

  <bullet> Humanitarian assistance such as that needed for the fierce 
        winter they are
        experiencing;
  <bullet> Development assistance such as agriculture or 
        infrastructure;
  <bullet> Stabilization assistance such as pay for work and diesel 
        fuel for generators?

    Answer.
Humanitarian assistance such as that needed for the fierce winter they 
        are experiencing
    The USAID/Office of Foreign Disaster Assistance (OFDA)'s funding in 
Afghanistan has totaled approximately $36 million since 2010, with 
$17.7 million programmed thus far in FY 2012. In response to the severe 
winter this year, USAID/OFDA mobilized to provide cold weather-related 
emergency relief supplies, including blankets, winter clothing, shoes, 
and shelter materials, to approximately 28,000 of the estimated 30,000 
residents of the Kabul Informal Settlements. To quickly address 
humanitarian needs of newly displaced people, USAID/OFDA supports the 
prepositioning of emergency relief supplies in strategic locations 
throughout Afghanistan, which relief agencies draw upon when population 
displacement or other emergency needs occur, such as the avalanches 
this month.
    Other examples of OFDA's humanitarian assistance activities in 
Afghanistan include providing humanitarian air services to allow 
humanitarian workers to access vulnerable populations in remote areas; 
building emergency preparedness and response capacity among local NGOs 
and community leaders; and increasing public awareness of natural 
hazards and building local emergency preparedness through community-
based training programs. USAID/OFDA is also supporting efforts to 
advocate at the national level for child protection in emergencies and 
to enhance the capacity of government and civil society organizations 
to meet children's emergency protection needs.
Development assistance such as agriculture or infrastructure; and 
        stabilization assistance such as pay for work and diesel fuel 
        for generators
    The following table provides a summary of how USAID expects to 
program its FY 2011 foreign assistance resources in Afghanistan. In 
agriculture, for instance, USAID expects to invest approximately $83 
million of FY 2011 funds. Agriculture is a critical sector of the 
Afghan economy, with approximately 75 percent of Afghans deriving their 
livelihoods from agricultural activities. USAID resources in this 
sector support activities such as irrigation and watershed management; 
improving food security by strengthening agricultural value chains; 
promoting agribusiness; and building the capacity of the government to 
manage this sector. Our FY 2011 investments in infrastructure, 
including approximately $538 million in power, underpin the USG's 
economic growth and job creation strategy in Afghanistan and will be 
used to expand power transmission and strengthen revenue generation and 
commercialization to improve cost recovery and strengthen the 
government's fiscal position. Going forward, our focus in the 
infrastructure sector is increasingly on operations and maintenance and 
the sustainment of investments to date by Afghans. We have no plans to 
fund diesel fuel for generators.

USAID Assistance by Sector--Afghanistan

                          [Dollars in millions]

                                                                 FY 2011
                                                                 Enacted

Total USAID Assistance........................................   2,037.5
                    ==============================================================
                    ____________________________________________________
Governance....................................................     817.4
    Stabilization and Local Governance........................     240.8
    Democracy, Governance.....................................     576.6
Justice/Rule of Law...........................................      89.9
    Rule of Law...............................................      23.9
    Counternarcotics--Alternative Development.................      66.0
Economic Growth...............................................     874.7
    Roads and Water...........................................     140.0
    Power.....................................................     538.3
    Agriculture...............................................      83.3
    Economic Growth/ Private Sector Development...............     113.1
Social Sector.................................................     255.6
    Education.................................................      95.0
    Health....................................................     160.6

    USAID's programs also support the hold-build-transfer stages of the 
military's counterinsurgency strategy in Afghanistan. USAID expects to 
program approximately $240 million of FY 2011 resources for programs 
such as the Afghanistan Stabilization Initiative, the Community 
Development Program, and the Stabilization in Key Areas program, which 
work in key areas to build confidence in the government and create an 
environment that is more conducive to the transition of Afghanistan to 
a stable and productive state that is responsive to citizen needs. 
While USAID continues to engage in some cash-for-work programs, going 
forward, our stabilization programs will be increasingly focused on 
supporting the transition to Afghan-led development and building the 
capacity of the Afghan Government to address sources of instability. In 
addition to these programs, other USAID programs, such as those in 
democracy, economic growth, and health and education, contribute to 
long-term stability by building the capacity of Afghan Government and 
improving its connection with, and service to, the Afghan people.
                                  iraq
    Question. Iraq recently passed a 117 trillion dinar budget (about 
$100 billion), based principally on revenues generated from an average 
oil price of $85 per barrel and 2.6 million barrels per day (bpd) in 
crude exports. World crude oil is now trading at $107 per barrel and 
rising. These new numbers should bring Iraq yet another budget surplus. 
Given Iraq's budget reality and ours and the tremendous cost of simply 
housing, protecting, and feeding USAID employees and contractors in 
Iraq and the difficult political and security environment there, what 
impacts are USAID programs having?

    Answer. USAID continues to meet the challenge of operating 
effectively in a dynamic security environment while still maintaining 
the safety of our personnel.
Iraqi Government Cost Sharing
    On April 9, 2009, in accordance with congressional mandates in the 
2009 Supplemental Appropriations Act (Public Law 111-32), the State 
Department adopted a set of policy guidelines on Iraqi Government 
matching for U.S. assistance funds, which require financial or in-kind 
Iraqi Government counterpart contributions for most U.S.-funded foreign 
assistance programs and projects that directly benefit or involve the 
Iraqi central government. USAID has applied this requirement to the 
budget planning process for Iraq. USAID requires that the program costs 
of assistance that directly benefits Iraqi Government institutions--
except certain extraordinary costs such as security and life support--
be matched on a dollar-for-dollar basis in cash or in-kind. The Iraqi 
Government's contributions are specifically quantified prior to the 
initiation of assistance and include a plan for transitioning 
responsibility for the project to the Iraqi Government, and semiannual 
reporting requirements.
    USAID's previous Tatweer National Capacity Building project was the 
first project to formally seek cost-sharing from the Iraqi Government, 
but only partially since it had been awarded in July 2006 before the 
congressional mandates. USAID's Primary Health Care Project awarded in 
March 2010 was the first USAID project to fall fully under the 
congressional cost-share mandates. So far, the Iraqi Ministry of Health 
has committed to share the $56 million cost of USAID assistance to 
improve the delivery of primary health care services. USAID is 
currently negotiating cost-sharing agreements for the following 
projects which directly benefit the Iraqi Government and fall under 
congressional cost-sharing mandates.

  <bullet> Governance Strengthening Project ($39M)--capacity-building 
        assistance to provincial and local governments as well as 
        community groups.
  <bullet> Administrative Reform project ($113M)--assistance in 
        strengthening central Iraqi Government ministries and executive 
        departments.
  <bullet> Received approval for three education cost-share activities 
        ($53M).

    USAID projects are having some of the following impacts:
Community Development
    The USAID Community Action Program (CAP) assists Iraqi communities 
in identifying their priorities, and then formulating and implementing 
solutions using local resources including advocating with Iraqi local 
governments. Since 2008, over 850 community groups have implemented 
more than 2,500 projects with USAID assistance. Recently, USAID-
supported community groups have been working with international oil 
companies in southern Iraq to rehabilitate local schools, improve water 
purification systems, and provide economic livelihoods to disadvantaged 
women.
Microfinance
    Since 2004, USAID-supported microfinance institutions have provided 
more than 344,590 loans worth a combined value of over $808 million. 
One component of the project focuses on vulnerable communities in Iraq 
which include Internally Displaced Persons, ethnic and religious 
minorities, and female-headed households. Another component of the 
project focuses on expanding economic opportunity to Iraqi youth. The 
project has benefited more than 4,000 Iraqi youth through Small 
Business Development Centers by providing assistance in improving 
business skills, finding employment, starting businesses and getting 
loans.
Women
    The USAID-supported Women's Awareness and Inclusion program, which 
is implemented in southern Iraq has benefited 23,000 women since 2005 
by empowering them through literacy and social inclusion programs. The 
program assists women by providing 1-year basic literacy and numeracy 
trainings which are supplemented with educational modules on cultural 
and social awareness topics, such as democracy and governance, human 
and women's rights, needs identification and prioritization--vital 
tools for women, as they work to become powerful advocates and leaders 
in their communities. Today, over 10,000 women and teenage girls are 
enrolled in the program through 226 centers across the southern 
governorates of Basra, Maysan, Muthanna, and Thi Qar.

    Question. What are the top priorities for USAID Iraq in the medium 
term?

    Answer. USAID will continue efforts to assist Iraqis in using their 
own resources to strengthen democratic governance and promote broad-
based economic prosperity through private sector growth. This includes 
technical assistance to the Government of Iraq to improve its ability 
to govern effectively, deliver essential services, and generate 
economic growth.
    USAID will also continue to support Iraqi microfinance 
institutions, the private banking sector and the Central Bank of Iraq 
to expand access to credit to Iraqi entrepreneurs, small and medium 
enterprises, strengthen the private financial sector and promote 
reforms that will encourage private sector investment.
                                pakistan
    The population of Pakistan is estimated to increase from 170 
million to 260 million by the year 2030. It is further estimated that 
by 2030, the urban population will become double, and about 50 percent 
of the total population of Pakistan will be living in urban area. 
Experts examining U.S. civilian aid to Pakistan recommend that 
assistance now focused primarily in rural areas be refocused urban and 
periurban areas going forward. The growing dissatisfaction of the 
populace in these areas stems from a combination of limited economic 
opportunity, physical insecurity, and misguided or ambivalent 
governance.

    Question. To what extent are you examining investments in civilian 
assistance in urban areas in addition to rural areas? What assumptions 
are you using for such assessments, as they relate to our national 
security interests in a long-term relationship with Pakistan? How does 
the urban development element fit in the near term given the existing 
threats that emanate from some of Pakistan's major cities? What 
opportunities are there for collaborative development in such areas, 
and what obstacles hinder their impact?

    Answer. Several analyses have pointed to the importance of urban 
and periurban areas to Pakistan's future, both in terms of economic 
growth and countering violent extremism. As such, our approach to 
civilian assistance to Pakistan--which is centered around five priority 
sectors, namely energy, economic growth, stabilization, education and 
health--very consciously strikes a balance between programming that 
promotes urban versus rural development.
    Our assumptions for assistance include that: (1) overall, U.S. 
assistance is a nationwide program to benefit Pakistan's population 
writ large, rather than any particular region; (2) that programming 
will be intentionally split between urban and rural populations, 
including the remote border areas of KP and FATA; and (3) that 
opportunities to counter violent extremism will be a consideration in 
program decisionmaking and design. These considerations acknowledge 
that some of the greatest discontent and potential for extremism and 
violence do indeed emanate from urban areas.
    A number of economic growth programs oriented toward urban 
development complement those with a rural orientation. Those focused on 
urban growth include the ongoing entrepreneurs program, which has to 
date trained 70,000 women entrepreneurs in financial literacy and other 
skills, including in Karachi and other urban areas. In addition, a 
program currently under design to provide investment capital to 
Pakistani small and medium-sized enterprises will also foster urban 
employment.
    In energy, our top assistance priority, we are focusing primarily 
on helping Pakistan resolve the shortfall it currently faces on its 
national electric grid, in lieu of focusing on providing electricity to 
rural populations off-grid or adding populations (and by extension 
increasing demand) to the national grid. Such a decision has the effect 
of focusing effort and resources on urban development, as only 60 
percent of Pakistan's population is connected to the national grid, 
predominately in urban areas. Prioritizing energy assistance and 
development is also designed to address a core obstacle to urban 
investment and employment, since insufficient energy supply is 
responsible for large-scale unemployment and furloughs in industrial 
areas.
                                 sudan
    Our committee will hold a hearing next week to examine the ongoing 
crisis in Sudan following the secession of South Sudan. It appears the 
Government in Khartoum is continuing to implement policies of violence 
and forced isolation to bend the will of its remaining population. 
Khartoum has also prompted South Sudan to cut off the flow of oil due 
to allegations of theft and manipulation.

    Question. What is the status of international assistance to Sudan, 
especially to the conflict areas near the border with South Sudan?

    Answer. Since the outbreak of violence first in Abyei in May 2011, 
then Southern Kordofan in June 2011, followed by Blue Nile later in the 
summer, virtually all international management of humanitarian and 
development activities has come to a halt. The Government of Sudan 
(GOS) continues to restrict international access and assistance to 
government-controlled and nongovernment-controlled areas of Southern 
Kordofan and Blue Nile.
Southern Kordofan and Blue Nile
    Access for humanitarian and development organizations throughout 
Southern Kordofan and Blue Nile states is highly restricted by the GOS. 
USAID's humanitarian partners are limited to operating scaled-back 
programs run by national staff with no direct monitoring or oversight 
from expatriate program managers. The Sudanese Red Crescent Society 
(SRCS) operates in GOS-controlled areas. Through $1.2 million in 
funding to the International Federation of Red Cross (IFRC) and Red 
Crescent Societies, USAID supports SRCS to provide humanitarian 
assistance--including food, relief items, basic health care services, 
and access to safe drinking water and sanitation facilities--to 
internally displaced persons (IDPs) and other conflict-affected 
populations in GOS-controlled areas. SRCS is also conducting family 
tracing, mine risk education, and protection activities in child-
friendly spaces, in collaboration with local staff of U.N. agencies. 
USAID also maintains a Rapid Response Fund, managed by the U.N. 
Children's Fund (UNICEF), which enables relief organizations to quickly 
access funding to meet emergency needs through both local and 
international partners. To date since the outbreak of conflict in 
Southern Kordofan in June 2011, USAID has provided assistance to people 
in Sudan People's Liberation Movement/North (SPLM/N)-held areas.
    Despite the GOS authorization in January for the return of a 
limited number of U.N. international staff to Kadugli, the capital of 
Southern Kordofan State, the movements and ability of U.N. 
international staff to assess conditions and organize a response are 
limited to Kadugli, where humanitarian needs are fairly well managed. 
The U.N. international staff do not have access to the Nuba Mountains, 
where up to 150,000 people are in dire need of humanitarian assistance.
    USAID's partner, the U.N. World Food Programme (WFP), recently 
modified its previous position that it would only provide food 
assistance in Southern Kordofan if granted access to providing 
assistance to all areas of the state, including SPLM/N-controlled 
areas. While WFP will continue to press the GOS for unfettered, 
statewide access, it will now assist in any location where the GOS 
permits international WFP staff to participate in food security 
assessments, even if this means that WFP can only provide food aid in 
Sudan Armed Forces (SAF)-held areas. In early May, WFP national and 
international staff and GOS technical staff conducted a joint 
assessment of the food security situation among IDPs in four SAF-
controlled localities in Southern Kordofan. Subsequently, WFP 
distributed full, 1-month rations to approximately 30,000 IDPs in these 
locations.
    Since the outbreak of conflict in Southern Kordofan in June 2011, 
international humanitarian organizations have not been permitted to 
resupply or deliver aid to newly vulnerable populations. The U.S. 
Government is doing all it can do through indirect support to try to 
save lives within the tight confines of limited access due to the 
security environment. USAID is also closely coordinating with the U.S. 
Department of State's Bureau of Population, Refugees, and Migration, 
which is leading the response to the needs of the growing refugee 
population in South Sudan.
    The strong coping mechanisms of the population along with the small 
amount of assistance that is getting in is helping mitigate the 
immediate impact of the crisis, but we remain gravely concerned for the 
innocent civilians caught in the midst of the conflict.
    With respect to transition/development activities, these are 
largely suspended due to insecurity and open conflict. USAID has had a 
historic role in supporting the people of Sudan, particularly along the 
fragile border. Since the signing of the Comprehensive Peace Agreement 
(CPA) in 2005 until its close in July 2011, USAID worked with civil 
society and political parties to support key CPA political processes in 
the Three Areas (Abyei, Southern Kordofan, and Blue Nile), increase the 
capacity of local government to be responsive to the needs of the 
population, mitigate conflict between various tribal and ethnic groups, 
and promote citizen participation in the CPA-mandated ``popular 
consultations'' in Southern Kordofan and Blue Nile. However, since the 
outbreak of violence along the border last year, virtually all 
international management of these activities has come to a complete 
halt. With open conflict ongoing in Southern Kordofan and Blue Nile, 
and political stalemate between the GOS and Republic of South Sudan 
over post-CPA issues including the status of Abyei, prospects for 
local-level support to outstanding post-CPA processes in the Three 
Areas are bleak.
    When the operating and political environment allow, USAID stands 
ready to provide humanitarian assistance and address outstanding CPA 
issues. We are currently exploring how best to support building the 
capacity of civil society organizations; developing and targeting 
support to local governance; and expanding avenues for citizen 
participation through civic education and engagement in the Three 
Areas, and throughout Sudan, as appropriate.
Darfur
    Despite a lack of consistent access to all areas in Darfur, USAID, 
supported by other countries, including Japan, Canada, Norway, and the 
United Kingdom, continues to provide critical humanitarian assistance 
in Darfur.
    USAID continues to meet emergency needs among internally displaced 
and other conflict-affected populations while supporting early recovery 
programs where conditions of security and access permit. Approximately 
78 percent of USAID food assistance supports more than 3.2 million 
IDPs, refugees, returnees, and conflict-affected residents of Darfur. 
In FY 2011, USAID provided approximately $31 million--representing 44 
percent of its FY 2011 nonfood humanitarian budget for Darfur--for 
early recovery activities aimed at promoting sustainable livelihoods 
among conflict-affected and IDP populations, including significant 
numbers of returnees.
    USAID recently completed an early recovery water assessment in 
Darfur to better understand livelihood-related water needs and the 
viability of various potential initiatives to increase sustainable 
access to water for communities in stable and secure areas. USAID is 
currently conducting a broader early recovery assessment to improve 
ongoing and future early recovery programming. However, the ability to 
implement a program based on recommendations from these assessments is 
severely limited without the issuance of travel permits and 
implementation protocols by the Government of Sudan.
Returnees
    USAID funds Catholic Relief Services to support vulnerable, 
transiting returnees in and around Khartoum and the International 
Organization for Migration (IOM) for returnee tracking and monitoring. 
In addition, USAID supports IOM to provide onward transport for 
returnees once they arrive in South Sudan from Sudan. Onward transport 
allows returnees to quickly reach their home areas throughout South 
Sudan and begin their new lives. Currently, the humanitarian community 
is facilitating the airlift from Khartoum to Juba of 12,000 to 15,000 
returnees who had been stranded in Kosti--a key transit point in 
Sudan--for long periods of time. The international donor community is 
funding the airlift, and once the returnees arrive in South Sudan, they 
receive onward transport to their final destinations through USAID 
assistance and are supported by USAID partners to help them assimilate 
and reintegrate in South Sudan.
Other Donors
    The top five donors supporting the 2012 U.N. humanitarian appeal 
are the United States, Japan, the United Kingdom, Canada, and Norway. 
The U.N. appeal is nearly 29-percent funded at $306 million.
    As of February, Canada, Japan, Norway, Sweden, and the United 
Kingdom had contributed a total of nearly $1 million to the IFRC appeal 
to support SRCS. The European Commission's Directorate-General for 
Humanitarian Aid and Civil Protection (ECHO), the International 
Committee of the Red Cross (ICRC), Germany, Qatar, Saudi Arabia, and 
various U.N. agencies have also provided bilateral support to SRCS.

    Question. How have you prioritized with the new mission in Juba, 
South Sudan, the effective implementation of significant assistance in 
an environment with little infrastructure, governance capacity, and now 
no revenue since the oil pipeline has been closed?

    Answer. Since the signing of the Comprehensive Peace Agreement 
(CPA) in 2005, and through the agreement's conclusion in July 2011, the 
regional Government of Southern Sudan benefited from oil revenues 
mandated by the CPA and from generous humanitarian and development 
funding by international bilateral and multilateral institutions. With 
this support, many gains were made during the CPA years, including 
tripling primary school enrollment and increasing access to potable 
water. The decision by the Government of the Republic of South Sudan 
(RSS) in January to shut down oil production, thereby reducing its 
revenue to almost nothing (98 percent of past revenue was derived from 
oil), disrupted this positive trajectory. Amid budget cuts in essential 
services and growing inflation, South Sudan has begun to backslide on 
prior developmental gains, forcing donors to reconsider long- and 
medium-term growth and capacity-building strategies in favor of 
humanitarian assistance to address looming conflict and food security 
crises.
    The RSS prepared an ``austerity'' budget for the remainder of the 
fiscal year (through June 2012) that reduced operating and capital 
expenditures and eliminated block grants to state and local governments 
but maintained existing levels of salaries and allowances. While that 
``austerity'' budget did little to reduce overall expenditures, a 
budget newly proposed by the Council of Ministers for the upcoming 
fiscal year would reduce expenses to only about U.S.$2.2 billion; 
however, the RSS has cash guarantees for only half of the budget and no 
plan yet for financing the remainder.
    In the absence of alternative financing or resumption of oil 
operations, estimates indicate that the RSS will spend down its 
remaining revenue and reserves by sometime between June and October. At 
that point, the RSS will have almost no money for salaries, operating 
and maintenance costs, and investment. Without public resources, basic 
health, education and other services will likely stop, as will RSS 
maintenance of infrastructure and roads.
    South Sudan loses an estimated $650 million in oil revenue each 
month its oil wells remain closed, whereas combined donor contributions 
constitute only about $550 million per year. Consequently, donors have 
advised RSS that their support will not be sufficient to supplement the 
fiscal gap between RSS resources and the anticipated needs. Moreover, 
donors will be unable to support the programs planned in Government's 
South Sudan Development Plan 2011-2013. The donors have also 
communicated to RSS their concerns that the ``austerity'' environment 
undermines the ability of South Sudan to build the institutions and 
capacity necessary for inclusive economic growth and sustainable 
development, and that RSS needs to develop an accelerated approach to 
resolve all outstanding CPA issues, the chief issue being that of oil 
production.
    USAID's current strategy for working in South Sudan was predicated 
on the assumption that the RSS would maintain uninterrupted revenue 
flows and continue as an engaged partner, responsible for significant 
contributions to basic service provision, procurement of essential 
medicines, maintenance of roads and operating systems. A basic 
challenge that USAID anticipates, even if the oil dispute is resolved 
in the near term, is pressure to respond to increasing humanitarian 
needs while still seeking to protect some of the state-building gains 
realized over the six years of implementation of the CPA. USAID expects 
that, if oil production is not restarted, humanitarian needs will 
increase as the RSS becomes unable to fund basic state services. 
Institution-building gains such as the automated systems introduced 
over the last couple of years that have improved tax collection, 
customs fees, and government budgeting may be jeopardized if funds are 
not available to pay salaries for individuals who have been trained to 
maintain them.
    USAID is conducting a detailed review of existing programming to 
respond to current priorities and needs in light of South Sudan's 
current economic and humanitarian crisis. We are closely monitoring the 
situation in coordination with our G6 partners (the United Kingdom, 
Norway, European Union, United Nations, and World Bank). We will notify 
the committee should conditions indicate that a shift in our basic 
approach to working in South Sudan becomes necessary.
                         horn of africa drought
    For more than 18 months, the Horn of Africa has been experiencing 
the worst drought the region has seen in 60 years. Tens of thousands of 
Somalis have lost their lives, including women and children. Thousands 
of others have walked for days seeking food and shelter, and more than 
730,000 Somalis are now displaced throughout Kenya, Ethiopia, and 
Djibouti. In FY 2011 and to date in FY 2012, the United States has 
provided more than $934 million in humanitarian assistance to the 
region, making it one of the largest donors to the humanitarian effort.

  <bullet> What is the status of the Horn of Africa drought? What 
        additional funds do you anticipate requesting for the effort, 
        and what is the current outlook for the Horn?

    Answer.
Current Status and Outlook
    As of early February 2012, famine conditions had abated in Somalia, 
and food security conditions had improved in Djibouti, Ethiopia, and 
Kenya due to the favorable October-to-December rains in 2011. The 
estimated number of people requiring humanitarian assistance in the 
region declined from a peak of approximately 13.3 million people during 
the second half of 2011 to an estimated 10.4 million as of February 
2012. However, the food security situation throughout the region, 
particularly in Somalia, remains extremely fragile and could 
deteriorate.
Need for Continued Humanitarian Assistance
    A continued large-scale response is critical in preventing a 
deterioration of humanitarian conditions or a reversal of recent food 
security gains throughout the Horn of Africa, particularly in Somalia. 
Evolving needs in the region will determine the precise levels of 
funding required from humanitarian donors. A number of factors will 
affect humanitarian needs in the Horn of Africa, including another 
anticipated season of below-normal rainfall combined with an incomplete 
recovery of household asset losses, harvest yields, security 
conditions, levels of humanitarian access, and local and regional food 
prices.
Commitment to Building Resilience in the Region
    USAID is committed to building greater resilience in the Horn of 
Africa more effectively by connecting humanitarian and development 
efforts. Through enhanced, joint humanitarian and development planning 
and implementation, USAID is building resilience amongst the most 
vulnerable populations in the Horn of Africa and mitigating the impact 
of future droughts. USAID is engaging regional actors and other donors 
to improve the link between humanitarian response, longer term 
development, and donors.
Anticipated Needs in the Region
    Despite recent improvements in food security, the outlook for the 
Horn of Africa remains uncertain. The current USAID and U.S. Geological 
Survey forecast indicates that the upcoming March-to-May rainy season 
is most likely to be 10 percent below average and poorly distributed in 
the eastern Horn of Africa. In the worst-case scenario, the upcoming 
rains could be between 50 and 70 percent of average rainfall levels. 
Below-average rains could negatively impact rain-dependent crops, as 
well as pasture and water availability. Given the impact of the 2011 
drought, USAID is actively preparing contingency plans to address the 
potential effects of below-average rainfall in 2012.
    USAID recognizes the urgency of improving resilience among families 
and communities vulnerable to chronic drought and food insecurity 
around the world, particularly in the Horn of Africa and the Sahel. 
USAID is working to help communities throughout the Horn of Africa 
recover from the recent drought and build resilience so that they can 
withstand future crises while reducing the need for emergency 
assistance. By investing in agricultural development in the region, 
USAID is helping communities become more food secure and prevent future 
food crises. In addition, by investing in livelihood diversification 
and asset-building activities, USAID can increase the resilience of 
vulnerable communities to withstand the impacts of future shocks.
FY 2013 Funding Requirements
    In 2011, the United Nations (U.N.) and affected country governments 
requested approximately $2.41 billion in assistance to respond to 
humanitarian needs in Ethiopia, Kenya, and Somalia. In 2012, the U.N. 
and affected country governments requested approximately $2.45 billion, 
excluding a forthcoming revised appeal for refugee needs in Ethiopia.
    In FY 2011, USAID provided nearly $544 million in humanitarian 
assistance to respond to needs in Djibouti, Ethiopia, Kenya, and 
Somalia. To date in FY 2012, USAID has provided more than $261 million 
in humanitarian assistance for the region. USG funding for the region 
totals more than $934 million for FY 2011 and FY 2012 to date.
    USAID continues to provide additional support to respond to 
assessed needs and evolving conditions. As USAID's humanitarian funding 
accounts are global and contingency-based, the FY 2013 request does not 
include country specific levels for the Horn of Africa. However, USAID 
projects that funding requirements in FY 2013 will be commensurate with 
FY 2012 levels, pending future assessments of humanitarian needs. The 
FY 2013 request includes a total of $960 million for International 
Disaster Assistance (IDA) for humanitarian needs worldwide and $1.4 
billion in Food for Peace Title II funds, including $390 million 
allocated for Title II development programs.
    Chronic drought cycles and persistent development and humanitarian 
needs will necessitate continued, robust assistance in the Horn of 
Africa in FY 2013. USAID plans to continue prioritizing life-saving 
initiatives to reduce mortality associated with food insecurity and 
prevent a return to famine conditions in Somalia, while supporting 
resilience and asset-building programs that will help mitigate the 
impacts of future crises in affected areas throughout the region.

    Question. FWD Campaign--I understand that for the first time USAID 
has partnered with the Ad Council to raise awareness of the serious 
plight of more than 10 million people who have been at risk from the 
drought on the Horn of Africa. What is the status of this effort, and 
how much funding has it raised from individual donors?

    Answer. The purpose of the campaign, which launched in September 
2011, was to inform, connect, and engage the American public with the 
crisis in the Horn of Africa. Despite the severity and size of the 
crisis nearly 60 percent of Americans knew nothing of the crisis, or 
were unaware of the situation.
    The text-to-give piece of the campaign, which USAID endorsed, was 
run by a consortium of NGOs. World Vision organized and managed the 
text campaign, distributing funds to the consortium of organizations. 
No funds went through USAID or the Ad Council.
    The campaign's tag line, ``Do More than Donate, FWD the Facts,'' 
highlighted the need to raise awareness of the situation. To date, the 
campaign has garnered more than 150 million FWD actions through 
Facebook, Twitter, e-mail, and YouTube.
    FWD campaign public service announcements (PSAs), which featured 
celebrities, professional athletes, and well-known personalities, have 
aired nearly 20,000 times, reaching an audience of more than 45 million 
people, and representing more than $1.1 million in donated advertising 
time.
    As a part of the FWD campaign, USAID partnered with several major 
corporations to raise awareness--including Google, Verizon, Facebook, 
MTV, Twitter, YouTube, Cargill, and General Mills. YouTube dedicated 
space to the FWD campaign on their homepage and worked with ``YouTube 
Celebrities'' to create additional FWD campaign PSAs (see youtube.com/
FWD). Cargill donated more than 5 million dollars' worth of rice to the 
World Food Programme to help feed people in the Horn of Africa.
                       administration initiatives
Feed the Future
    The administration is requesting $1.2 billion in FY13 for its 
agriculture programs, the majority of which, about $1 billion, will 
fund its food security program, Feed the Future. The Initiative has 
designated 19 countries as focus countries, which means that these 
countries have completed or are in the process of completing Country 
Investment Plans (CIPs) with the United States and are held to high 
standards in terms of transparency and the demonstration of country 
ownership of the goals of agricultural growth and improving nutrition.

    Question. Of the 19 focus countries in the program, how many now 
have completed Country Investment Plans (CIPs) with the United States?

    Answer. We know that sustainable development goals cannot be 
achieved by our efforts alone. Country-owned approaches and building 
local capacity are the foundation for countries to improve food 
security and promote transparency. Feed the Future partnered with 
selected countries and other stakeholders to assist host countries in 
developing and implementing their own multiyear Country Investment 
Plans (CIPs) for agricultural development, such as those under the 
Comprehensive Africa Agriculture Development Program (CAADP). These 
plans are based on transparent and inclusive consensus-building 
processes, including engagement of the private sector, civil society 
and other stakeholders, and take into account the interests of women 
and other disadvantaged groups. In addition, CIPs lay out priority 
areas, clear costing and projections of financial need, defined 
targets, and desired results.
    A review of the technical rigor of the CIP is conducted by a 
multistakeholder team comprised of technical experts, development 
partners, and other stakeholders from civil society and the private 
sector to identify gaps or weaknesses in the CIP and create a clearly 
defined action plan for addressing them. The focus country government 
must demonstrate broad consultation and coordination has occurred with 
key stakeholders around the development of the CIP and financial 
commitment to the CIP, including the creation of a policy reform agenda 
to improve environment conducive for investment essential for 
sustainability and success.
    To date, seventeen Feed the Future focus countries have technically 
sound and peer-reviewed CIPs: Bangladesh, Cambodia, Ethiopia, Ghana, 
Guatemala, Haiti, Honduras, Kenya, Liberia, Malawi, Mali, Nepal, 
Rwanda, Senegal, Tanzania, Tajikistan, and Uganda. Mozambique is 
coordinating the review process before adoption. Through Feed the 
Future support, Zambia signed the CAADP Compact in January 2011 and is 
finalizing its CIP before conducting a technical review.

    Question. Feed the Future was originally conceived as an initiative 
that placed focus countries in two different ``phases.'' Is this still 
the case? If so, which focus countries are in which phases, and how 
does the phase of a country's status affect how the USG works with 
these countries through the Feed the Future initiative?

    Answer. State and USAID are making deep investments in 19 countries 
through Feed the Future--representing 53 percent or $534 million of the 
total FY 2013 request of $1 billion. Focusing significant resources on 
a select set of countries will allow us to demonstrate that major 
progress is attainable to meet our food security goals. Modeling USAID 
Forward, Feed the Future invests in country-owned implementation plans 
that support results-based programs and partnerships, so that 
assistance is tailored to the needs of individual countries through 
consultative processes, and plans are developed and led by country 
governments.
    Phase II investment countries are selected based on recommendations 
that take into account assessments of a technically sound country 
investment plan and implementation strategy, coordination, and 
consultation with key stakeholders, and country commitment and 
capacity. The three criteria for elevation to Phase 2 status were 
detailed in the Feed the Future guide released to the public in May 
2010. To qualify, a country must have:

  <bullet> A technically sound country investment plan;
  <bullet> Completed coordination and consultation with key 
        stakeholders;
  <bullet> Commit to creating a conducive policy environment.

    In addition, Feed the Future uses additional public performance 
data such as democratic rights indicators as well as agriculture 
business and economic growth enabling environment indicators. These 
indicators ensure selection transparency and promote improved 
performance on macroindicators that will impact U.S. agriculture 
assistance. These indicators will ensure that the number of countries 
that meet these criteria matches budgetary realities and that these 
countries share the administration's commitment to democracy and 
governance.
    Within the $534 million FY 2013 request for 19 focus countries, 
$135 million, or 25 percent, is requested for Phase II countries. Ghana 
and Tanzania are the first countries to meet Phase II criteria, based 
on their sound Feed the Future strategy and country environment 
conducive to agriculture-led growth. Ghana is a strong performer and 
partner for the USG, with high-level commitment to agricultural 
development in the northern region of the country and to increasing 
private sector investment in agriculture. Ghana performs well on 
governance criteria, rated as ``free'' and ranked in the 3rd quartile 
worldwide for corruption. Tanzania is a showcase for public/private 
partnership in agricultural growth, exemplified by the development of 
its Southern Agricultural Growth Corridor; this strategic investment 
blueprint decided jointly with government, donors, and private sector 
is a model for other African countries. Tanzania also performs well on 
governance criteria--and ranked in the 2nd quartile for corruption. 
Currently, we are reviewing seven countries for Phase II investments 
based on their Feed the Future strategy, country environment, and 
performance under Phase I investment levels.
    As we accelerate implementation of Feed the Future over the coming 
year, we will continue to evaluate the application of the concept of 
two different phases.

    Question. How is the Feed the Future Initiative engaging U.S. 
farmers, as well as agricultural research institutions and land-grant 
universities, to expand capacity in the 19 countries participating in 
the Initiative.

    Answer. The FY 2013 budget requests $142.3 million in research and 
development to reduce long-term vulnerability to food insecurity and 
harness science and technology to help populations adapt to 
increasingly erratic production seasons. These efforts stand alongside 
the administration's ongoing commitment to humanitarian assistance that 
alleviates the immediate impacts of hunger and undernutrition. Economic 
studies on sources of agricultural growth have consistently found that 
investments in agricultural research, when effectively combined with 
links to public and private extension and commercial partnerships, have 
been a major driver of that growth. Scientific breakthroughs in 
agriculture achieved investment rates of return of 11 to 33 percent in 
Africa alone.
    Feed the Future partners with U.S. farmers through the Farmer-to-
Farmer Program, in which a wide range of U.S. universities, NGOs and 
cooperatives provide U.S. expertise. The Farmer-to-Farmer program links 
U.S. farmers to host individuals and organizations to build local 
institutions and linkages to resolve local problems. Programs build 
institutions and transfer technology and management expertise to link 
small farmers with markets that exploit comparative advantages in 
production, processing, and marketing in order to generate rapid, 
sustained, and broad-based economic growth in the agricultural sector. 
Farmer-to-Farmer works with FTF focus countries as well as other 
countries. USAID and the program implementers are exploring 
opportunities to increase Farmer-to-Farmer participation with mission 
investments in value chains, capacity-building, and market development.
    On the research side, USAID's Collaborative Research Support 
Programs (CRSPs) have undertaken a series of steps that enhance their 
relevance to FTF and the focus countries in particular. In a number of 
cases, CRSPs have wound down activities outside of the FTF focus 
regions, and redirected those resources toward programs that more 
directly mesh with other FTF investments. In addition, in association 
with the Board for International Food and Agricultural Development 
(BIFAD), we are supporting a strategic review on how to best support 
and engage the land-grant community in Feed the Future, via CRSP and 
similar mechanisms.
    USAID recognizes the unique global asset presented by the CRSPs and 
the land-grants more generally, and is exploring additional 
opportunities for engaging them. Capacity-building of the full range of 
agricultural innovation systems partners is a growing area of 
investment under Feed the Future, and U.S. land-grant institutions play 
an integral role. We have new land-grant-based programs in graduate 
student training, U.S. researcher involvement, extension and other key 
aspects of FTF. We are continuing to refine a capacity-building 
framework in support of USAID and USG investments in FTF that will 
increasingly draw on the expertise and program resources of land-grant 
universities.

    Question. How are you engaging the private sector, which is also a 
way to find efficiencies and cost savings?

    Answer. Feed the Future views the private sector as an equal 
partner in the development community and embraces its role in creating 
jobs, enabling economic growth, and bringing much-needed innovation and 
expertise to the countries and people that we aspire to serve. The 
private sector is particularly important in increasing the 
sustainability of U.S. assistance and fostering private sector-led 
growth in emerging markets, which is critical to reducing poverty, 
fighting hunger, and improving nutrition. In addition to the private 
sector, Feed the Future builds off the U.S.'s comparative advantage in 
advanced technologies through its emphasis on promoting innovation. 
This agenda goes beyond science and technology to include the use of 
innovative financial instruments such as indexed insurance and more 
inclusive agriculture financing, as well as a new application of 
existing technologies to increase food security.
    The FY 2013 President's budget request for Feed the Future includes 
$32 million to promote and leverage increased private sector investment 
in Feed the Future focus countries. Engagement of the private sector at 
all stages of this initiative, from the development of Agriculture 
Country Implementation Plans to program execution, is critical to the 
success and sustainability of our investments. FY 2013 funded programs 
will increase private sector investment in focus areas, mitigate 
private sector risks, access private sector innovation, improve the 
enabling environment for greater private sector investment, and 
facilitate the commercialization of new technologies that improve 
agricultural production. This funding will also be used to catalyze new 
private/public partnership models and promote innovative investment 
models.
    To leverage private sector investments and intellectual capital, we 
have:

  <bullet> Signed a Memorandum of Understanding with Walmart to 
        increase production of high quality vegetables and fruits for 
        the Central American regional markets by supporting new, small, 
        and medium independent growers and exploring linkages to 
        Walmart's national, regional, and global supply chains.
  <bullet> Helped establish the Southern Agricultural Growth Corridor 
        of Tanzania (SAGCOT), a public/private partnership that aims to 
        boost agricultural productivity in Tanzania and the wider 
        region. SAGCOT will promote ``clusters'' of profitable 
        agricultural farming and services businesses, with major 
        benefits for smallholder farmers and local communities.
  <bullet> Announced a unique, trilateral partnership between PepsiCo, 
        USAID, and the World Food Programme that will provide a 
        nutritionally fortified feeding product while helping to build 
        long-term economic stability for smallholder chickpea farmers 
        in Ethiopia by involving them directly in PepsiCo's product 
        supply chain.
  <bullet> Launched an alliance with the World Cocoa Foundation and the 
        Sustainable Trade Initiative (IDH) to invest in sustainable 
        cocoa programs in West Africa. The partnership includes private 
        sector participation from key chocolate-producing companies 
        including Cargill, The Hershey Company, Kraft Foods, Lindt & 
        Sprungli, Nestle, and Mars, among others.

    Question. As the Feed the Future Initiative enters its 4th year 
with your FY13 budget request, what is the status of the monitoring and 
evaluation (M&E) of the program?

    Answer. Feed the Future established a rigorous monitoring and 
evaluation (M&E) system that monitors performance and measures progress 
toward Feed the Future goals at the country, regional, and initiative 
level. Feed the Future M&E system development required that all USAID 
missions define the development hypotheses behind their strategies, 
develop a country-specific results framework that aligns with the FTF 
framework, clearly identify beneficiaries, undertake baseline studies, 
and establish targets for all indicators.
    Key M&E accomplishments are:

  <bullet> Design and public vetting of a comprehensive list of 
        indicators for Feed the 
        Future that will be used by all USG agencies who are supporting 
        Feed the Future activities.
  <bullet> Development of the Feed the Future Monitoring System, an 
        online performance monitoring system used by USAID, MCC, USDA, 
        Peace Corps, and the Department of Treasury to track Feed the 
        Future investments in the field.
  <bullet> Creation of the Feed the Future learning agenda, which 
        identifies the development questions based on our investments 
        that we will answer through impact evaluations, performance 
        evaluations, standard monitoring, and policy analysis.
  <bullet> Development of a tool--The Women's Empowerment in 
        Agriculture Index--to measure changes in women's empowerment in 
        the agriculture sector. The concept of Women's Empowerment in 
        Agriculture is broad and multidimensional and measures change 
        in the following: decisions over agricultural production; 
        access to and decisionmaking power over productive resources; 
        control over use of income; leadership roles within the 
        community; and time use.

    Question. Have you found areas of both strength and weakness in the 
program through your M&E framework? If so, what are you doing to 
bolster, and perhaps scale, successful components, as well as address 
and reevaluate weaker components?

    Answer. The FY 2013 budget requests $15 million for a fully 
resourced monitoring and evaluation (M&E) system that will continue to 
monitor performance and measure progress toward Feed the Future goals 
at the country, regional, and initiative level. Feed the Future is 
committed to rigorous monitoring and evaluation of our investments in 
order to facilitate strategic planning, performance-based management, 
and monitoring and evaluating results. In the last 2 years, we 
developed a comprehensive M&E framework, which involved extensive 
review and analysis among all the various Feed the Future stakeholders. 
The M&E framework has evolved substantially based on feedback received. 
For example, based on the feedback, we are expanding the scope to 
better incorporate resilience measures undertaken by Feed the Future 
and Food for Peace. In addition, to address concerns in the ability to 
measure the impact of our investments on women, Feed the Future 
incorporated into its M&E system the Women's Empowerment in Agriculture 
Index, which measures progress in gender integration. The concept of 
Women's Empowerment or Inclusion in Agriculture is broad and 
multidimensional and measures change in the following: decisions over 
agricultural production; access to and decisionmaking power over 
productive resources; control over use of income; and time use.
    Feed the Future is improving the quality and rigor of program 
evaluation of food security programs at the local level. We are also 
promoting the use of impact evaluations to more effectively assess the 
results and long-term sustainability of our Feed the Future 
investments. Currently, monitoring systems are tracking near-term 
performance of our new programs in the field. Several more years of 
performance data will be needed before we can draw definitive 
conclusion with respect to the design and implementation of our 
programs. As time goes on, we will be able to pull more from this 
robust M&E system to contribute to the more effective program design 
and implementation of future food security activities.

    Question. What progress is being made through the Feed the Future 
Strategic Partnerships with Brazil, India, and South Africa?

    Answer. The FY 2013 President's budget requests $7 million for 
strategic partnerships in Brazil, India, and South Africa to leverage 
the expertise, resources, and leadership of these countries for the 
benefit of focus countries. These countries were selected because of 
their influence on neighboring focus countries, their role as a 
regional anchor for food security, and/or their potential to contribute 
to the development of focus countries outside their region.
    Through strategic partnerships, we seek to foster trilateral 
cooperation in the following areas:
  <bullet> Joint research and dissemination of technical assistance 
        related to agriculture, nutrition, and poverty reduction that 
        builds on the technical expertise in strategic partner 
        countries.
  <bullet> Promotion of regional or bilateral economic reforms based on 
        the strategic partner's participation in regional economic 
        organizations or trade relationships.
  <bullet> Development of a strategic partner's role as a regional 
        anchor through projects and policies that increase its 
        stabilizing influence on focus countries.
  <bullet> Political leadership to advance action in the focus 
        countries.
  <bullet> Mobilization of the private sector to participate in 
        private/public partnerships and to invest in focus countries.

    In India, Feed the Future partnered with the Government of India 
trilateral activity that would train Africans from Kenya, Liberia, and 
Malawi on agribusiness and management at agricultural training 
institutes that are part of the Ministry of Agriculture. The Ministry 
of Agriculture requested proposals from three training institutes and 
has received two proposals so far from the National Institute of 
Agricultural Extension Management and the National Institute of 
Agricultural Marketing. Training should begin in the next couple of 
months.
    In South Africa, the government is taking a leadership role to 
provide technical assistance to SADC-level priority activities such as 
regional seeds harmonization by providing training to seed 
certification agents; the Free Trade Area that will increase 
intraregional trade; and formation of the Sub-Regional Research 
Organization--the Centre for the Coordination of Agriculture Research 
and Development for Southern Africa (CCARDESA) that will coordinate 
agriculture research, innovation, and development in the region. In 
2011, the South African Government signed 19 Bilateral Assistance 
Agreements with countries in the region to assist them to develop their 
agriculture sectors and to address food security issues according to 
their needs.
    With Brazil, we have developed a successful strategic cooperation 
partnership in Mozambique where USAID and the Brazilian Cooperation 
Agency have jointly designed activities in collaboration with the 
Government of Mozambique. This allows the Mozambique Ministry of 
Agriculture to help farmers increase the productivity of their 
horticulture crops, as well as to improve post-harvest packing, 
storage, and processing of the produce. For example, a vegetable 
processing and distribution center will be built in the area of the 
Farmers Association of Maguiguane, which will benefit 480 farmers. In 
addition, the techniques, models, and knowledge from this processing 
and distribution center will also be transferred to Mozambique's 
national agricultural research institute.

    Question. How are the regional programs coordinated with programs 
within the focus countries to ensure that no duplication occurs?

    Answer. One of the key principles of FTF is to support country-led 
agriculture and food security efforts, including the development of 
country-owned food security strategies and investment plans that govern 
the programming of USAID resources within a country. In addition, 
regional Feed the Future investments are guided by regional multiyear 
strategies, also developed in close consultation with bilateral 
missions, and reviewed by USAID's Bureau for Food Security and 
interagency partners before approval. Our regional programs for food 
security focus principally on harmonizing standards and regulations to 
facilitate increased cross-border and regional trade of various 
products and increase private sector investment opportunities. USG 
investments at both the national and regional level are coordinated 
through this approach to increase the impact of our investments.
    More broadly, in sub-Saharan Africa, the Comprehensive Africa 
Agriculture Development Program (CAADP), a continentwide, African 
Union-led commitment to agriculture that is changing the way 
governments, donors, private sector and other stakeholders invest in 
agriculture and food security, plays an important role in coordinating 
investments across donors at the national and regional levels. At least 
22 CAADP compacts and 18 CAADP Country Investment Plans have been 
developed in Africa. These compacts and investment plans define 
evidence-based agricultural and food security roadmaps for achieving 
the Millennium Development Goal of halving poverty and hunger, and 
provide country-specific frameworks for all new and ongoing investment 
in agriculture and food security, including bilateral and multilateral 
assistance. The USG, other bilateral donors, international 
organizations like the Food and Agriculture Organization, the 
International Fund for Agriculture Development, and the World Bank 
(including the Global Agriculture and Food Security Program) are deeply 
committed to coordinating and aligning their investments in support of 
these compacts and investment plans, and this is accomplished through 
development partner working groups at both the country and regional 
level, and the CAADP Donor Partners working group at a headquarters 
level. Similar national strategies are also in design or in place in 
Asia and Latin America to ensure efficiency and greatest impact at the 
country and regional level.

    Question. Have you received feedback on Feed the Future, positive 
and/or negative, from focus countries, NGOs, universities, the private 
sector and other non-USG entities involved with the implementation of 
Feed the Future? How is USAID incorporating this feedback into the 
evaluation and implementation of Feed the Future?

    Answer. Since the start of the Feed the Future Initiative, non-USG 
entities have played a major role in the design and success of the 
initiative. Based on extensive consultation and outreach with NGOs, 
foundations, and the private sector, we took the following steps in 
Feed the Future:

  <bullet> Highlighted the importance of gender equality in addition to 
        the need for expanded opportunities for women and girls;
  <bullet> Deepened the discussion of environmentally sustainable and 
        climate-resilient agricultural development;
  <bullet> Elaborated on nutrition programming and key links between 
        nutrition and agricultural-led growth. These efforts are 
        aligned with GHI principles and often targeted in the same 
        geographic zones to maximize impact;
  <bullet> Expanded on the importance of financial inclusion (e.g., 
        microcredit), especially for women and the very poor; and
  <bullet> Incorporated water issues, including water resources 
        management, as an important component of our approach.

    Civil society and community groups have an important role to play 
in advocating for grassroots solutions to complex food insecurity 
issues. For this reason we are encouraging USAID missions and embassies 
to work directly with civil society to identify constraints to their 
broader participation--or recognition--in country-led food security 
efforts. We are including local civil society institutions in our 
capacity-building efforts, and, in Africa, we have pledged to work with 
the CAADP ``Non-State Actor'' working group in 10 countries to 
implement the AU-NEPAD guidelines for civil society consultation and 
engagement. We are also consulting with our own nongovernmental 
partners to determine whether there are specific opportunities for 
partnership in countries where agriculture may have a potential to 
create or increase ``space'' for civil society on issues like the legal 
enabling environment and policy advocacy.
    We have also heard from several NGOs on the lack of civil society 
engagement in the implementation of Feed the Future. As a result, we 
have actively sought out input from the NGO community on all aspects of 
the Feed the Future initiative. In 2011, Feed the Future held seven 
Civil Society Outreach Meetings. These in-person and online 
consultations, which solicited feedback from civil society members on 
various aspects of the initiative, had 1,241 participants over the 
course of the series. Feed the Future indicators were also publicly 
vetted before final adoption. Because of the outreach done through the 
CSO meetings and the vetting of the indicators, in June of 2011 a 
number of NGOs wrote a thank-you note to Administrator Shah to express 
their appreciation. Finally, Feed the Future is expanding its use of 
social media, creating a new interface for civil society to interact 
with initiative programs and thought leaders. Moving forward, we 
continue to partner and consult with NGOs, the private sector, and 
other non-USG entities to ensure a sustainable, long-lasting solution 
to food security.
    In collaboration with Association of Public Land Grant Universities 
and the Board of International Food and Agriculture Development, USAID 
and USDA jointly developed the Feed the Future global Hunger and Food 
Security Research Strategy. Feed the Future conducted a series of 
consultations to engage the research community to provide feedback on 
the prioritization of the research agenda and on its implementation. We 
received valuable feedback and input from the U.S. academic community, 
developing country research partners, international agricultural 
research institution scientists, the private sector, and NGOs. These 
consultative activities included a workshop at Purdue University in 
January, 2011, an e-consultation in May that received input from around 
the world, and a research forum in Washington, DC, focused on 
implementation of the research strategy. As a result, research 
activities are anchored geographically by four major production 
systems: the Indo-gangetic plains of South Asia, the Sudano-Sahelien 
zone in West Africa, the Maize-mixed systems in Eastern and Southern 
Africa, and the Ethiopian Highlands.

    Question. Feed the Future also delegates funds to ``aligned 
agricultural programs'' in other countries that, to my knowledge, are 
not considered ``focus'' countries. In some cases, this funding 
actually exceeds funding to focus countries. What is the purpose of 
these aligned agricultural programs?

    Answer. The FY 2013 request includes $100 million for agriculture 
programs in these countries that continue to support other important 
foreign policy or development goals such as stabilization and economic 
growth. This represents a reduction of $54 million (35 percent) from 
the FY 2011 enacted level. The purpose of this reduction is to 
concentrate FTF resources in priority countries and programs. Since FY 
2010, Feed the Future has reduced the number of countries receiving 
agriculture assistance by 38 percent from 56 countries to 35 countries. 
Many of these programs had small agriculture assistance programs 
between $125,000 to $1 million that were having little impact in 
addressing global hunger and food security.
    In addition, while the United States is committed to the vital 
issue of food security, it has a longstanding commitment to providing 
agricultural assistance to some of the world's most vulnerable people. 
Our efforts will be determined by the level of need and by evidence 
that the investments being made are having an impact.

    Question. Are CIPs being negotiated with these other countries, or 
is there some other mechanism to ensure that our priorities are aligned 
and that these countries have similar commitments to agricultural 
development and transparency?

    Answer. Funding for Feed the Future aligned resource countries 
represents 10 percent--$100 million--of the total FY 2013 budget 
request. The FY 2013 budget requests funding for 13 aligned agriculture 
programs, a reduction from 23 countries in FY 2011. In these countries, 
agricultural development remains critical to achieving core U.S. 
development and foreign policy goals, including combating extremism, 
achieving political and economic stability, reducing sources of 
conflict, reducing poverty, and accelerating and sustaining broad-based 
economic growth. Nevertheless, programs in aligned countries will be 
assessed and guided by the same key principles governing Feed the 
Future, including accountability.
    One of the key principles of Feed the Future is to support country-
led agriculture and food security efforts, including the development of 
country-owned food security strategies and investment plans. In sub-
Saharan Africa, this support is provided within the framework of the 
Comprehensive Africa Agriculture Development Program (CAADP), a 
continentwide, African Union-led commitment to agriculture that is 
changing the way governments, donors, private sector and other 
stakeholders invest in agriculture and food security. At least 22 CAADP 
compacts and 18 CAADP Country Investment Plans in Feed the Future focus 
and aligned resource countries have been developed in Africa. Of the 
four African aligned resource countries, Nigeria has a CIP, while the 
Democratic Republic of Congo is developing one. In Latin America and 
Asia, the strength of agricultural institutions and the private sector 
provides a foundation to achieve these same aims.
    In addition, in each FTF aligned country, Feed the Future is part 
of each U.S. Mission's Country Development Cooperation Strategy (CDCS), 
which defines development objectives and maximizes the impact of 
development cooperation in-country. Missions work closely with host 
country governments and citizens, civil society organizations, the 
private sector, multilateral organizations, other donors, the State 
Department, and other USG agencies to develop a CDCS that is results-
oriented, and demonstrates partnership with host countries to focus 
investment in key areas.

    Question. What is the reason why these countries are receiving 
funds through the Feed the Future initiative as opposed to Food for 
Peace Title II development (nonemergency) assistance, and what 
coordination is there between the Bureau for Food Security and the Food 
for Peace office to ensure that there is no duplication in programs?

    Answer. In general, Title II development food assistance programs 
are community-based programs targeted to very poor or ``ultra-poor'' 
households--``the poorest of the poor.'' Many of these households 
depend on agriculture for livelihoods--either from farming their own 
land or working on someone else's land, but despite this they are 
unable to meet their family's basic food and nonfood needs for 12 
months of the year. Productivity constraints--poor or limited land 
holdings and labor constraints in some cases, lack of infrastructure 
and/or access to markets and inputs in other cases--make it very 
difficult for these communities and households to break out of poverty. 
Title II development programs work at a local level to address these 
constraints--aiming to provide a ``hand-up'' toward increased food 
security. Title II development programs have a proven success record in 
many underserved communities around the world.
    Feed the Future (FTF) programs are more value-chain oriented--
aiming to address constraints to agricultural productivity both within 
targeted geographic areas and, in terms of policy, at a national level. 
For example, if lack of access to fertilizer and improved seed is a 
significant constraint to productivity, FTF programming will work with 
the private sector and government to identify the roadblocks and 
develop a solution. These could include creating a regulatory framework 
to allow for greater private sector participation in seeds markets, or 
developing a network of agrodealers that can provide improved seed and 
fertilizer to farmer groups. Post-harvest loss is another good example. 
While Title II development programs often work at the household level 
to reduce post-harvest loss and improve food safety through better 
drying and storage technologies, FTF programming targets the next level 
up--working with the private sector and farmer groups to develop a 
warehouse receipts program capable of serving thousands of communities, 
so that we can have impact in reducing poverty at a significant scale.
    There is inherent complementarity in these programs--with Title II 
development programs providing a ``hand-up'' to acutely vulnerable 
populations and FTF helping communities at scale participate in 
commercial agriculture to ``move out'' of poverty. The staff of the 
Bureau for Food Security and the Food for Peace Office are working to 
ensure the complementarity of their respective programs.

    Question. The Feed the Future initiative is frequently 
characterized as a ``whole-of-government'' approach. What other U.S. 
Government agencies are involved in the Feed the Future initiative? How 
is their participation funded and coordinated? What successes has the 
whole-of-government approach had in implementing the Feed the Future 
Initiative?

    Answer. Feed the Future is aimed at promoting a comprehensive 
approach to food security by accelerating economic growth and raising 
incomes through greater agricultural productivity, increasing incomes 
and market access for the rural poor and smallholders, and enhancing 
nutrition. Through December 2011, the USG has contributed $2.68 billion 
toward increasing food security. This includes $166 million to the 
Global Agriculture and Food Security Program and $968 million from the 
Millennium Challenge Corporation (MCC), and $55 million on 
collaborative work between USAID and USDA. Our efforts are complemented 
by country-owned strategies and coordinated with those of other donors 
and stakeholders, including the interagency. Taking a whole-of-
government approach to implementation of Feed the Future ensures that 
we are able to effectively leverage the relevant capacities of 
different departments and agencies. Thus, the USG has drawn on the 
expertise and experience of a number of federal agencies since the 
beginning, including Departments of State, Agriculture, and Commerce, 
the MCC, the Office of the U.S. Trade Representative, the Overseas 
Private Investment Corporation, Peace Corps and the U.S. African 
Development Foundation.
    To coordinate Feed the Future implementation, USAID established the 
Bureau for Food Security (BFS). BFS facilitated interagency strategic 
reviews of all 22 Feed the Future focus country implementation 
strategies. Representatives from various USG departments and agencies 
discussed and provided feedback to USG country team presentations 
before final strategy submission. As a result of this USG whole-of-
government approach, Feed the Future investments in-country are 
focused, leveraging USG resources to create the greatest impact.
    For example, USAID is working with USDA to implement a 3-year 
program aimed at mitigating the threat of wheat stem rust, particularly 
a virulent variety called Ug99, to wheat crop production areas in 
developing countries. This is part of an overall research and 
development effort that continues the global effort to develop new 
rust-resistant varieties and supports efforts to introduce new, 
disease-resistant wheat varieties. This program addresses an urgent 
threat, since failure to curb the incidence of virulent wheat diseases 
would have severe adverse impacts in developing countries that rely 
heavily on wheat for food security.
    In Mozambique, U.S. Government programs support a transition from a 
reliance on food assistance to a reliance on more market-driven and 
science-based agricultural production and economic growth. This new 
coordinated value chain approach in Mozambique is increasing production 
yields and quality, linking producers to markets, and building the 
capacity of institutions to meet the international food safety 
standards required by increasingly sophisticated markets.
    A poultry industry initiative implemented under Food for Progress 
in the northern part of Mozambique, jointly funded by USAID and the 
USDA, was aimed at establishing new institutions and strengthening 
existing ones, as well as implementing policies and regulations that 
would expand the agricultural sector and make it economically 
sustainable. The implementing partner, TechnoServe, worked with local 
industry and with the Government of Mozambique to create a formal 
poultry association, establish standards for inputs and poultry 
production and processing, provide technical assistance to producers, 
improve access to microfinance, and teach business development and 
management services. Cargill and the University of Minnesota also 
provided technical assistance in livestock management and food safety. 
As a result of these activities, producers increased their annual 
incomes by $2,000 per year, and industry created over 3,500 jobs. In 
addition, a Wisconsin-based investor group, with TechnoServe's 
facilitation, established a soybean farm to supply the feed industry. 
The farm is cultivating 500 hectares and will scale up to 10,000 
hectares, with consideration being given to adding maize production as 
well.

    Question. In your FY 2013 budget request for the Feed the Future 
Initiative, you request $120.3 million for research and development, 
$300,000 of which would go toward the Board for International Food and 
Agricultural Development (BIFAD). How will the $120 million be spent on 
research and development?

    Answer. The FY 2013 budget requests $142.3 million for research and 
development, $400,000 of which would go toward BIFAD. Economic studies 
on sources of agricultural growth have consistently found that 
investments in agricultural research when effectively combined with 
links to public and private extension and commercial partnerships have 
been a major driver of that growth. Research investments, customized to 
respond to regional and country-specific priorities, will generate a 
continuous flow of new technologies that lead to higher levels of 
output from existing levels of resource utilization.
    The FY 2013 budget request will fund research predominantly in four 
production systems where agricultural development has the potential to 
address high rates of poverty and undernutrition: the South Asian Indo-
gangetic plains, the East and Southern Africa Maize-mixed systems, the 
West African Sudano-Sahelien system, and the Ethiopian Highlands. Our 
investments range from longer term research to address major global 
challenges to applied and adaptive research guided by host-country 
priorities for nearer term impact.
    Based on the 2011 Feed the Future Research Strategy, our programs' 
focus will be on:

  <bullet> Addressing animal and plant diseases: We are applying 
        advanced technology solutions to address animal and plant 
        diseases that constrain production of nutritious staple foods. 
        Investments will help to protect the 26 million cattle at risk 
        from East Coast Fever in Africa, improve productivity of small 
        ruminants, and avert catastrophic yield losses in 
        underresearched crops including cassava, potato, and bananas. 
        U.S. scientific leadership in biotechnology will be invaluable 
        to addressing these constraints.
  <bullet> Improving legume productivity: We are investing in research 
        to improve pest 
        resistance and heat and drought tolerance in legumes, which are 
        essential to increasing system productivity and ensuring 
        household nutrition and women's incomes. Feed the Future is 
        supporting research programs led by U.S. universities, the 
        CGIAR, national agricultural research systems, and USDA to 
        increase legume yields, which have lagged behind progress made 
        in other crops due to underinvestment.
  <bullet> Developing high-yielding, climate-resilient cereals: 
        Investments will focus on research on climate-resilient crops 
        and livestock, including drought and heat tolerance in cereals, 
        grain legumes, and other crops. These activities will increase 
        access to existing technologies, which can help increase the 
        resilience of smallholder farmers and herders when faced with 
        drought, for example, by using conservation agriculture and 
        holistic rangeland management. Funding will also support 
        efforts that anticipate the increasing impact of climate 
        change, such as the development of heat and drought-tolerant 
        maize.

    Question. Is the United States on track to provide its commitment 
of $3.5 billion for Feed the Future pledged at L'Aquila in 2009? Other 
donors (G8 and G20 countries) pledged an additional $18 billion to the 
L'Aquila global food security initiative. Are these other donors 
meeting their commitments to the L'Aquila food security initiative? Do 
the United States and other donors share the same goals and agree on 
the same approaches to accelerating agricultural growth and enhancing 
the nutritional status of women and children in poor countries? How are 
U.S. and other donor activities coordinated at the country level, 
including through GAFSP?

    Answer. At the 2009 G8 summit in L'Aquila, Italy, the G8 and over 
40 other countries and international organizations signed the L'Aquila 
Joint Statement on Global Food Security, thereby launching the L'Aquila 
Food Security Initiative (AFSI). Under this initiative, signatories 
pledged to mobilize over $22 billion over 3 years and agreed to take a 
comprehensive approach to ensuring food security, coordinate 
effectively, support country-owned processes and plans, engage 
multilateral institutions in advancing efforts to promote food security 
worldwide, and deliver on sustained and accountable commitments. At the 
Rome summit on World Food Security later in 2009, all 193 members of 
the U.N. system endorsed the five principles enshrined in the L'Aquila 
Joint Statement on Global Food Security as the ``Rome Principles.''
    In L'Aquila, President Obama pledged that the United States would 
commit at least $3.5 billion to agriculture development and food 
security over 3 years, and that it would implement its food security 
programs in accordance with the Rome Principles. The President's pledge 
led to the creation of the U.S. Government's global hunger and food 
security initiative, Feed the Future (FTF), launched in early 2010.
    Through March 2012, the United States has committed $2.706 billion 
against its AFSI pledge. As FY 2012 funds are obligated, subject to 
congressional notification, we fully expect to show, by the end of 
fiscal year 2012, that the United States will have met the President's 
commitment of at least $3.5 billion toward global food security.
    G8 and other countries that committed funding under the L'Aquila 
Food Security Initiative include: Australia ($360 million), Canada 
($1.037 billion), the European Commission ($3.8 billion), France 
($2.161 billion), Germany ($3 billion), Italy ($428 million), Japan ($3 
billion), the Netherlands ($2 billion), Russia ($330 million), Spain 
($696 million), Sweden ($522 million), and the United Kingdom ($1.718 
billion). Countries' progress toward meeting their commitments will be 
outlined in the G8 Accountability Report, to be published in 
conjunction with the G8 summit in May, which will show that the AFSI 
donors have met almost 100 percent of their financial commitments (but 
have not yet disbursed all of those funds).
    The FY 2013 FTF request of $1.2 billion includes a $1 billion 
request for agriculture and rural development, $90 million for 
nutrition and $134 million requested through the Department of Treasury 
for the Global Agriculture and Food Security Program and will fund the 
4th year of this Presidential Initiative. The request continues to 
address the root causes of hunger by helping countries increase 
agricultural-led growth by raising agricultural productivity, improving 
access to markets, increasing the incomes of the poor, and reducing 
undernutrition--especially of women and children--through sustained, 
long-term development programs. In priority countries or ``focus 
countries,'' it is accelerating progress toward the Millennium 
Development Goal of halving the number of people living in extreme 
poverty and suffering from hunger and undernutrition.
    Feed the Future programs also focus on reducing long-term 
vulnerability to food insecurity, especially in the Horn of Africa and 
the Sahel, and harness science and technology to help populations adapt 
to increasingly erratic production seasons. These efforts stand 
alongside the administration's ongoing commitment to humanitarian 
assistance that alleviates the immediate impacts of hunger and 
undernutrition.
    Global support for the Rome Principles, which underpin the United 
States own strategy for Feed the Future, provides a foundation for 
donor engagement and coordination in partner countries. We have worked 
in concert with host governments and other donors active in the 
agriculture sector in FTF focus countries to finalize the development 
of sound national agricultural investment plans against which donors 
and others can align commitments.
    Canada exercised strong leadership as chair of AFSI in 2010, 
leading donors toward defining the terms of their L'Aquila pledges. The 
2010 G8 Muskoka Accountability Report tracked G8 members' progress 
toward fulfilling their L'Aquila and other development-related pledges. 
In 2011, under the chairmanship of France, AFSI donors reported 
progress toward meeting their pledges in terms of funds committed and 
funds disbursed, which were published in the 2011 Deauville 
Accountability Report.
    As AFSI chair in 2012, the United States is leading AFSI 
participants to deepen accountability and transparency to their 
L'Aquila pledges. Following the leadership of the United States, AFSI 
donors have agreed to provide country-level information on their food 
security investments, in addition to information on funds committed and 
disbursed. This country-level information will include the partner 
countries in which AFSI donors invest, the amount of funds invested 
there, the programs implemented, the results expected and those 
achieved to date, and AFSI donors' fulfillment of the AFSI (and Rome) 
Principles. The 2012 G8 Accountability Report will include this 
information, in addition to a scorecard by which donors assess their 
progress toward fulfilling their AFSI commitments.
    The Global Agriculture and Food Security Program (GAFSP) is a 
multilateral trust fund created to assist in the implementation of 
pledges made by the G8 and other donors at L'Aquila and was set up in 
response to a request from the G20 in Pittsburgh in September 2009. 
GAFSP supplements funding to country and regional agriculture and food 
security investment plans, in consultation with partner countries, 
donors and other stakeholders. Among AFSI donors, the United States, 
Canada, Australia, Netherlands, and Spain contribute funds to GAFSP.
    Feed the Future is an example of how the United States has provided 
leadership in the fight against hunger and poverty. The President's 
pledge at L'Aquila catalyzed commitments from other donors and 
institutions in support of food security. Our global leadership on this 
issue brought other donors to the table in support of country-led 
processes for developing and implementing food security investment 
plans. In 2012, the United States is leading AFSI participants toward 
greater accountability and transparency in fulfillment of our 
individual and collective L'Aquila pledges.

    Question. Both the Global Climate Change Initiative and the Feed 
the Future Initiative focus on the importance of climate-resilient 
crops in achieving their respective goals. What coordination is 
occurring between the two initiatives to ensure that no duplication is 
occurring?

    Answer. Climate change is inextricably linked to food security 
because of its wide-reaching impact on agriculture and landscapes. 
Studies carried out by USAID's Famine Early Warning System Network 
(FEWS NET) have found that total rainfall in east Africa has never been 
lower than over the last 5 years. Since 1980, total rainfall during 
east and southern Africa's long rainy seasons has declined an estimated 
15 percent.
    Ethiopia, one of the most food insecure countries in the world, 
sits in the cross-hairs of these climate change patterns, and is 
endeavoring to cope with the multiple threats to food security, access 
to water, and even certain livelihoods. The productivity--and soon, 
even the basic viability--of its long-cycle crops is at risk. These 
crops, which provide up to 85 percent of the food grown in Ethiopia, 
are planted in the same April-May period that has seen 15-percent 
declines in rainfall. The interaction between drought and declining 
agricultural capacity could be explosive, dangerous, and costly. Under 
the most likely scenarios, cereal production in Ethiopia--and, indeed, 
much of east Africa--may drop 30 percent by 2030. During that period, 
food aid to the region would have to triple to make up for the 
shortfall.
    Under the Feed the Future initiative, USAID will invest in specific 
adaptive strategies which complement the activities undertaken under 
the global climate change initiative, such as sustainable 
agroecological methods and research into drought-resistant seeds. Of 
the $142 million in agriculture research and development requested in 
the FY 13 budget for Feed the Future, $85 million will be spent in sub-
Saharan Africa to increase productivity through breeding and genetics 
research for major food crops such as maize, sorghum, and rice, and to 
integrate adaptive technologies and practices in the production of 
various crops. There is also the potential for significant mitigation 
of carbon emissions from agricultural lands through agroforestry and 
the adoption of perennial crops, which sequester carbon and reduce 
other agricultural-based emissions.
    Farmers across the Sahel have had to adapt to climatic variability 
for decades, and they have been a model for USAID as we develop and 
scale up adaptation techniques. Over the last 25 years, as land 
pressure and variability increased, Sahelian farmers adapted by turning 
to natural forest management. Trees are less susceptible to rainfall 
fluctuations, and tree products such as fruits, gums, and wood can find 
ready domestic and export markets. Niger's farmers are managing nearly 
5 million hectares of farm forests, which were simultaneously yielding 
tree products and improving soil productivity. During the aftermath of 
Niger's 2005 drought and food crisis, one study found that villages 
that had established farm forests suffered no increase in child 
mortality, and while unable to produce grains, these villages were 
still able to sell tree products to purchase food. By adapting to their 
changing environment, Niger's tree farmers found a way to survive 
through a drought crisis--which, in the coming years, may unfortunately 
become less of an anomaly and more of a regular cycle.
    However, integrating adaptive strategies of this type into food 
security programs on the ground will only get us so far. Two elements 
of the adaptation program under the global climate change initiative 
(GCCI) will both improve and reinforce the 
on-the-ground field work that we are already doing through the Feed the 
Future initiative:

  <bullet> Improving access to science and analysis for decisionmaking: 
        Information and tools help nations and communities estimate the 
        probability of different kinds of climate effects and project 
        their likely impacts, assess the relative costs and benefits of 
        different interventions, and find ways of encouraging adoption 
        of the most cost-effective innovations. USAID invests through 
        the Global Climate Change Initiative in scientific capacity, 
        improved access to climate information and predictions, and 
        evidence-based analysis to identify vulnerable sectors, 
        populations, and regions and to evaluate the costs and benefits 
        of potential adaptation strategies. These investments will 
        result in better-informed choices among decisionmakers and 
        increase the probability of success in reducing vulnerability 
        to climate change.
  <bullet> Improving governance systems around adaptation to climate 
        change: Through the Global Climate Change Initiative, USAID is 
        supporting efforts to integrate climate information and 
        analysis into inclusive, transparent decisionmaking processes, 
        effective governmental coordination that is responsive to the 
        needs of local constituents, improved public communication and 
        education, and strengthened community, civil society, and 
        private sector engagement. We will support processes that 
        include a broad range of host-country stakeholders, including 
        women, vulnerable populations, and indigenous and other ethnic 
        minorities.

    These additional activities complement and support the on-the-
ground work already being integrated into the Feed the Future 
Initiative through multiyear strategies.
    The Bureau of Food Security has core country teams working on Feed 
the Future activities and draws on climate-change expertise from 
USAID's EGAT and AFR Bureaus. Within FTF, we have also integrated 
indicators related to natural resources management and climate 
resilience into our monitoring and evaluation system so that we can 
track the effectiveness of our programs. In addition, many of the USAID 
staff working on these two issues are located in the same field offices 
and work together to build sustainable economic growth.
    Both initiatives provide important components to addressing climate 
change stresses on food security. Especially in the Africa region, 
these programs are being designed in partnership in order to enhance 
complementarities and to build stronger capacity among our partner 
countries to address these critical issues.

    Question. With regard to the Global Health Initiative, how are you 
setting priorities between disease treatment and infrastructure 
strengthening?

    Answer. Through the Global Health Initiative (GHI), U.S. Government 
assistance is tailored to the needs of developing countries to ensure 
that investments are coordinated and in alignment with country 
priorities, as reflected in their national health plans. These plans 
are at the core of countries' efforts to mobilize resources and 
coordinate with partners for sustainable improvements in health.
    Achieving sustainable health outcomes requires a deliberate effort 
to strengthen country health systems and transition to country-owned 
health delivery platforms, overcoming barriers that constrain the 
delivery of effective health interventions, including disease 
treatment. Measures to strengthen health systems and assess their 
efficiency and effectiveness have been developed with partner countries 
and donors and build upon existing health programs to strengthen 
country health systems and country delivery platforms.
    Ultimately, a functioning health system requires that a trained 
health worker be in the right place, and with the right skills, 
sufficient motivation and compensation, and the essential equipment and 
medical supplies necessary to deliver the services people need.

    Question. In what ways are policies moving to country ownership as 
opposed to being donor driven, especially in a resource constrained 
environment?

    Answer. The U.S. Government strives to maximize the impact of each 
dollar it spends on foreign assistance. Developing the capacity of 
local governments, civil societies and private sector organizations in 
the countries in which we work is a primary objective of U.S. foreign 
assistance, as well as a means by which other U.S. foreign assistance 
objectives are achieved. While effective assistance has long been a 
goal of the U.S. Government, this imperative is even greater in the 
context of the constrained resource environment. In order to deliver 
assistance more effectively than ever before, achieving greater impact 
in a more sustainable manner and at a lower cost, we are ensuring that 
the principles laid out in the Presidential Policy Directive on Global 
Development, the Quadrennial Diplomacy and Development Review, the 
USAID Policy Framework 2011-2015, USAID Forward, and the Feed the 
Future and Global Health Initiatives are incorporated throughout our 
work. The President's Malaria Initiative is an excellent example where 
the strengthening of country national malaria control programs is a 
major focus.
    These principles include placing greater emphasis on building 
sustainable capacity among our developing country partners at the 
national and community levels to provide basic services over the long 
term. The United States is committed to aligning U.S. Government 
investments with partner country plans and strategies, primarily 
through technical assistance, project-level support, and capacity-
building of governments and other local institutions. The United States 
is helping build the capacity of governments to strengthen public 
stewardship of the private sector and establish and evaluate their own 
public/private partnerships. These investments will contribute to 
robust and sustainable systems that will ensure quality and 
sustainability. These processes are a central component of our USAID 
Forward reforms, where the Agency is changing its business processes 
and contracting with and providing grants to more and varied local 
partners, and creating true partnerships to create the conditions where 
aid is no longer necessary in the countries where USAID works.
    Ultimately, governments--together with nongovernmental 
organizations, civil society organizations, affected communities, 
faith-based organizations, the private sector and others in countries--
must decide upon their countries' needs and strategies. They are 
responsible for making and sustaining progress, and they must be 
accountable to those served by their health systems.

    Question. Last summer, my staff and I were in contact with your 
office in regard to polio eradication efforts in Pakistan. After 
numerous conversations, I received a letter from Deputy Secretary Nides 
informing me that the State Department was prepared to shift $4.5 
million from FY 2010 maternal and child health programs to bolster 
polio eradication efforts in Pakistan. This was to be combined with $2 
million that was already allocated for these efforts for FY 2011. Were 
those funds actually shifted?

    Answer. Yes. Overall, a total of $10 million in FY 2010 and FY 2011 
funds were programmed for polio eradication in Pakistan. This includes 
the additional $4.5 million in FY 2010 funds, the original $3.5 million 
of FY 2010 funds, and the $2 million in FY 2011 funds, allocated to 
bolster polio eradication initiatives implemented by the World Health 
Organization (WHO) and UNICEF in Pakistan.

    Question. How much is expected to be spent on continued eradication 
efforts in Pakistan?

    Answer. The FY 2013 Congressional Budget Justification includes $2 
million for polio eradication efforts in Pakistan. In FY 2013, USAID 
will reassess the epidemiologic and funding requirements. Projected 
support for both UNICEF and WHO is expected to remain at about $2 
million per year, unless there are compelling emergency funding needs. 
Pakistan receives significant donor funding for polio eradication 
efforts, particularly from Japan, the Bill & Melinda Gates Foundation, 
the World Bank, Britain, and the United States. The Saudi Government, 
through the Islamic Development Bank, and the Gates Foundation, is 
currently working to establish a significant new funding mechanism.

    Question. The administration's FY 2013 budget gives a large 
increase to GAVI 
Alliance to help meet the administration's multiyear pledge. Will those 
additional funds come at the expense of other USG vaccination programs, 
both bilateral and multilateral?

    Answer. The FY 2013 budget request includes $145 million for the 
USG contribution to the Global Alliance for Vaccines and Immunization 
(GAVI Alliance). Vaccines are among the most cost-effective public 
health interventions. This Alliance--with donor and host country 
governments, civil society and the private sector partners--leverages 
USG resources and helps to ensure that our health dollars have the 
greatest impact. For example, the USG pledge has allowed GAVI to 
negotiate a 67-percent price reduction on rotavirus vaccines so that 
children in low-income countries can be protected against this cause of 
diarrheal disease. The priority will be the rollout of pneumococcal 
conjugate and rotavirus vaccines to combat pneumonia and diarrhea, the 
two leading killers of children, and strengthening logistics systems.
    Combined with other donors, the USG contribution will enable the 
GAVI Alliance to immunize an additional 243 million children in 
developing countries over the next 5 years. The USG commitment 
leverages billions of dollars that other donors have committed to GAVI, 
multiplying the impact of our funding more than eightfold.
    The administration recognizes that vaccines alone cannot achieve 
the objectives set forth by the international community to 
significantly reduce childhood deaths due to vaccine preventable 
diseases. Therefore, in addition to the GAVI Alliance contribution, the 
USG is playing an active role in assisting countries to build the 
systems to bring lifesaving vaccines to every child in a sustainable 
manner. USAID collaborates with other USG agencies, as well as 
international organizations, private sector groups and the NGO 
community, to ensure that countries have access to the support that 
they need to bring the vaccines purchased through GAVI to every child. 
Bilateral and multilateral activities to build immunization capacity at 
the local and national level in recipient countries will continue to 
receive support to ensure that vaccine investments made through the 
GAVI Alliance are maximized.

    Question. What is the proposed FY 13 funding level of non-GAVI 
related vaccination programs?

    Answer. The non-GAVI immunization funding by USAID is approximately 
$48 million annually. In addition to the GAVI Alliance contribution and 
bilateral funding for immunizations, the USG plays an active role in 
assisting countries to build systems to bring lifesaving vaccines to 
every child in a sustainable manner.

    Question. I was pleased to learn of the recent polio eradication 
effort success in India; however, I am troubled about the setbacks we 
have seen with efforts in Afghanistan's polio eradication program. The 
United States has been a strong partner on this front. Is there more 
that the United States could be and should be doing to increase the 
immunization rates in Afghanistan?

    Answer. We share your concerns about polio incidence in 
Afghanistan. USAID is providing strong support to facilitate polio 
eradication efforts by working in partnership with the Ministry of 
Public Heath in Afghanistan and the United Nations. Given the public 
health emergency situation, USAID is exploring how we can leverage our 
existing programs and resources across all sectors to help UNICEF and 
WHO's polio eradication efforts nationally, and in high-risk districts 
where wild poliovirus still circulates.
    Supplemental activities currently being examined include: 
increasing awareness and acceptance of polio vaccination in conjunction 
with UNICEF's plan for a multimedia mass communication campaign 
customized for the local context; enhancing local ownership and 
coordination in partnership with the Global Polio Eradication 
Initiative in Afghanistan; increasing vaccination coverage, including 
through strengthening the existing surveillance network and routine 
immunization infrastructure; improving the capacity of the vaccinator 
pool; and doing more work at the border to prevent cross-border 
transmission.
                         global climate change
    Question. Please describe some examples of programs you are funding 
within the Global Climate Change adaptation pillar.

    Answer. Climate change presents countries with new challenges to 
development that are beyond the scope of normal sectoral work, and for 
which new approaches and capacities are essential. For example, 
countries must now understand risks like sea level rise, glacier melt, 
and hazards like fires, diseases, and flash floods spreading to new 
areas; develop methods and capacities for analyzing risks and 
responses, impact modeling and cost-benefit analysis; promote policy 
instruments to spur clean, resilient development; engage especially 
vulnerable stakeholders in climate change responses; and create 
incentives for the private sector to invest in resilient, low-emission 
growth.
    These tasks cannot be addressed thoroughly through existing 
development programs; they go beyond what existing programs are 
designed to do. USAID's adaptation programs are designed to respond to 
these challenges and will be fully aligned with USAID's development 
priorities, but they will be uniquely guided by the climate change 
stresses and opportunities that partner countries face.
    Some global, regional, and bilateral examples of such programs are 
below:

  <bullet> Globally, USAID is investing funding in the Famine Early 
        Warning System (FEWSNet) to support climate change adaptation 
        planning by identifying potential threats to food security, 
        using meteorological data for monthly food security updates, 
        developing regular food security outlooks and alerts, and 
        promoting response planning efforts. FEWSNet identifies 
        national priority zones and populations for adaptation 
        activities in Africa and conducts climate change assessments to 
        better understand variability in seasonal climate patterns. 
        Enhanced monitoring and assessment activities provide earlier 
        information on challenges to the food and water security of 
        communities most vulnerable to climate change.
  <bullet> In Senegal, USAID is working with the Ministry of Maritime 
        Economy to incorporate climate change adaptation into fisheries 
        policies and planning, in line with the priorities of Senegal's 
        National Adaptation Plan of Action. Senegal's coastal areas and 
        marine fisheries are particularly vulnerable to climate change 
        impacts such as higher temperatures and sea level rise. This 
        program's ecosystem-based approach to adaptation in coastal 
        areas is focused on protecting mangroves, estuaries, sea grass 
        beds, dune communities, and other systems on or near shorelines 
        and the benefits they provide.
  <bullet> In Bangladesh, an adaptation and biodiversity conservation 
        program is working in the Sundarbans--the largest mangrove 
        forest in the world--and Bangladesh's first line of defense 
        against rising seas and natural disasters. As a result of USAID 
        interventions, the Bangladesh Forest Department has endorsed an 
        Integrated Resource Management Plan for the Sundarbans to 
        mitigate the effects of natural disasters and provide 
        additional income for poor communities. USAID programs also 
        integrate climate change considerations into community response 
        capabilities and preparedness for natural disasters that are 
        expected to become stronger and more frequent due to climate 
        change.
  <bullet> In Ethiopia, USAID is improving the livelihoods of targeted 
        pastoralists and ex-pastoralists in the lowlands, working to 
        reduce their vulnerability to climate change impacts. The 
        project strengthens the economic base of chronically food-
        insecure and vulnerable households through livelihood 
        diversification, increasing pastoral household incomes, and 
        improving their resilience and adaptive capacity to climate 
        change. A portion of the program also facilitates emergency 
        response to help protect people's livelihoods from risks or 
        crises that would otherwise hinder broader development efforts.

    To build resilience to climate change impacts and other related 
hazards using science-based decisionmaking, USAID will strengthen 
livestock-based early warning and response systems by establishing 
community-based response funds and management systems and 
institutionalizing the early warning and response mechanism within the 
government system.

    Question. How will these programs demonstrate results? How will you 
measure success and effectiveness with U.S. taxpayer investment in 
these programs?

    Answer. As you are well aware, 1 year ago, the Agency issued a new 
Monitoring and Evaluation Policy to renew USAID's leadership on 
monitoring and evaluation. Moving forward, USAID climate change and 
development programs will implement the requirements of this new policy 
which will allow us to monitor, modify, and learn from activities in 
this emerging discipline.
    In addition, the Agency has developed a comprehensive climate 
change results framework and a set of metrics to measure progress, 
which will be refined over time as lessons and trends emerge. Over the 
next few years, the Agency will evaluate results from several key 
climate change integration pilots that are testing different approaches 
to integrating adaptation and mitigation into other USAID development 
endeavors. For instance, a pilot to help smallholder farmers in the 
Dominican Republic adapt their agricultural and business practices to 
better cope with climate variability and change will help the Agency 
evaluate the efficacy of its adaptation interventions and better 
integrate climate adaptation into its broader food security portfolio. 
In addition, Agency GCC and monitoring and evaluation specialists are 
engaging actively with other donors and experts to develop more robust 
adaptation indicators that will better estimate the impact of climate 
adaptation programs.
    In addition, for many years, USAID has required quantification of 
the emissions reduced or avoided from its climate change programs, with 
total emissions reductions reported in our standard annual performance 
reporting. Missions are now reporting on mandatory, standard and 
voluntary indicators.
                        foreign aid transparency
    Question. At the Fourth High Level Forum on Aid Effectiveness in 
Busan, Korea last year, Secretary Clinton committed the United States 
as a new member of the International Aid Transparency Initiative 
(IATI). Please describe what this commitment will require of USAID.

    Answer. The U.S. Government commitment to the International Aid 
Transparency Initiative (IATI) followed on 2 years of work by the 
administration to standardize and centralize access to and 
visualization of information on U.S. foreign assistance. This work 
enabled Secretary Clinton to make the announcement in Busan. Along with 
19 of the executive branch agencies that manage foreign assistance, 
USAID will report its data and information in the data fields and at 
the intervals that are now standardized across the U.S. Government. For 
USAID, this largely entails programming our systems to produce the 
reports needed to make the information available in the standard and 
format that the Foreign Assistance Dashboard requires. It will then be 
converted to the IATI format by the Dashboard support team.

    Question. How will the information differ from that USAID is 
posting on the Foreign Assistance Dashboard?

    Answer. The Dashboard collects a broader set of information for 
U.S. purposes than is required of International Aid Transparency 
Initiative (IATI). During the course of developing the U.S. agenda for 
action on aid transparency, the interagency working group closely 
tracked the development of the IATI standard, and the team supporting 
the Dashboard has ensured that the data fields required by IATI are 
built into the data requirements for the Dashboard. To be clear: the 
Dashboard consists of two parts--a data repository and a Web site. 
Information from the data repository will be converted to the IATI 
format and available via a Dashboard ``button'' which will generate a 
report in the IATI format.

    Question. Does the work in these two systems now make one 
redundant?

    Answer. The Dashboard and International Aid Transparency Initiative 
(IATI) complement each other. The IATI is an agreement on a common 
international standard (i.e., what information is required) and format. 
There is no storage function associated with IATI. Each IATI member is 
responsible for its own data storage. The Dashboard serves as that 
storage function. It will centralize information and convert the 
Dashboard information into the required IATI data fields into the 
agreed IATI format and make it available on the Dashboard Web site for 
retrieval by any party that wishes to avail itself of IATI-compliant 
information. Thus, the two functions dovetail and do not overlap.
                                 ______
                                 

  Responses of USAID Administrator Rajiv Shah to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. The transition of security and governance to the lead of 
the Afghan people by 2014 is a complex operation involving many moving 
parts and challenges. One such challenge is Presidential Decree 62, 
whereby President Hamid Karzai ordered that private security companies 
operating in Afghanistan disband. After an initial renegotiation of the 
order's terms, it was determined that the dissolution deadline was set 
for March 2012, except security contractors employed by NATO and USFOR-
A, which would be permitted to disband a year later, in March 2013. 
Responsibility for securing millions of dollars' worth of projects 
would shift to the Afghan Public Protection Force (APPF), a state-owned 
enterprise that hoped to absorb Afghan security contractors as the 
foreign firms that employed them disbanded.
    In a January 2012 assessment, the Special Inspector General for 
Afghanistan Reconstruction (SIGAR) stated that the APPF was unable to 
carry out a number of tasks, including executing and maintaining the 
business operations necessary to remain viable; recruiting, vetting, 
training, paying, equipping deploying, and sustaining guard forces to 
meet contract requirements; and more. As of December 31, 2011, the APPF 
had 6,558 personnel, according to the Combined Security Transition 
Command-Afghanistan (CSTC-A). SIGAR estimated that APPF would need a 
force of 20,375 to match the number of private security company (PSC) 
contractors working for the Department of Defense in Afghanistan as of 
December 2011.

  <bullet> How many private security contractors are currently working 
        for USAID implementing partners? Is the APPF on track to 
        provide a viable alternative to the PSCs currently working for 
        USAID implementing partners by the end of this month, either in 
        number or in quality of service?

    Answer. Logistical and management challenges remain as the Afghan 
Public Protection Force (APPF) reaches full operating capacity. The 
APPF Advisory Group (AAG), with the support of the U.S. Embassy and 
USAID, is working intensively with the Afghan Government to ensure that 
the transition of guard security to the APPF proceeds at pace. The 
conversion to the APPF on March 20, 2012, was assisted by the decision 
of the Ministry of Interior to offer the option of interim security 
services licenses to private security contractors (PSCs) whose clients 
were already in the process of transitioning to the APPF.
    The staffing capacity of the APPF for development projects, in 
terms of actual guard force, is being filled in large part by staff 
converting from the existing PSCs, supplying a qualified and known 
resource to implementing partners. Currently, there are approximately 
2,900 personnel guarding USAID-funded projects; 1,100 of those guards 
are now serving under the APPF, with the remaining guards soon to 
follow as the transition continues. In addition, USAID implementing 
partners can employ the services of an Afghan Government-licensed and 
approved risk management company to assist in managing the respective 
APPF personnel as well as to provide mentoring, training, and guidance 
to the APPF staff.
    Also of importance, the AAG, comprised of officials from the Afghan 
Ministry of Interior with assistance from ISAF and the USG, remains 
engaged at the highest levels of the Afghanistan Government and at the 
command and control level of the APPF to help with the transition.

    Question. On February 25, in the Afghan Ministry of the Interior 
(MOI) building, an Afghan believed to be an MOI employee shot and 
killed two American servicemembers. NATO Commander Gen. John Allen 
responded by immediately ordering all NATO advisors out of Afghan 
ministries in Kabul. Have any implementing partners expressed concern 
over putting their security in the hands of armed Afghans, given 
escalating tensions?

    Answer. The safety and security of both USAID staff and 
implementing partner personnel who work with USAID in Afghanistan are 
of the highest priority to our Agency. Many people working with USAID 
in Afghanistan have sacrificed to support U.S. national security and to 
help bring stability to the people of Afghanistan. None of USAID's 
implementing partners have indicated that they will cease operations in 
Afghanistan as a result of the transition from PSCs to the APPF. It is 
important to remember that the APPF model anticipates that the same 
guard force employed by PSCs will voluntarily transfer to the APPF. So 
the same people that have provided security, in some cases for years, 
will be on the job as APPF guards. The transition model is a two-part 
process. First, partners contract with the APPF for services, and their 
PSC guards convert to APPF guards; which means same guards, different 
uniforms. Second, the partner may choose to contract with a risk 
management company to provide security advice, training, and 
consulting.

    Question. How will the implementation of Presidential Decree 62 
impact ongoing USAID projects in Afghanistan? Has there been any 
systematic effort to determine which projects will continue, under new 
security arrangements with the APPF, and which implementing partners 
will be unable or unwilling to shift security contracts to the APPF?

    Answer. After Presidential Decree 62 was issued, USAID made a 
concerted effort with its partners to reduce overall reliance on PSCs. 
Many of our partners do not use PSCs, or have reduced their need for 
these services through community engagement and other tested 
approaches. All USAID implementing partners using PSCs were required to 
submit contingency plans to USAID that described their proposed actions 
should the APPF be unable to provide the necessary level of security. 
In total, 32 out of 91 USAID projects have indicated intent to contract 
with APPF for security services; out of this total, 23 have signed 
contracts with the APPF and the remaining are in process.
    USAID, in coordination with DOD, has met several times both in 
Kabul and in Washington, DC, to discuss the transition to APPF with 
implementing partners and offer guidance on the transition to APPF. The 
APPF is providing interim security service licenses to private security 
contractors for a limited time to facilitate an orderly transition. 
None of our partners that require security services have expressed 
unwillingness to contract with the APPF. As with anything new, however, 
issues will need to be resolved throughout the transition phase. In 
this regard, the APPF Advisory Group has been staffed to help 
facilitate dialogue between the partners and the APPF as well as to 
provide technical advice to the APPF.

    Question. USAID's work for women in Afghanistan has achieved 
undeniable progress over the past decade, including marked improvements 
in the maternal mortality rate, increases in the number of girls in 
school, and economic growth opportunities. However, as the U.S. 
military begins its drawdown from the country and the nature of the 
U.S. mission in Afghanistan changes, our entire mission in Afghanistan 
will undergo significant changes.

  <bullet> Will USAID's commitment to women's programming in 
        Afghanistan change along with the U.S.-NATO force drawdown and 
        the anticipated downturn in foreign funding available? What is 
        USAID doing now to ensure that Afghan-led groups continuing 
        women's initiatives are adequately equipped, trained, and 
        empowered to continue their work once the American presence has 
        diminished?

    Answer. USAID is fully committed to ensuring that the progress made 
in women's rights and empowerment is an enduring legacy of our 
assistance to Afghanistan. We will continue to support and expand on 
hard-fought gains. For example, under the Taliban, only 900,000 boys 
and almost no girls were enrolled in schools. Today, more than 7 
million children are enrolled in schools, 35 percent of whom are girls. 
Life expectancy for women has increased from 45 to 64 years, over 25 
percent of seats in Parliament are held by women, and in the last 5 
years, nearly 120,000 girls have graduated from secondary school and an 
estimated 40,000 are enrolled in public and private universities. USAID 
will continue to support and expand on these hard-fought gains.
    Over the past 4 months, USAID has solidified its commitment to 
women's programming with the Gender Equality and Female Empowerment 
Policy and the Counter Trafficking in Persons Policy. Both policies are 
in line with the December 2011 National Action Plan on Women, Peace and 
Security and the related Presidential Executive order on the same topic 
which seek to fully integrate the role of women in peace processes. Our 
activities are closely aligned with the National Action Plan for the 
Women of Afghanistan (NAPWA), which reflects Afghan women's own 
priorities for their political, economic, and social empowerment. As 
Secretary Clinton has reiterated, one of our fundamental conditions for 
insurgents who want to reconcile is that they must commit to abide by 
Afghanistan's Constitution and the rights enshrined in it, most 
particularly women's rights. USAID is taking several steps to reinforce 
our commitment to empowering women which include:

  <bullet> The issuance of a Mission Order on Gender in September 2011 
        which institutionalizes a gender approach for all USAID 
        Afghanistan programming.

      <all>  Evidence of this focus is represented in our 
            ``Stabilization in Key Areas'' program, which will have a 
            Gender Advisor at each of the regional platforms, working 
            with the Contracting Officer's Representative, to enhance 
            coordination and effective project design.

  <bullet> The start of over 20 gender analyses of existing and new 
        programs to ensure that current and future programming is 
        compliant with Agency policy as put forward in the recently 
        released directives referenced above. These analyses will 
        facilitate maximization of USAID funding.
  <bullet> The more than doubling of spending attributed to women and 
        girls since 2008, and the creation of a fully staffed new 
        Gender Unit in 2010.

    In addition, we continue to incorporate women into traditional 
development programs. In the past year alone we have provided more than 
500 grants for capacity-building for civil society, basic education, 
women's equality under the law, land reform, microenterprise, and 
political and social advocacy. USAID advises the Ministry of Women's 
Affairs to help it fulfill its mandate of advocating for policies that 
promote and protect women's rights. Specifically, USAID is working with 
the Ministry on implementation of the NAPWA. We are also fully engaged 
with organizations such as the Afghanistan Independent Human Rights 
Commission and the Afghanistan Women's Network to ensure that they are 
capable of driving a women's rights agenda as well as a gendered 
approach to development.
    We are also developing a new strategy and package of programs that, 
together, will be called ``Women in Transition'' This effort will focus 
on providing mainstream business and employment opportunities for women 
through targeted technical and vocational training, business 
development services and small and medium enterprise financing. Both 
the strategy and programs are designed to firmly entrench women as 
leaders in the development of their own country.

    Question. Yemen is the poorest country in the Arab region, where 
the average citizen survives on less than $2 a day and one-third of the 
population is undernourished. As fuel prices continue to soar, the 
country's water and food shortages worsen and the Yemeni currency 
continues to devalue. Some estimate that Sana'a could be the first 
capital to run out of water, sometime within the next decade.

  <bullet> CRS noted in a December report that in FY 2012, the 
        administration sought $120.16 million in foreign assistance to 
        Yemen, a sum far less than that for other regional recipients. 
        The FY 2013 request for federal assistance for Yemen is just 
        under $77 million, far less than the FY 2012 request. What 
        factored into the large decrease in the request?

    Answer. Yemen remains an important strategic partner of the United 
States. Yemen's FY 2012 653(a) budget of $70.4 million was indeed lower 
than the President's request, due in part, to budget pressures on the 
International Affairs (Function 150) budget.
    The centrally managed humanitarian assistance accounts [such as 
International Disaster Assistance (IDA), Food for Peace (PL 09480) and 
MRA (managed by State/PRM)], and globally managed accounts [such as 
Transition Initiatives (TI)] which have been vital to U.S. assistance 
efforts over the last year are not included in those totals. These 
funds are requested globally rather than on a country-specific basis, 
and will increase overall resources dedicated to advancing our 
objectives in Yemen.
    As you well know, in recent years, the Congress provided additional 
flexibility to handle the Arab Awakening through the Middle East 
Response Fund (MERF) and the new Global Security Contingency Fund 
(GSCF). In FY 2011, Yemen received an additional $8 million from the 
$135M MERF for transition and elections needs in Yemen. In FY 2012, 
Congress provided funding for the GSCF (funded through the State and 
DOD budget), and $90M has been set aside for FY 2012 MERF (funded 
through ESF and INCLE), from which Yemen may benefit. If the 
administration's requested $770 million in FY13 for the Middle East and 
North Africa Incentive Fund (MENA IF) is approved, those funds mayalso 
increase contributions to Yemen.

    Question. The FY 2013 budget request includes $38 million in 
Economic Support Funds for Yemen. This request is $10 million more than 
was allotted for similar programming in 2011. While worsening 
humanitarian and economic conditions in Yemen justify this assistance, 
what steps is USAID taking to address the implementation obstacles 
posed by deteriorating security conditions and political instability?

    Answer. While the security conditions and political instability in 
Yemen do pose program implementation challenges, USAID has continued to 
provide assistance on the ground. USAID's Office of Transition 
Initiatives (OTI) has been in Yemen since 2010 and did not withdraw or 
change geographic focus as a result of the deteriorating security 
condition--their programing was maintained in both the south and the 
north--including in towns and governorates that have been the hardest 
hit by conflict. Additionally, OTI has opened new offices in three key 
urban centers: Sana'a, Taiz, and Aden. USG food and nutrition programs 
are implemented by the World Food Programme and NGOs which have had 
continued access into most of the affected areas.
    USAID's other bilateral programs have responded to the challenges 
in Yemen by shifting toward hiring local NGOs and partners and by 
hiring local staff to work in areas of high security risk. While OTI's 
programs did stay in the more challenging areas, some of our partners 
had to shift their work to more permissive areas including larger urban 
areas (Sana'a, Aden, Taiz, and Ib).
    In addition, USAID's implementing staff colocated their field 
offices with relevant local government partners, including the local 
branches of Health, Agriculture, and Education Ministries, and also 
colocated with Local Councils. Additionally, our implementing partners 
have worked to strengthen their own security protocols, including 
having a low-profile footprint and using GPS trackers and satellite 
phones to improve communications.

    Question. Long before the city of Taiz saw fighting between 
government and opposition forces, this Red Sea port city was making 
headlines for its severe water shortages. Under the best of 
circumstances, water was delivered once every 3 weeks, and families 
prioritized paying for water right above health, education, and other 
expenses. What are USAID's short- and long-term plans to increase water 
security in Yemen?

    Answer. USAID will support a dialogue with the major stakeholders 
on the water concerns in Yemen including representatives from the 
Yemeni Government, water utilities, private water firms, agriculture/
farming groups, and donor countries/international organizations. A 
dialogue will bring major stakeholders together to discuss the issue 
and is intended to encourage consensus around major water management 
and conservation issues. Currently, the Dutch and German Governments, 
and World Bank are playing a major role on water issues, and we will 
work more effectively with them to coordinate on both policy 
recommendations and technical assistance. USAID is currently programing 
in areas including water for agriculture, water conservation and 
storage technologies--including small-scale infrastructure programs 
with communities.
    In addition to policy changes that need to take place, large 
infrastructure projects, including irrigation systems and water 
filtration/desalination plans, are also part of the solution to address 
the water problem. Due to the high costs of such projects, we will work 
to ensure coordination with other donors in identifying solutions.

    Question. Assistance to Lebanon has more than tripled since 2006. 
In that time, Hezbollah has increased its powers within the Lebanese 
Government, and now plays an active role in Lebanese politics. 
Hezbollah holds two ministry positions, and the Hezbollah-led March 8 
Alliance holds 57 parliamentary seats. Hezbollah's continued ties to 
Iran and Syria remain concerning, especially as the Assad regime 
continues its assault against Syrian citizens, and as concerns over the 
potential for weaponization of Iran's nuclear program grow.

  <bullet> A January 2011 CRS report stated that, ``Critics of U.S. 
        policies aimed at weakening Hezbollah argue that while the 
        United States has taken measures to support the Lebanese state, 
        it has not simultaneously taken direct action to limit the 
        influence of Hezbollah in Lebanon and in the region.'' What 
        steps is USAID taking to ensure that U.S. funding is not 
        supporting Hezbollah or its efforts at this critical time?

    Answer. Consistent with Executive Order 13224, terrorist sanctions 
regulations administered by the Office of Foreign Assets Control (OFAC) 
within the U.S. Department of Treasury, the material support and 
terrorist financing criminal statutes found at 18 U.S.C. 2339A, 2339B, 
and 2339C, as well as other related Executive orders, statutes, and 
executive branch policy directives, USAID has over the years taken a 
number of steps to minimize the risk that agency funds and other 
resources might inadvertently benefit individuals or entities that are 
terrorists, supporters of terrorists, or affiliated with terrorists, 
including Hezbollah. They are noted below.
Safeguards to Minimize Risk of Foreign Terrorist Organizations (FTOs) 
        Financing
  <bullet> Mandatory antiterrorism certification clauses within all 
        assistance agreements, including subgrants;
  <bullet> Checks by all partner organizations against the Office of 
        Foreign Assets Control (OFAC) public database, the U.N.'s 1267 
        Committee List on Al-Qaida and the Taliban and Associated 
        Individuals and Entities, and the State Department's Terrorist 
        Exclusion List;
  <bullet> The Contracting/Grant Officer makes a responsibility 
        determination of proposed personnel by contractor or grantee/
        cooperation agreement recipient against the above databases;
  <bullet> Prime awardees are required to conduct open source 
        antiterrorism checks and due diligence on subawardees and key 
        individuals of the subawardees;
  <bullet> Technical officers, prime awardees, and subgrantees are 
        required to implement monitoring and oversight procedures to 
        safeguard against U.S.-provided assistance being diverted to 
        support terrorist activities; and
  <bullet> USAID coordinates closely with the Embassy country team on 
        localized threat information and takes that into account in 
        program implementation and monitoring efforts.
Implementing Partner Level Vetting Mechanisms
    All grant recipients are thoroughly vetted in accordance with USG 
requirements, as follows: The vetting process is completed during the 
grant application phase and documented in accordance with the program's 
established procedures. It is standard practice to vet all of a grant 
recipient organization's board members, key organization staff, and 
staff who will work on the implementation of the specific grant 
activity. It is the responsibility of prime awardees to vet 
subcontractors and grantees. Staff who are selected and employed for 
work on a grant activity after the grant is signed are also vetted, and 
a confirmation of all those that are vetted is included in the grant 
file. Vetting of grantee organization personnel is completed using the 
following Web sites:

  <bullet> Terrorist Exclusion List: http://www.state.gov/s/ct/rls/fs/
        2004/32678.htm.
  <bullet> Foreign Terrorist Organizations: http://www.state.gov/s/ct/
        rls/fs/37191.htm.
  <bullet> OFAC & EPLS: www.epls.gov.
  <bullet> U.N. List: http://www.un.org/Docs/sc/committees/1267/
        1267ListEng.htm.

    In addition to formal vetting through the Web sites listed above, 
implementing partner staffs conduct additional due diligence on 
potential organizations and staff through meetings and discussions with 
community members, other civil society organizations, previous donors 
if applicable, and other stakeholders.

    Question. How do USAID programs limit the influence of Hezbollah?

    Answer. USAID has revamped its program to address key USG strategic 
interests, focusing on maintaining high-profile, high-impact programs 
that promote the message that the people of the United States support 
the Lebanese people.
    USAID is refocusing its democracy and governance programs to 
promote social media and other technology-based tools that expand 
citizen participation and leadership in the political process. A 
particular objective involves expanding the ability of citizens to 
affect the upcoming 2013 Parliamentary elections--the next major event 
on Lebanon's political calendar.
    Additionally, USAID funds are strengthening public institutions 
that offer alternatives to the social services offered by Hezbollah and 
its allies, particularly education and local government services. USAID 
recently announced a new program that will fund Lebanese 
nongovernmental organizations to manage in-kind competitive grants for 
municipal development projects that respond to the governance and 
economic needs of citizens. The project will be implemented throughout 
the Lebanese governorates of North, Bekaa, Mount Lebanon, South 
Lebanon, and Nabatiyeh.
    USAID will continue to support programs aimed at limiting the 
influence of extremist groups on Lebanese youth--including Hezbollah 
and Sunni extremist groups present in Lebanon--through programming in 
the education and civil society sectors. For example, USAID completed 
partial renovation of 37 public schools last autumn and is now 
developing ``Bills of Quantity'' for renovation work of 293 more 
schools over the next three summers.
    Other examples of USAID assistance that appeal to Lebanon's 
citizenry and limit Hezbollah influence include:

    <all> Need-based university scholarships to Lebanese universities;
    <all> Local/village-level support for schools in areas open to USG 
            support;
    <all> Agriculture support that pulls rural farmers into export and 
            processing to substantively and permanently increase 
            incomes through expanding private enterprise for 
            production, processing, and marketing. (These results give 
            rural communities proof that non-Hezbollah supported 
            economic growth provides meaningful, sustainable, and 
            direct benefits.); and
    <all> Reforestation programs that effectively expand the cedar 
            forests decimated over the past decades. Hezbollah has a 
            major reforestation activity and the USG intervention has 
            the possibility of garnering significant and positive 
            public exposure.

    Question. In 2009 Senator Lugar and I introduced the Global Food 
Security Act, which sought to improve the U.S. emergency response to 
food crises, establish a Special Coordinator for Global Food Security, 
increase resources for long-term rural development programs, and 
enhance human capacity through higher education for agriculture and 
extension. Shortly thereafter, President Obama launched the Feed the 
Future initiative, pledging $3.5 billion to help poor countries fight 
hunger by investing in agricultural development.
    The Global Food Security Act would have instituted increased 
authorized funding levels for agriculture, rural development, nutrition 
and the Collaborative Research Support Program (CRSP), as well as 
created a $500 million Emergency Food Assistance Fund to be 
administered by USAID. The administration's Feed the Future initiative 
is ambitious--$3.5 billion over 3 years, and aims to cover much of the 
same ground proposed in the Global Food Security Act--yet without a 
specific authorization from Congress. Sarah Jane Staats, with the 
Center for Global Development, states, ``Indeed, it is hard to find 
fault within the [Feed the Future] initiative; the challenge is what 
lies just beyond its reach: a U.S. global development strategy and a 
streamlined organizational structure that reduces sector and 
initiative-based fragmentation in our aid architecture.''

  <bullet> Does the administration anticipate the need for 
        congressional authorization of the Feed the Future initiative 
        to maintain support for this program? What is the 
        administration doing to ensure that the efforts contained 
        within the Feed the Future initiative become part of a long-
        term, strategic plan for global food security?

    Answer. The Feed the Future Initiative establishes the United 
States as a political and moral force in the fight against hunger and 
poverty. Much of Feed the Future's durability as a new model stems from 
the creation of an overarching whole-of-government strategy, the Feed 
the Future Guide, to combat food insecurity and undernutrition. As 
previous GAO reports have concluded, U.S. Government efforts on food 
security lacked a cohesive interagency strategy. The U.S. Feed the 
Future initiative has been successful in laying out that strategy and 
leveraging the expertise and talents of the relevant agencies across 
the U.S. Government--State, USDA, Peace Corps, MCC, Treasury, USTR, 
Commerce, OPIC and others, both in Washington planning and overseas 
implementation.
    Furthermore, the Bureau for Food Security was established at USAID 
with the explicit goal of institutionalizing Feed the Future and food 
security work within the Agency, understanding the need to integrate 
the strategy into the core business of the Agency. While there is 
little doubt that congressional authorization of the Feed the Future 
initiative could certainly maintain and build support from partners and 
constituents and provide more permanency, stability, and visibility on 
this important issue, we have worked hard to ensure that the 
interagency model that has been established and the heavy foundations 
laid by Feed the Future will not be easily undone and should continue 
to drive a unified USG long-term strategy for fighting global food 
insecurity and undernutrition for years to come.
    Under the existing legislative authority, Feed the Future has been 
able to design and implement food security activities that have 
produced significant results. In FY 2011 alone, Feed the Future 
investments assisted over 3 million farmers in applying new 
agricultural production technologies and management practices, 
increasing the value of export sales by $86 million. Nutrition 
interventions resulted in the decrease in the prevalence of underweight 
children under age 5 participating in USAID programs, from 27 percent 
in FY 2010 to 25 percent in FY 2011. In the 3 years since the L'Aquila 
summit, the United States has gone from a low of $245 million in 
agricultural investment in 2008 for State/USAID and Treasury to $888 
million in 2010, $1.1 billion in 2011, and a request of $1.2 billion in 
2013.

                                 ______
                                 

  Responses of USAID Administrator Rajiv Shah to Questions Submitted 
                          by Senator Tom Udall

    Question. New Mexico, like many of the countries USAID works in, is 
a water-scarce state. Therefore, I can understand the importance of 
improving the efficient use of water. One of the projects USAID has 
highlighted is just across the border in Mexico. Projects in Mexico 
included a project in San Pablo which ``USAID helped strengthen the 
Groundwater Technical Committee of the Central Valley, which developed 
a system of efficient irrigation options for the region . . . USAID 
conducted workshops to educate farmers about how to intensively produce 
organic vegetables and other basic crops while efficiently using water 
and energy resources.'' According to USAID's Web site, the income of 
famers has increased 80 percent. This is astounding and a great example 
of sustainable development. This project was begun in 2003.

  <bullet> Can you speak about other similar projects in Mexico and 
        elsewhere, which are working to improve sustainable development 
        through efficient use of water?

    Answer. USAID is proud of the results achieved under the cited 
project in Mexico. Building on success with the Groundwater Technical 
Committee of the Central Valley, USAID expanded its water quality work 
to the national level by including these activities within the Mexico 
Competitiveness Program (MCP), which began in 2008 and ends in November 
2012.
    Through the MCP, USAID strengthened the capacity of the National 
Association of Water and Sanitation Enterprises (ANEAS) to provide 
efficient service to customers. With USAID assistance, ANEAS adopted 
technical standards to improve meter measurement verification, legal 
affairs, automated document generation, and customer service 
information. As a result, ANEAS now has measurable performance criteria 
that serve to benchmark and improve the capacity of its managers and 
workers, and delivers improved utility services to customers throughout 
the country.
    In addition to its work with ANEAS, USAID helped the National Water 
Commission (CONAGUA) draft regulation for pollution control in the 
Turbio River. USAID also worked with CONAGUA to develop models for 
calculating particulate emissions and the pollution effects on 
infrastructure projects, including dams. As a result, CONAGUA has 
improved its capacity to forecast and control river contamination.

    Question. USAID's Climate Change and Development Strategy/2012-2016 
outlined several guiding principles. These principles are based on the 
challenges USAID has determined that climate change poses to the 
development goals of the United States. The strategy specifically 
stated, ``Climate change is a fundamental stressor that can undermine 
past development gains and threatens future advances.'' The strategy 
itself calls for a dual approach of incorporating both dedicated 
programming in mitigation and adaptation, and integration of climate 
change into the agency's broader development work.

  <bullet> Can you please explain how USAID is attempting to integrate 
        climate change into the agency's broader development work and 
        what goals USAID is hoping to achieve by creating better 
        integration?

    Answer. In support of the new Climate Change and Development 
Strategy, USAID has embarked on a series of integration pilots that 
will help to develop a suite of practices and tools that can be adopted 
throughout the Agency's development portfolio. Pilots will emphasize 
integration of climate change considerations into other administration 
priorities such as the Feed the Future and Global Health Initiatives, 
sustainable economic growth, water, gender, democracy and governance, 
youth, and security. Pilots will demonstrate the potential to generate 
lessons and tools over the next 1 to 4 years. An integration pilot, for 
example, might test ways to reduce energy consumption as part of a 
USAID agriculture program. The results will inform the Agency's wider 
development portfolio moving forward.
    Consideration of climate change in strategic planning, program 
design, and project implementation across a wide range of development 
sectors is essential to the success of USAID's mission. To enhance the 
ability of staff to do integrated programming, USAID has already 
developed and fielded specific training modules on Integrating Global 
Climate Change in Development, as well as sector specific training 
modules, and has developed climate change guidance for country 
strategies. We are analyzing ways to enhance Agency project design, 
management, monitoring and evaluation practices to be better able to 
integrate climate change issues.
Another aspect of the Agency's integration work is to incorporate a 
development perspective into foreign policy debates and international 
dialogues related to climate change. USAID's participation in these 
dialogues is meant to ensure that development considerations are given 
due attention in climate change deliberations and international 
discussions are shaped in ways that provide support to developing 
countries facing climate change challenges.

    Question. USAID's Climate Change and Development Strategy/2012-2016 
also highlighted the need to ``Value Ecosystem Services.'' The strategy 
stated that, ``Well-managed ecosystems provide myriad services such as 
food, water supply and filtration, carbon storage, erosion control, 
flood protection and biological diversity.'' New Mexicans who are 
worried about exacerbated flooding after last summer's wildfires know 
very well the importance of a strong ecosystem to protect the watershed 
against erosion.

  <bullet> Can you please explain why such programs are important and 
        how they will help local economies develop strongly--in 
        essence, how environmental protection improves the likelihood 
        that there will be sustainable economic development in 
        countries overseas?

    Answer. Environmental protection is crucial to human well-being, 
sustainable development and poverty reduction. Ecosystems provide us 
with a variety of goods and services upon which we all depend, 
including food, fuel, clean water and protection from natural hazards. 
Threats to the environment are numerous and include habitat loss and 
degradation, overexploitation of natural resources, pollution and 
climate change. USAID is working around the globe to address the root 
causes of environmental degradation, while at the same time, improving 
the well-being of the people who rely on those resources. There are 
many ways in which USAID is able to support sustainable economic 
development through environmental protection and conservation 
activities. Some of these are highlighted below.
    The primary economy of rural populations in the developing world is 
based on rain-fed agriculture, fisheries, and livestock herding. All 
three sectors are heavily affected by climatic variability, to the 
detriment of the farmers, fishers, and pastoralists who rely on them. 
The evidence shows that the largest threat to rain-fed agriculture and 
healthy rangeland is not overall water scarcity, but extreme rainfall 
variability. This variability means: more intensive rainfall events 
leading to more runoff and erosion and less rain water infiltrating the 
soil; longer intervals between rainfall events meaning that a crop's 
root zone will undergo drying at critical times leading to lower 
yields; changing rainfall patterns meaning shorter growing seasons and/
or complete loss of growing seasons. However, through cost-effective 
technologies and environmental protection programs, including rainfall 
management practices, farmer and fisher-managed natural regeneration, 
conservation agriculture, sustainable agroforestry, and modern 
fisheries management, USAID has helped to increase productivity and 
reduce vulnerability to these threats.
    USAID also supports ``Payments for Environmental [or Ecosystem] 
Services'' (PES) and ``Certified Wildlife-Friendly<SUP>TM</SUP> 
Enterprises'' (WFE). These are market-based approaches to provide 
incentives to local landowners and resource users to implement improved 
resource management practices that maintain major ecological services 
and biodiversity to the economy. USAID has supported development of 
numerous PES and WFE systems for biodiversity conservation (e.g., in 
Cambodia, Guatemala, Kenya, Nepal, Tanzania), watershed management 
(e.g., Bolivia, Ecuador, Mexico, Vietnam), and forest carbon 
sequestration (e.g., Brazil, Cambodia, Guatemala, Kenya, Madagascar, 
Malawi, Mexico, Nepal, and others under development). Downstream 
beneficiaries and tourists reward poor farmers, pastoralists, 
indigenous peoples, and forest dwellers for maintaining valuable 
ecosystem services, thereby reducing the service providers' perceived 
need to degrade those services in order to support their own families. 
This improves the likelihood of sustainable economic development for 
all.
    Another way in which USAID supports environmental protection in 
support of economic development is through community-based conservation 
initiatives, in which local communities are empowered to manage 
resources to achieve conservation and livelihood objectives. In 
Namibia, USAID's investment in the LIFE (Living in a Finite 
Environment) project spawned a communal conservancy movement in that 
country that continues to grow and deliver development impacts in 
biodiversity conservation, improved livelihoods, civil society 
engagement, improved food security and resilience to climate change. 
Community management of resources has led to the remarkable recovery of 
wildlife species, economic growth founded on market demand, 
partnerships with the private sector, and food security. More than 16 
percent of the country's surface area is now managed by conservancies 
and one-eighth of its citizen's benefit from the conservancy movement. 
Annual programmatic income and benefits to community members have 
increased from nothing in 1994 to over $5.7 million in 2008.

    Question. Last years' floods in El Salvador have had a devastating 
impact on the health and welfare of the people in El Salvador. What is 
USAID doing to help El Salvador, a country which is in one of the most 
violent regions of the world, get through this devastating natural 
disaster and how is USAID's budget helping the people of El Salvador 
avoid further instability which may occur as a result of the flood's 
economic impacts?

    Answer. In response to Tropical Depression 12 E in October 2011, 
USAID provided a total of $862,699 in emergency supplies such as 
hygiene kits, kitchen sets, potable water containers, medical supplies 
and equipment, school materials, transitional shelters and fuel for 
Salvadoran Civil Defense operations.
    Even before this particular natural disaster, USAID worked closely 
with El Salvador's Civil Defense on disaster mitigation and response in 
vulnerable communities. USAID provided training, conducted rescue 
simulations and established community disaster response committees. 
This preparedness was markedly evident in this last emergency, 
particularly compared to past disasters, as the country was able to 
react quickly and prevent the loss of lives. USAID continues its 
collaboration and training with El Salvador's Civil Defense, while 
USAID environmental projects work at the community level to improve 
natural resource management, which will help to mitigate global climate 
change effects that increase El Salvador's vulnerability to natural 
disasters.
    Under the Partnership for Growth, USAID has aligned all of its 
assistance to tackle the major constraints to growth in El Salvador--
the crime rate, which is one of the highest in the world, and the low 
economic productivity. Over the long term, reducing crime, increasing 
economic opportunities and sound environmental management will ensure 
the stability that El Salvador needs to grow and prosper.
    USAID is working with the Salvadoran Government, the private 
business sector and local civil and community organizations on crime 
prevention activities that provide at-risk youth safe school 
environments, after school tutoring and recreation and vocational 
training. With USAID assistance, municipalities are developing crime 
prevention plans. A community policing project has helped reduce crime 
in selected communities by up to 33 percent and USAID justice and 
transparency activities provide training and assistance to the courts, 
the Attorney General and Public Defender offices to reduce impunity as 
a deterrent to crime.
    Also under Partnership for Growth, USAID programs continue to help 
El Salvador recover from a series of economic shocks in 2009, as the 
global financial crisis unfolded, and spur economic growth through 
programs created to ensure job creation and the protection of 
vulnerable populations. Activities include job skill training designed 
to match the supply of labor with private sector demands. Another 
program provides at-risk youth the skills necessary to secure decent 
employment. An alliance with a local Salvadoran organization and 
private business support, is working in nine at-risk communities 
surrounding an important business and commercial neighborhood in San 
Salvador to provide technical assistance and training in micro 
enterprise development and career enhancing opportunities.
    Beginning in early 2011, USAID channeled assistance through the 
``Mitigating the Global Financial Crisis Effects in El Salvador'' host 
country system program. The program includes two components: an 
education stipend for families whose children meet a school attendance 
threshold; and a temporary income support program that provides cash 
payments and vocational training to unemployed youth and women heads of 
households in exchange for service in a variety of community 
development projects. USAID is also working with the government of El 
Salvador on fiscal policy and expenditure management. A municipal 
competitiveness activity is helping 50 local governments to improve 
their business enabling environments, attract new trade and investment, 
increase economic activity, and create more employment at the local 
level. USAID is also providing assistance in the development of 17 
Small Business Development Centers.

    Question. The 2010 GAO report on Afghanistan Development titled 
``USAID Continues to Face Challenges in Managing and Overseeing U.S. 
Development Assistance Programs'' contained numerous recommendations. 
Recommendations included (1) ensure programs have performance 
indicators and targets; (2) fully assess and use program data and 
evaluations to shape current programs and inform future programs; (3) 
address preservation of institutional knowledge; and (4) improve 
guidance for the use and management of USAID contractors. USAID 
concurred with the recommendations and my question for you is, what 
progress has USAID made in implementing these recommendations, and how 
much progress is needed to finish the implementation of these 
recommendations?

    Answer. Accountability and oversight is an area that USAID 
leadership has focused on extensively as a key pillar of the Agency's 
USAID Forward reform agenda. In Afghanistan, we have learned hard 
lessons in what is one of the most challenging environments in the 
world and made important corrections in the implementation of 
assistance to enhance effectiveness, accountability and sustainability. 
First, we are ensuring that our programs are increasingly effective by 
setting clear goals and measuring results. When programs are not 
working, we shut them down.
    Second, we have built additional layers of accountability to 
continue to ensure U.S. funds are used for their development purpose. 
Fighting fraud and waste is one of our highest priorities, and we have 
greatly enhanced oversight mechanisms to continue to address these 
matters. For example, our Accountable Assistance for Afghanistan 
initiative (A3) has increased vetting and oversight of USAID projects. 
We have put in place an independent third-party monitoring and 
evaluation team, with the addition of field offices in Kandahar and 
Jalalabad, to extend the agency's oversight reach to these regions.
    Third, we are working to ensure that our efforts are sustainable. 
In 2011, we undertook an intensive review of our entire portfolio in 
Afghanistan, focusing our efforts on delivering results that build 
Afghan self-sufficiency and will be maintained into the future by 
Afghans and given the tough conditions in Afghanistan for implementing 
development assistance, we are constantly refining our approaches to 
improve oversight of projects. We have made extensive progress in the 
areas identified by the GAO recommendations outlined in July 15, 2010, 
testimony before the House Appropriations Committee's Foreign 
Operations subcommittee (http://www.gao.gov/new.items/d10932t.pdf):

    (1) Ensure programs have performance indicators and targets--USAID 
employs an extensive performance management process designed to 
maximize the impact of U.S. foreign assistance programs and manage for 
results while improving knowledge, practices, transparency, and 
accountability of USAID programs. A framework of clear, measureable 
goals and expected results is the heart of effective programming. 
USAID/Afghanistan ensures that programs have performance indicators and 
targets through:

  <bullet> Results Framework: A Results Framework visually represents 
        the development hypothesis, defines goals, development 
        objectives, and multilevel results, along with corresponding 
        performance indicators for each objective and result. Results 
        Frameworks serve as the basis for project design, monitoring, 
        evaluation, performance management and reporting, and 
        ultimately, Performance Management Plans (PMP). Afghanistan's 
        Results Framework includes Embassy programs, making it the 
        first whole Chief of Mission PMP. It was established in the 
        fall of 2010 and has been utilized since the first quarter of 
        FY 2011.
  <bullet> Performance Management Plans (PMP): The PMP provides an 
        outline of targets for the eight overarching assistance 
        objectives, with related intermediate results and indicators. 
        The PMP covers the entire USG foreign assistance portfolio in 
        Afghanistan, including outputs, intermediate outcomes, 
        outcomes, and impacts, which are derived from the Results 
        Framework, and provides indicators linked to those results. 
        USAID implementing partners create their own, separate, 
        project-level PMPs that include indicators from the mission's 
        PMP. They report their progress back to the mission on a 
        quarterly basis via USAID/Afghanistan's Afghan Info system, 
        which is USAID's information storage and retrieval system 
        dedicated specifically to Afghanistan.

    (2) Fully assess and use program data and evaluations to shape 
current programs and inform future programs--USAID utilizes multiple 
mechanisms to fully assess progress by using program data and 
evaluations to shape current and future programs in Afghanistan. USAID 
is incorporating robust monitoring and evaluation (M&E) through the 
following mechanisms:

  <bullet> Third-party Monitoring and Evaluation: Third-party monitors 
        enable USAID staff to have better visibility of projects and 
        assess progress on the ground. USAID has had an M&E contract 
        with an outside firm since 2006 that provides the entire USAID 
        mission with M&E services and special projects services. The 
        mission is committed to maintaining the constant presence of a 
        missionwide third-party monitor in addition to support from 
        other third-party monitors as needed. Since November 2009, over 
        40 assessments have been completed by the third-party monitor 
        in addition to special assessments completed as needed. For 
        example, USAID has recently started a separate M&E contract 
        with MSI and CAERUS that will be dedicated specifically to 
        evaluating stabilization programming.
  <bullet> Establishment of a Monitoring and Evaluation Unit: In 2011, 
        the mission established a separate M&E unit to improve project-
        level oversight, ensure compliance with required agency 
        policies, and see that relevant information is shared and 
        understood widely within the mission. This includes ensuring 
        all evaluation findings are shared and submitted through the 
        Development Experience Clearinghouse within 3 months of 
        completion. All USAID technical offices have designated M&E 
        liaisons, who meet with the core M&E Unit and help ensure that 
        technical offices follow the appropriate M&E guidance. The M&E 
        Unit also maintains the Mission Evaluation Schedule, which sets 
        a timeline of expected evaluations and assessments.
  <bullet> Utilization of onsite monitors (OSM): As of May 2012, USAID/
        Afghanistan has made 318 onsite monitor designations to help 
        monitor programs. OSMs are USAID employees stationed at the 
        field level. They work with project managers to monitor 
        projects; provide information; help manage programs; and 
        communicate strategic thinking. Visits by OSMs supplement the 
        efforts of contracting and assistance officers in the mission, 
        who are also encouraged to visit their project sites to the 
        maximum extent allowable under Chief of Mission authority.

    How these components work together is exemplified in the 
Partnership Contracts for Health Services (PCH) Program implemented by 
the Government of Afghanistan's Ministry of Public Health (MoPH) and is 
considered government-to-government assistance. The MoPH reports on the 
performance of PCH to USAID using a set of agreed indicators each 
quarter. MoPH conducts annual household surveys in 13 provinces to 
measure progress on 10 indicators in the key areas of reproductive 
health, safe motherhood and child health. Monitoring efforts using the 
tools outlined above facilitate discussions with the MoPH on 
identifying how technical assistance programs can or should be adjusted 
to achieve the most impact.

    (3) Address preservation of institutional knowledge--Preserving and 
utilizing institutional knowledge is difficult in Afghanistan where 
there are short tours of duty and limited local staff. To apply lessons 
learned to on-going and future programs USAID is utilizing three 
innovative mechanisms:

  <bullet> Afghan Info: Afghan Info is the Agency's information storage 
        and retrieval system for Afghanistan. Starting in 2010, the 
        mission began using Afghan Info, a database through which 
        implementing partners directly report results against project 
        indicators. The database covers all USAID projects in 
        Afghanistan, including agriculture programs and roads projects. 
        Since February 2012, the system has transitioned to a new Web-
        based platform that will allow us to provide increased 
        oversight of partner reporting and provide the mission with 
        additional management tools, including project evaluation 
        documentation, and project financial data. To improve data 
        quality, USAID has incorporated a Contracting Officer approval 
        mechanism to ensure the accuracy of partner submissions on a 
        quarterly basis. Additionally, geospatial data is included in 
        Afghan Info for all USAID projects with specific locations. By 
        knowing the location of the project sites and examining program 
        performance, USAID will (1) ensure better integration of its 
        programs and coordination among its implementing partners; (2) 
        manage resources; and (3) maximize impact of its programs. 
        Afghan Info also acts as a mechanism to allow OSMs to report 
        their site visits directly against partner site reports and 
        build in safe-guards against reporting errors.
  <bullet> AfPak Hands Program: The Af/Pak Hands program was launched 
        in 2011 to maximize the appointments for Foreign Service 
        Limited (FSL) employees who have completed at least 1 year of 
        field service in Afghanistan or Pakistan. Individuals selected 
        for the AfPak Hands Program serve on a 1-year rotation to the 
        United States in support of USG programs, if they commit to 
        return to the field for an additional year at the end of their 
        tour in the United States. The AfPak Hands Program allows USAID 
        to gain important institutional knowledge through successful, 
        field tested employees, enabling USAID/Washington and the USG 
        to draw on their experience implementing programs in 
        Afghanistan when formulating policy and new programs.
  <bullet> Foreign Service National (FSN) capacity building: USAID is 
        continuing to train its FSN staff to be able to better manage 
        and monitor our programs. FSNs in Afghanistan, as they do in 
        all USAID missions, also help to provide continuity and 
        preserve institutional memory for USAID/Afghanistan.

    (4) Improve guidance for the use and management of USAID 
contractors--In conjunction with the Quadrennial Diplomacy and 
Development Review (QDDR), the USAID Forward reform agenda identifies 
acquisition as a key part of the management agenda, and subsequently, 
actions are underway through USAID Forward to improve the Agency's 
guidance on contractors agencywide. Guidance for the use and management 
of USAID contractors is being strengthened by increasing the USAID 
acquisition work force; allowing personnel to spend more time on 
individual award activities; and providing closer analysis of the use 
and management of USAID contractors.
    At the mission level, in response to the above and to address 
several recommendations from USAID's Accountable Assistance for 
Afghanistan (A3) initiative, several steps have been put in place to 
ensure the improved guidance for the use and management of USAID 
contractors. Chief amongst these is the initiation of a Compliance 
Program with the purpose of taking a proactive approach in identifying 
and correcting deficiencies in compliance amongst both USAID 
Implementing Partners in Afghanistan and internal USAID procedures. 
This program will consist of a dedicated staff of compliance 
specialists to ensure improved management and oversight of USAID 
contractors as well as an external review of all awards. The key goals 
of this program are increased effectiveness of programs; strengthened 
internal controls; improved program oversight and reporting; and 
preventing and reducing fraud. Other measures that have been taken 
include limiting the number of subcontractors to prevent the brokering 
of contracts and no longer allowing construction work to be performed 
under assistance awards to allow for greater control and oversight.

    Question. Access to clean drinking water is major issue in 
developing countries, and an issue which can present many security 
issues for the women and family members who may be tasked with 
traveling long distances to procure safe drinking water. While I was in 
India I was able to participate in the opening of a water health 
project in a village outside of Hyderabad, and witness first-hand how 
this project would change the quality of life of the villagers. This 
project was somewhat unique, in that it employed Ultraviolet technology 
to help clean the water for consumption. Can you please describe how 
the budget for FY 2013 will support the efforts to bring clean 
drinkable water to more people in developing countries and how such 
programs help improve the economic viability of the people who have 
access to clean water?

    Answer. In FY 2013, the President's request for Water programming 
is $299 million, which directly contributes to protecting human health, 
humanitarian crises, broad-based economic growth, enhanced 
environmental and national security and developing public participatory 
processes that improve transparency and accountability. Specifically, 
the funding will support:

  <bullet> Implementation of USAID's dynamic new water strategy now 
        under development.
  <bullet> Continued implementation of the Senator Paul Simon Water for 
        the Poor Act by USAID to expand access to safe water and 
        sanitation and improve hygiene for people around the world; 
        this includes a special focus on supporting access by women to 
        safe water and sanitation.
  <bullet> Provision of water, sanitation, and hygiene (WASH) services 
        to several million people with first-time improved access to 
        water and sanitation; this supports USAID's overall efforts to 
        reduce childhood deaths due to waterborne diarrheal disease.

      <all>  Increasing emphasis on sanitation and hygiene to stay on 
            target, as a development agency, to meet the Millennium 
            Development Goal for drinking water. There is still much to 
            do on sanitation.
      <all>  Shifting from a subsidy model to one that creates demand 
            and new sources of finance for the poor.
      <all>  Developing enabling policies, training, and capacity-
            building needed to ensure that water projects are 
            sustainable.

  <bullet> In addition the Agency also will support water related 
        activities in its Feed the Future and Global Climate Change 
        programs in FY 2013. For example, in Haiti, the ``Watershed 
        Initiative for National Natural Environmental Resources 
        (WINNER),'' project is promoting agricultural intensification, 
        sound natural resources management, and reductions in 
        environmental vulnerability, while increasing both farm and 
        nonfarm incomes in priority watersheds.

    Question. In your professional opinion, what will be the major 
economic challenges Afghanistan will face as the U.S. military proceeds 
with a transition to an Afghan led military mission . . . a transition 
which I hope will be accelerated . . . and what is USAID doing to 
prepare for this future?

    Answer. Afghanistan faces two major economic challenges during 
transition. The first is sustaining economic growth. Since 2002, 
economic growth has averaged nearly 10 percent annually and has been 
positively impacted by international community spending in the services 
sector. The second related economic challenge will be Afghanistan's 
projected fiscal gap. While domestic revenue has risen to nearly 11 
percent of Gross Domestic Product (GDP), international assistance still 
covers much of the country's military, and civilian operational and 
development needs. With the military drawing down, Afghanistan will be 
responsible for more of its own security costs. Continued USAID 
assistance will be critical to help Afghanistan address its future 
economic challenges. USAID has prioritized economic growth in our 
assistance program and is working closely with donor and U.S. 
Government (USG) counterparts to increase Afghanistan's economic 
stability. As outlined in the 2011 U.S. economic report to Congress 
(response to section 1535(c) of the Ike Skelton National Defense 
Authorization Act (NDAA), for Fiscal Year 2011 P.L. 111-383), the USG, 
including USAID, will focus on boosting investment in Afghanistan's 
productive sectors; e.g. agriculture, trade and mining, and reinforcing 
the major pillars of growth--e.g. the business enabling environment. 
Economic reform and growth in these areas will help generate important 
sources of revenue to help Afghanistan narrow its projected fiscal gap. 
Once operational, the mining sector is expected to add revenue 
equivalent to another 1 percent of GDP per year.

                                 ______
                                 

  Responses of USAID Administrator Rajiv Shah to Questions Submitted 
                         by Senator Marco Rubio

    Question. Please provide a detailed justification of the 
administration's decision to cut funding for democracy programs in Cuba 
by 25 percent to $15 million in its FY 2013 budget request.

    Answer. The U.S. commitment to human rights and democracy in Cuba 
remains strong. We will continue our robust program providing 
humanitarian support to political prisoners and their families, 
building civil society and expanding democratic space, and facilitating 
the information flow in, out, and within the island.
    The request for $15M is based on our assessment of needs on the 
ground, and on-island and off-island capacity to carry out programs. In 
addition, the combined pipeline (FY09 to FY11) for Department of State 
and USAID implementers is about $42 million. Assuming full funding for 
FY12 ($20 million) and FY13 ($15 million), we will have sufficient 
funding ($77 million total) to carry out the purposes of the program 
over the next 3 years.

    Question. In its FY 2013 budget request, the administration has 
requested a 57-percent increase in U.S contributions to the Global Fund 
over last year's contributions. At the same time, the administration is 
proposing a $500 million cut to the President's Emergency Plan for AIDS 
Relief (PEPFAR), which has traditionally enjoyed strong bipartisan 
support in Congress.

  <bullet> Please provide a detailed justification of how the 
        administration plans to fulfill its commitment to put 6 million 
        HIV/AIDS victims on life-sustaining antiretroviral treatment by 
        2013.
  <bullet> Please provide a detailed account of the administration's 
        reasoning to dramatically shift the focus of U.S. funding for 
        global health programs from bilateral programs to multilateral 
        organizations.

    Answer. Since the beginning of the Obama administration, PEPFAR's 
focus has been on results--lives saved. The President set ambitious new 
goals on World AIDS Day 2011, including support for treatment of 6 
million people, reaching more than 1.5 million HIV-positive pregnant 
women for prevention of mother-to-child transmission and supporting 
more than 4.7 million voluntary medical male circumcisions by the end 
of fiscal year (FY) 2013. With the FY 2013 budget, we can achieve these 
goals, continue the strong history of U.S. leadership on HIV/AIDS, and 
continue to work for an AIDS-free generation. The FY 2013 budget was 
developed in a tight fiscal environment, and PEPFAR made tough, 
strategic choices in weighing the best way to save the most lives. In 
light of the President's commitment, we carefully considered the PEPFAR 
bilateral funding level needed to ensure that the targets will be 
achieved. By focusing on proven interventions and increasing access to 
life-saving antiretroviral treatment by 50 percent, we can help 
dramatically decrease new infections and meet the goals.
    Every dollar that we invest is going farther, and continued savings 
will allow for the number of persons on services to grow. In FY 2013, 
PEPFAR will continue efforts to achieve greater impact and efficiency 
through smart investments, improve the quality of collected data, and 
target investments to maximize impact by ensuring country programs 
address the realities of the epidemic at the local level. As an example 
of how PEPFAR has been able to increase its impact, PEPFAR has reduced 
the cost of treatment per person per year from over $1,100 to $335, 
with lower costs of drugs, bulk purchasing, and simple changes like 
shipping medication by ground instead of air reducing the cost of 
treatment dramatically. In terms of infrastructure and workforce, 
PEPFAR investments have resulted in a decline of per-patient site-level 
cost by 80 percent in the 2 years following establishment of a 
treatment site. PEPFAR has become more efficient in using health care 
workers, with tasks being more appropriately allocated among trained 
health professionals, ranging from physicians to community health 
workers. We are also focusing resources on the interventions that have 
the greatest impact. By focusing on evidence-based prevention 
interventions, including increasing access to life-saving 
antiretroviral treatment by 50 percent, we are dramatically decreasing 
new infections, and saving money by preventing the need for treatment. 
In terms of shared responsibility, PEPFAR is seeing countries devote 
increased resources to HIV and the health sector. South Africa--the 
country with the largest HIV burden in the world--has dramatically 
increased its financing of its response to over $1 billion per year. In 
addition, increased investments through the Global Fund also free up 
PEPFAR resources to do more. Given these factors, we are confident that 
we will be able to reach the goals under this budget.
    In terms of the allocation between bilateral and multilateral 
programs, the PEPFAR bilateral program is not a stand-alone program, 
and global AIDS funding is a shared responsibility. In most countries 
with PEPFAR support, treatment and prevention programs exist with the 
support of country investments, PEPFAR and the Global Fund. Joint 
funding and program collaboration between PEPFAR and the Global Fund, 
in support of national programs, are allowing for more of the HIV need 
to be met. PEPFAR has been able to leverage Global Fund resources to 
reach more of the unmet need in resource-limited countries. As we move 
aggressively toward a sustainable response, PEPFAR, the Global Fund and 
partner countries are working more closely together--which will 
ultimately produce an overall decrease in PEPFAR's programming costs 
even as services are expanded to reach more people. In addition to 
these country-level impacts, each dollar from the United States for the 
Global Fund leverages $2.50 in contributions from other donors--
increasing our impact. Moving forward, PEPFAR will analyze on an annual 
basis what is needed to continue to put us on a path to an AIDS-free 
generation--shared responsibility, including a strong bilateral program 
complemented by a strong multilateral program and country investments--
and allocate funding accordingly.

    Question. The administration has announced that USAID will take the 
lead in coordinating the President's Global Health Initiative by the 
end of this year.

  <bullet> Please explain, when do you anticipate that happening, and 
        what additional authorities, if any, will USAID be given to 
        manage that initiative successfully and ensure the greatest 
        impact in GHI countries?

    Answer. Secretary Clinton has not yet made a decision on the 
transition of Global Health Initiative (GHI) leadership to USAID.
    USAID is continuing to increase efficiencies and eliminate 
redundancies in our global health programs by working closely with our 
interagency colleagues to tap into the expertise residing in sister 
agencies to deliver health results and achieve the most impact for 
every dollar.
    In addition, USAID is already playing a leadership role on GHI 
country support activities, and monitoring and evaluation, and we 
continue to identify ways to strengthen our work in these areas and 
further increase our collaboration with the interagency.
    USAID has demonstrated strong leadership in the President's Malaria 
Initiative (PMI) and Child Survival, as well as tuberculosis, orphans 
and vulnerable children, maternal health and other health areas. A 
recent PMI external evaluation stated that under USAID's leadership 
``PMI is, by and large, a very successful, well-led component of the 
USG Global Health Initiative.'' In 10 PMI focus countries--Angola, 
Ghana, Kenya, Madagascar, Malawi, Mali, Rwanda, Senegal, Tanzania, and 
Zambia--all cause mortality rates among children under 5 have dropped 
16-50 percent, with PMI efforts being a major contributor.

  <bullet> How will PEPFAR be affected by the transition of GHI to 
        USAID?

    Answer. As stated in the Quadrennial Diplomacy and Development 
Review (QDDR), we do not expect to see a transfer of PEPFAR authorities 
or budgets to USAID as part of a GHI transition.

    Question. The administration is proposing the creation of a $770 
million Middle East and North Africa Incentive Fund to complement 
traditional bilateral U.S. assistance to the countries in the region.

  <bullet> Please provide an explanation of the role you expect USAID 
        to have in implementing this fund.

    Answer. USAID's development planning and implementation expertise 
will be a necessary component as follows:

  <bullet> The MENA IF is designed to drive political change through 
        high-impact development assistance. In this context, USAID will 
        play an important role in the policy development, programming, 
        implementation, and monitoring of MENA IF-supported activities.
  <bullet> Policy/Strategy Development: USAID will work closely with 
        the State Department and others to identify country-specific 
        reform needs and priorities, their relationship to U.S. 
        interests, and the programs and frameworks necessary for 
        reforms to take hold and succeed.
  <bullet> Program Design: USAID will work with the State Department 
        and other interagency stakeholders to engage with the partner 
        country to design specific MENA IF-funded projects.
  <bullet> Program Implementation and Monitoring: The precise 
        mechanisms for implementation and oversight responsibility will 
        depend on the project, and determining the most appropriate USG 
        agency to carry out the program.

                                 ______
                                 

   Responses of USAID Administrator Rajiv Shah to Questions Submitted
                       by Senator James M. Inhofe

    Question. I understand that you received the book I sent you, 
entitled, Sheltered by the King, by my good friends, Mart Gable-Tsadick 
and Demme Tekle-Wold. They run Project Mercy, Inc. (http://
www.projectmercy.org) a Christian, nonprofit organization located in 
Yetebon, Ethiopia, founded in 1977. Over the past 11 years, Project 
Mercy's original mission of caring for street orphans has expanded to 
include emergency relief to African refugees and community development 
programs like literacy outreach and health care education. Marta and 
Demme are now interested in applying for assistance through USAID for 
their ever expanding programs. I believe strongly in their vision and 
mission to help the less fortunate in a struggling part of the world.

  <bullet> Would you please supply my office with the relevant 
        information necessary for Project Mercy to apply for USAID 
        assistance?

    Answer. USAID generally undertakes direct assistance programs to 
benefit developing countries through competitive grants and cooperative 
agreements. This ensures that all activities are concentrated on 
predefined objectives to maximize impact; and that they are consistent, 
mutually reinforcing and draw support from the best available sources. 
USAID publishes Annual Program Statements and Requests for Assistance 
on http://www.grants.gov to advertise competitive assistance programs. 
Detailed instructions on how to apply for each USAID-solicited program 
are contained in each solicitation. Each solicitation also includes a 
point of contact and contact information.
    On occasion, USAID issues assistance awards based on unsolicited 
assistance applications. While unsolicited applications can be received 
and reviewed for funding, potential applicants should be aware that 
only in highly exceptional cases are such applications likely to be 
approved for funding. We suggest Project Mercy view the ``Guide To 
USAID's Assistance Application Process and to Submitting Unsolicited 
Assistance Applications'' (http://www.usaid.gov/policy/ads/300/
30354s1.pdf) if interested in submitting an unsolicited proposal for 
USAID review.
    For additional information on partnering with USAID, Project Mercy 
should 
feel free to contact Ms. Lily Beshawred, Senior Program Officer at the 
USAID Mission in Addis Ababa, Ethiopia, at +251-111-206002 or via e-
mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e525c5b4d565f494c5b5a7e4b4d5f575a1059514810">[email&#160;protected]</a>

    Question. It was raised during your testimony that USAID is 
requesting $469.5 million in fiscal year 2013 funding for President 
Obama's Climate Change Initiative. While the administration's budget 
request has stated that this represents a decline of 2 percent for 
Climate Change, it is troubling that this program is only reduced by 
the same overall reduction of the USAID budget, namely 2 percent.

  <bullet> In this fiscal climate of constraint, would it not make more 
        sense to reduce the Climate Change Program more than other more 
        noncontroversial programs?

    Answer. USAID's environmental resources are strategically 
programmed to focus and concentrate investments for maximum impact. 
USAID's direct investments in adaptation prioritize small island 
developing states, least developed countries, especially in sub-Saharan 
Africa, and glacier dependent countries. Investments in clean energy 
focus on a mix of major emitters and countries with the commitment to 
reduce emissions through energy efficiency and development and 
deployment of renewable energy resources. Sustainable landscape funding 
focuses on countries with globally important forest landscapes, such as 
the Amazon and Congo basins.
    Helping countries manage climate and weather-related risks prevents 
loss of life and property. The livelihoods of 2.5 billion people 
directly depend on climate-sensitive economic activities, such as 
agriculture, fisheries, forestry, and tourism. The poor in developing 
countries will likely be the first and hardest hit by climate change 
impact and are the most likely to lack the capacity to cope with 
economic and environmental shocks.
    At the same time, more than 90 percent of projected growth in 
energy demand will come from developing countries over the next 30 
years, according to the International Energy Agency. Economic growth 
that is more energy- and water-efficient will be cleaner, reduce 
dependency on scarce international resources, and reduce the potential 
for conflict between nations. USAID's work creates an environment for 
private sector investment, providing new markets for U.S. technologies.
    The World Bank and U.S. Geological Survey estimate that every 
dollar spent on disaster preparedness saves $7 dollars in disaster 
response. Helping countries manage environmental and weather-related 
risks prevents loss of life. Left unaddressed, economic losses from 
climate-related disasters and damage in some developing countries could 
be as high as 19 percent of Gross Domestic Product by 2030.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
